IPO2010E003                                December 10, 2010




     Evaluation of Post-Trial Reviews of Courts-Martial
            within the Department of the Navy
Additional Information and Copies
The Department of Defense Office of the Deputy Inspector General for Policy and Oversight,
Assistant Inspector General for Investigative Policy and Oversight, prepared this report. If you
have questions or would like to obtain additional copies, contact Ms. Melvina Coakley at (703)
604-8622 (DSN 664-8622).

Suggestions for Evaluations
To suggest ideas for or to request future evaluations, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas and
requests can also be mailed to:


                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704
                                    INSPECTOR GENERAL 

                                  DEPARTMENT OF DEFENSE 

                                     400 ARMY NAVY DRIVE 

                                ARLINGTON, VIRGINIA 22202-4704 



                                                                         DEC I 0 2010




MEMORANDUM FOR SECRETARY OF THE NAVY

SUBJECT: 	 Evaluation of Post-Trial Reviews of Courts-Martial within the Depmiment of the
           Navy (Report No. IP02010E003)

        This final report is provided for your review and comment. Your comments on the
previous draft repOli were considered in finalizing the report and are included verbatim in the
final report. Management comments on the recommendations m'e summm1zed and discussed in
connection with individual recommendations.

        You generally concurred with the draft mId included technicallfactual corrections mId
updates, which were incorporated. However, the final repOli reflects several continuing
disagreements. We specifically request your comments on these disagreements. Please ensure
we receive your comments on this final report within 30 days. Submit your comments
electronically to melvina.coakley@dodig.mil.

        We appreciate the comiesies extended to the review staff. For additional infonnation or
for any questions you may have, please contact me at (703) 604-8300 or have your staff contact
Ms. Melvina Coakley, (703) 604-8622. You may also contact Mr. Jolm PerrymmI, Director of
Oversight, at (703) 604-8765.




                                              Gordon S. Heddell


cc:
Judge Advocate General of the Navy
SJA to the Commandant, USMC
Table of Contents
I.   INTRODUCTION AND SUMMARy ............ ........ .. .............. ........ .. .............. ........ .. ............. 1
     A. Case Tracking and Management ...................................................................................... 2
     B. Standards and Timelines ....................... ... ..................... ... ..................... ... ......................... 3
     C. Supervision and Oversight ................... ... ..................... ... ..................... ... ......................... 3
     D. Inspections ........................................................................................................................ 4
     E. Chief Defense Counsel .............. .. .............. ........ .. .............. ........ .. .............. ........ .. ............. 5
     F. Improvements Noted ........................................................................................................ 5
     G. Recommendations ........................................................ ... ..................... ... ......................... 6
II. BACKGROUND .................................................................................................................... 6
     A. Senate Armed Services Committee Concern .................... ........ .. .............. ........ .. ............. 6
     B. Uniform Code of Military Justice ...................................... ........ .. .............. ........ .. ............. 7
     C. Military Justice Organization ........................................................................................... 8
III. SCOPE ............................................................................. ... ..................... ... ......................... 9
IV. FINDINGS AND ANALYSIS ............................................................................................... 9
     A. Summary of Problems and Attempted Corrections .......................................................... 9
     B. Do current systems. policies and procedures ensure timely and legally sufficient
        post-trial courts-martial reviews in the Navy and Marine Corps, and are resources
        sufficient? ....................................................................................................................... 18
V. CONCLUSIONS .................................................................................................................. 55
VI. RECOMMENDATIONS ................................ ........ .. .............. ........ .. .............. ........ .. ........... 56
VII. MANAGEMENT COMMENTS .......................................................................................... 66

Appendix A.           Requirement for DoDIG Review ........................................................................                      123
Appendix B.           Court-Martial Post-Trial Process (Summary of Major Legal Steps) ....... .. .........                                       125
Appendix C.           Navy JAG and Marine Corps Organizations ......................................................                             126
Appendix D.           Navy and Marine Corps Field and Appellate Organizations ..............................                                     128
Appendix E.           Naval Legal Service Command ..................................................... .....................                    133
Appendix F.           Relevant Professional Standards .........................................................................                  134
Appendix G.           Relevant Policy and Requirements .................................. .. .............. ........ .. .........                135
Appendix H.           Military Justice Statistics (FY 1990 - FY 2009) ................................................                           137
Appendix I.           Case Law - Unreasonable Post-Trial Delay ............................... ... .....................                         142
Appendix J.           O'Toole Report - Consolidated Recommendations ................... ... .....................                                150
Appendix K.           History of Problems and Attempted Corrections ................................................                             152
Appendix L.           Other Initiatives ............................................................................. .. ........ .. .........   182
Appendix M.           Field Office Process Flow Charts .......................................................................                   186
AppendixN.            Case Management/Electronic Case Filing (CM/ECF) System ...........................                                         196
Appendix o.           Judge Advocate Promotions - Precept Language ...............................................                               198
Appendix P.           Report Distribution .............................................................................................          200
                Evaluation of Post-Trial Reviews of Courts-Martial

                        Within the Department of the Navy

                            (Report No. IPO2010E003)


I.	      INTRODUCTION AND SUMMARY
  In its “Report on the National Defense Authorization Act for 2010,” the Senate Armed Services
  Committee directed the DoDIG to review the systems, policies and procedures for post-trial
  review of courts-martial in the Department of the Navy (DON) and to assess their adequacy (see
  Appendix A). We announced the review on November 4, 2009. After assembling a team with
  the required expertise, we began field work in February 2010, focusing on the following specific
  objectives:

          • the history of Navy and Marine Corps problems and attempted corrections since 1990
  to ensure the appellate review process for general and special courts-martial met legal standards;
          • whether current systems, procedures and policies ensure timely and legally sufficient
  post-trial courts-martial reviews within the Navy and Marine Corps; and
          • whether Navy and Marine Corps resources devoted to post-trial processes,
  information and tracking systems, procedures and policies, and monitoring/supervision are
  adequate to meet due process requirements under the Uniform Code of Military Justice and case
  law.

  The post-trial process begins immediately after a court-martial concludes. The specific actions
  (type and number) entailed in the process are determined by whether the accused was convicted
  and, if so, the sentence imposed. Appendix B is a flow chart showing major legal steps in the
  post-trial process.

  For this review, we focused on the most expansive post-trial processing and review

  requirements—those triggered when a special or general court-martial conviction results in 

  1 year or more in confinement, a punitive discharge, or death. In each such case:


          • the trial counsel must ensure preparation of a verbatim record of trial, which the

  military judge authenticates;

          • the accused, usually through defense counsel, may challenge the court-martial results
  and/or submit matters involving clemency;
          • the staff judge advocate must review the case and prepare a recommendation for

  action by the convening authority (a commander empowered to convene a court-martial);

          • the convening authority must take action approving, modifying, mitigating, or setting
  aside the findings and/or sentence;
          • the staff judge advocate must prepare orders executing the convening authority’s

  action; and

          • the entire record of trial and associated documents must be sent to the Navy-Marine
  Corps Appellate Review Activity (NAMARA) for review, first by Appellate Defense and
  Appellate Government counsel and then for judicial review and decision by the Navy-Marine
  Corps Court of Criminal Appeals (the Court).


                                                  1

To evaluate the post-trial process, we reviewed the governing policy and requirements,
organizational structures and alignments, and pertinent guidance from organizations such as the
American Bar Association (ABA). We also examined previous reports with findings and
recommendations related to Navy appellate reviews. In addition, we met with officials
responsible for appellate reviews in the Navy and Marine Corps, including the Judge Advocate
General of the Navy (Navy JAG) and the Staff Judge Advocate to the Commandant of the
Marine Corps (Marine Corps SJA). For comparative purposes, we also met with Army and Air
Force officials involved in their appellate review processes, and collected and reviewed
information from them. We also visited various Navy and Marine Corps operating sites to view
systems and processes, and interview responsible personnel. In total, we interviewed 71 officials
in the Navy, Marine Corps, and other Services.

We determined that Navy JAGs have not fully accomplished their post-trial military justice
mission as required in statute and regulation. There have been consistent failures in leadership,
supervision and oversight at all organizational levels, impacting military justice in both the Navy
and Marine Corps. The failures resulted in inadequate institutional vigilance to ensure process
health and, in many instances, failures to exercise the diligence and competence required of legal
professionals. Serious post-trial processing problems persisted for at least the last two decades,
and some old Navy and Marine Corps cases with lengthy post-trial processing delays still find
their way into the appellate courts.

Process failures occurred at almost every segment in the post-trial process. They resulted from
inadequate leadership, supervision and oversight over organizations suffering from many policy
and structural deficiencies, including:

        • ineffective Navy and Marine Corps tracking systems and absent, or unenforced,
processing timelines;
        • inadequate policy prescribing expectations and standardized processes, procedures
and checklists for processing courts-martial;
        • decentralized organizational structures wherein every legal office or staff judge
advocate functions independently without higher headquarters oversight or professional
supervision; and
        • ineffective inspections, which either did not detect/identify post-trial problems, or did
not lead to sufficient or lasting corrective actions.

Over the last 3-4 years, many significant improvements have been instituted, including initiatives
not yet completed, or still in planning or development stages. However, unless addressed
appropriately, issues remain that could preclude enduring reform. The principal issues are
summarized below.

       A. Case Tracking and Management
Automated tracking systems for appellate cases have a long and troubled history in the Navy.
The current Case Management, Tracking and Information System (CMTIS) was fielded in
October 2006, substantial modifications were completed in May 2010, and additional
modifications are ongoing. And, the Marine Corps has a separate case tracking system, the Case
Management System (CMS), which was not fielded until February 2010. Although these

                                                 2

systems represent progress in recent years, Navy and Marine Corps managers and supervisors
still do not have the visibility they need from automated systems to monitor case progress and
timeliness across the post-trial process. Two months after our initial data call, the Navy was still
struggling to provide needed case processing information. In comparison, the Army and Air
Force were able to provide case processing information on request.

Some in the Navy JAG organization believe the current CMTIS and Marine Corps CMS have the
capabilities needed to oversee the post-trial process and prevent problems from recurring. The
CMTIS, however, still has significant problems with missing data (individual cases) and “lost”
cases—partial case records “rolled-up” into CMTIS in 2006 and still not accounted for, or cases
never included in CMTIS. One cause for the missing cases may be premature records
destruction, which we were told was a routine practice in at least one Marine Corps installation
until approximately 2006.1

        B. Standards and Timelines
Some post-trial processing problems resulted from nonexistent or inadequate process
standardization, guidelines, checklists, and responsibility assignments across the Navy and
Marine Corps. In any organization, especially one as large as the combined Navy and Marine
Corps, defined and published processes and performance standards are needed to ensure
organizations operate properly, consistently and timely, despite personnel turnovers and the
varying experience/expertise of assigned personnel. Although some officials interviewed
identified the Uniform Code of Military Justice and Manual for Courts-Martial as their process
guides, these overall guides are not sufficiently detailed to assure consistently good or timely
post-trial processes.

In the last 3-4 years, the current leadership team has been attacking problems in the military
justice system, but without published, institutionalized standards and requirements for both field
and headquarters mission areas, this area remains a concern. This year's annual review of
military justice administration in the Navy offers an opportunity to address this issue in greater
detail.

        C. Supervision and Oversight
We found few oversight or supervisory mechanisms embodied in policy or institutionalized
processes, and very limited oversight capability existed historically. Only the Navy JAG and the
Commander, Naval Legal Service Command, who is also the Deputy Navy JAG, have
supervisory authority over Navy field activities and they have limited their oversight capabilities.
Prior to the CMTIS deployment in 2006, Navy field activity performance could not be monitored
and totally depended on individual staff judge advocate experience. An organization without
effective oversight capability cannot ensure subordinate activities perform to acceptable
standards.


1
    A Reserve judge advocate assigned to deal with delay problems after Moreno told us he visited the Office of the
    Staff Judge Advocate at Quantico, VA, and discovered they had routinely disposed of case records at the 5 year
    mark applicable to general administrative files, not unique military justice records. According to this source,
    although this practice had been discontinued when he visited the site, several earlier cases had been destroyed
    based on the erroneous application.

                                                        3

Similarly, prior to the Marine Corps CMS fielding in February 2010, there was no effective way
to monitor Marine Corps field activities. Marine Corps field offices do not have higher
headquarters supervisory legal authority except for the Navy JAG, who historically has not
exercised supervision or oversight over Marine Corps organizations. The Marine Corps SJA is a
headquarters-level staff function without supervisory authority over field legal functions, except
as the Secretary of the Navy, Commandant of the Marine Corps, or Navy JAG confers.2 We
believe the Marine Corps SJA should be empowered to exercise professional supervision over
Marine judge advocates.

The current Navy JAG established the Military Justice Oversight Council in 2009, creating the
first high-level oversight mechanism for military justice we could identify in the Navy. This
council, which includes both the Navy JAG and Marine Corps SJA, has been meeting monthly to
address issues in military justice and review progress in significant cases. In addition, each
week, the Deputy Commander, Naval Legal Service Command, now reviews all cases with
convening authority action dates more than 75 days old to deal with issues and assess process
timeliness. This weekly review, however, depends on ad-hoc reports, is labor intensive, is not
required in policy, and has not ensured all old cases were located or addressed.

        D. Inspections
The Navy JAG has operated an inspection program for many years; however, the program did
not prevent the problems leading to our review. In 2006-2007, the current Navy JAG (then the
Commander, Naval Legal Service Command) substantially redesigned the existing military
justice inspection system, which he believed had become ineffective. The new system
envisioned better, more rigorous field performance assessments through Naval Legal Service
Command case monitoring using CMTIS, field reports on high visibility litigation, surveys, and
more limited inspections during field visits. However, due in large part to CMTIS shortcomings
and not using subject matter experts to examine military justice administration in the field, the
redesigned system did not deliver as expected. The Navy continued not to have the visibility
over cases needed to manage the appellate process effectively. The current Navy JAG
recognized the shortcomings and in June 2010, announced a new inspection program to require
annual inspections, as well as subject matter experts on the inspection teams. He advised us
about the changes in June 2010, when we met to describe our review findings.

Navy inspections have not included Marine Corps activities and prior to 2010, Marine Corps
visits to field activities, which reportedly were conducted under the Commandant’s inherent
authority to manage the force, were designed to assess legal community “health” and address
“command concerns,” but were not thorough inspections based on inspection standards or
checklists. In May 2010, the Marine Corps instituted a Commander-based inspection program
for its Staff Judge Advocate Offices, Law Centers, and Legal Service Support Sections.




2
    For example, under agreement between the Navy JAG and Commandant of the Marine Corps dating to 1999,
    the Marine Corps SJA has had some authority to conduct Article 6 visits/inspections at Marine Corps units, but
    apparently did not exercise the authority prior to 2010.

                                                        4

Without effective case monitoring as described above, coupled with inspections insufficient to
identify problems in the field, the DON has not been in a position to ensure either effectiveness
or timeliness in post-trial processes.3


        E. Chief Defense Counsel
The Navy is the only Service without a Chief Defense Counsel, and does not have an office
responsible for trial defense services Navy-wide. Consequently, no one organization or
supervisory authority is developing policies or training programs tailored to the community's
needs, or overseeing the competence, delivery, or efficiency of defense services in the field.
Unique issues and challenges confronting the defense counsel community warrant this attention.
Not having a functional head for defense counsel issues represents a significant leadership
vacuum in defense practice.

        F. Improvements Noted
According to the Navy JAG and other senior leaders we interviewed, the current leadership team
is committed to fixing the problems in the Navy and Marine Corps. Before this review, they had
completed many initiatives and had many others underway or planned. The leadership team,
including the Assistant Judge Advocate General for Military Justice (Code 02) and individual
leaders in NAMARA and the Court, are all qualified, motivated and committed to improving
quality in military justice administration and litigation practice in the Navy and Marine Corps.
They labored to improve operating practices, developing tracking and other mechanisms to gain
visibility over cases they could not attain through the Navy’s official case tracking system.
Assisted by declining caseloads and staffing surges beginning in 2004, they eliminated an
immense case backlog. Significant improvements contributing to this result included:

        • In 2007, at Navy JAG request, the Secretary of the Navy created a new Chief Judge
of the Navy position, which should improve quality and performance in both the Trial and
Appellate Judiciary.
3
    In commenting on the draft report, the Navy JAG disagreed with our overall assessment:
        Navy post-trial processing has steadily improved as a result of delegating responsibility to . . . [Region Legal
        Service Office] Commanding Officers and holding them accountable to ensure post-trial processing
        compliance. Of cases tried after the Moreno case's effective date (10 June 2006), no Navy or Marine Corps
        case has required relief for unreasonable post-trial delay by either the . . . [Court] or the . . . [Court of Appeals
        for the Armed Forces]. That is a reflection of the improvement in timeliness at every segment of post-trial
        processing. The average time from sentencing to convening authority's action in FY07 (the first year for
        which CMTIS has complete data) was 93 days - already within the Moreno guidelines issued the year before.
        The average time for this segment of the post-trial process declined further by FY10 to 83 days. In fact, every
        year since Moreno, the average time from sentencing to convening authority's action has remained well
        below the 120 days permitted by the established guidelines. The average time from the convening authority's
        action to receipt for docketing has also fallen from a high of 69 days in FY 07 to 14 days in FY 10 -less than
        half of the Moreno guideline. Of those cases docketed after the Moreno case's effective date in 2006, only
        ten Navy or Marine Corps cases exceeded 18 months from docketing to decision by the NMCCA.

    This level of specificity was not available from the Navy when we completed our field work. As discussed in
    this report, data inaccuracies and limitations in CMTIS prevented this type determination. In addition, neither
    CMTIS, the ad-hoc systems implemented to gain visibility over cases in the field, nor the quarterly “audits”
    conducted to identify lost/missing appellate cases prevented surprise when the Bartolo case surfaced during our
    review.

                                                                 5

              • In 2009, the Navy JAG established a new Judicial Screening Board process, which
      should enhance competence and credibility in judges assigned to the Court.
              • In 2009, to help assure needed continuity and expertise, the Navy JAG civilianized
      the Deputy Director positions in the Appellate Defense and Appellate Government Divisions—
      the individuals in these positions will be critical in managing workload and staff, identifying
      caseload surge indicators, and securing resources and support to prevent backlogs from
      recurring.
              • In 2009, the Navy published the first-ever policy for the Court [Judge Advocate

      General Instruction (JAGINST) 5814.1, “Navy-Marine Corps Court of Criminal Appeals,”

      August 3, 2009], and new “Rules of Practice and Procedure Including Internal Operating

      Procedures” (effective February 1, 2010), providing some much needed standardization. 

              • Following the “Report on the State of Navy Military Justice,” July 1, 2009 (the
      O'Toole report), the Navy JAG committed to reviewing annually the state of military justice in
      the Navy—these annual reviews should help improve effectiveness in both existing and new
      processes/programs, but the Marine Corps should be included in the reviews. Similarly, the
      recently-adopted Military Justice Oversight Council, which the Navy JAG chairs, is an important
      step in establishing the higher-headquarters supervisory review and oversight lacking
      historically.

      Current staffing in the appellate divisions and Court appears sufficient to maintain timely
      processing, if current case levels continue. However, the appellate divisions and Court could not
      accomplish their day-to-day missions without substantial Reserve support. Assignment selection
      policies should be tailored to assure a well-qualified active duty complement, as well as a ready
      Reserve resource, for these divisions and the Court.

              G. Recommendations
      Section VI. of this report includes our detailed recommendations to address these principal issues
      and others identified in the review.

      Upon completing our review, we issued a draft report with 16 recommendations for
      improvement in DON post-trial processing. The DON concurred with 14 recommendations and
      concurred in part with 2 recommendations.4 The comments on recommendations are described
      and addressed in Section VI. Section VII is the complete DON response to the draft report.

II.           BACKGROUND
              A. Senate Armed Services Committee Concern
      In Toohey v. United States, 60 M.J. 100 (C.A.A.F. 2004), the U. S. Court of Appeals for the
      Armed Forces established standards for assessing whether convicted Service members had been
      denied due process under the Fifth Amendment to the Constitution as a result of being denied
      timely processing of their appellate cases. Since then, a succession of Navy and Marine Corps



      4
          In finalizing the report, we consolidated two recommendations into others to avoid overlap/redundancy.

                                                              6

cases have addressed extremely lengthy delays in appellate reviews.5 In United States v. Foster
(N.M.C.C.A. No. 200101955, February 17, 2009), a Marine’s conviction for domestic rape was
set aside because the conviction “could not withstand the test for legal and factual sufficiency.”
Foster had been confined for more than 9 years awaiting his automatic appellate review when his
conviction was overturned.

According to the Senate Armed Services Committee:

            . . . These cases demonstrate that cognizant legal authorities in the
            Department of the Navy have not taken necessary and appropriate steps to
            ensure that the resources, command attention, and necessary supervision
            have been devoted to the task of ensuring that the Navy and Marine Corps
            post-trial military justice system functions properly in all cases. . . .

        B. Uniform Code of Military Justice
The Uniform Code of Military Justice, 10 U.S.C. §§ 801-946, is the statutory foundation for the
criminal justice system in the U.S. Armed Forces. The Uniform Code of Military Justice
contains the non-judicial and judicial structures by which military members are disciplined for
criminal misconduct. The punitive articles contained in §§ 877-934 (Articles 77 through 134)
constitute the criminal code promulgated pursuant to the Congress’ constitutional authority to
make rules for regulating land and naval forces.

Courts-martial are the military forum for criminal trials and are conducted pursuant to provisions
in the Uniform Code of Military Justice, as amplified in the Manual for Courts-Martial,
promulgated by presidential Executive Order. As compared to civilian Federal courts, military
courts have procedural differences to accommodate a highly-mobile military organization that
must carry its code worldwide and function in austere and remote circumstances.

The military commander, who is the cornerstone of the military justice system, is responsible for
building an effective, well-disciplined force and must possess authority to assure discipline.
When a Service member commits a crime, a commander (one specifically designated as a
convening authority) decides whether to convene a court-martial and send a person to trial
(referral).

If the trial results in a conviction, the convening authority reviews the case and takes action on
the findings and sentence. If the approved sentence includes death, dismissal of an officer,
dishonorable discharge, bad-conduct discharge, or confinement for 1 year or more, the cognizant
Service court of criminal appeals reviews the case.

In the Department of the Navy, the Navy-Marine Corps Court of Criminal Appeals fulfills this
first-level appellate review function. Service courts of criminal appeals review cases for legal
error, factual sufficiency, and sentence appropriateness. Senior military lawyers serve as judges


5
    These cases include United States v. Jones, 61 M.J. 80 (C.A.A.F. 2005); United States v. Allison, 63 M.J. 365
    (C.A.A.F. 2006); United States v. Dearing, 63 M.J. 478 (C.A.A.F. 2006); United States v. Moreno, 63 M.J.
    129 (C.A.A.F. 2006); and most recently, the unpublished Foster case.

                                                        7

on these appeals courts. Service Judge Advocates General review, for error, those cases
involving less severe sentences arising from general court-martial convictions.

After a Service court of criminal appeals review, a convicted Service member may petition the
U.S. Court of Appeals for the Armed Forces for further review. Unless the sentence extends to
death, the Court of Appeals for the Armed Forces has discretion to grant or deny the additional
appellate review. Review is required in a death case.

Five civilian judges, without fact-finding authority, comprise the U.S. Court of Appeals for the
Armed Forces. If unsuccessful in the military courts, the convicted Service member may petition
the U.S. Supreme Court to review the conviction. U.S. Supreme Court reviews are rare.

A convicted Service member is entitled by law to receive legal assistance and representation
from a military appellate defense counsel, without cost, before a Service court of criminal
appeals, the U.S. Court of Appeals for the Armed Forces, and the U.S. Supreme Court. The
Service member may also retain a civilian attorney, at personal expense.

       C.      Military Justice Organization
Under Secretary of the Navy Instruction (SECNAVINST) 5430.27C, “Responsibility of the
Judge Advocate General of the Navy and the Staff Judge Advocate to the Commandant of the
Marine Corps for Supervision and Provision of Certain Legal Services,” April 17, 2009, the
Navy JAG:

            . . . is responsible for providing and supervising the provision of legal
            advice and related services throughout the Department of the Navy in the
            following areas:

            a.	 Military Justice. The JAG is responsible for the military justice
                function within the Department of the Navy. The military justice
                function includes, but is not limited to, the implementation, execution,
                management, and oversight of the military criminal justice system at
                the trial and appellate levels. In performing this function, the JAG has
                primary responsibility for military justice matters within the Navy,
                including: inspecting Naval Legal Service Command legal offices;
                certifying military judges for practice on the bench; certifying trial
                and defense counsel for practice in military courts-martial; taking
                action in certain courts-martial if the convening authority fails to do
                so; receiving records of trial from military courts-martial; establishing
                and staffing the Navy and Marine Corps Court of Criminal Appeals;
                and ordering review of certain cases by the Court of Appeals for the
                Armed Forces. . .

The Navy JAG and Marine Corps organizational structures are shown in Appendix C. Their
field and appellate-level organizations involved in military justice are described in Appendix D.




                                                 8

III.	        SCOPE
      To assist us in evaluating the post-trial processes, systems and procedures (past and present) for
      courts-martial in the DON, we retained the services (temporary appointment) of a retired
      Brigadier General from the Air Force Judge Advocate General Corps who had served as a
      defense counsel, government counsel, and judge advocate at all organizational and command
      levels. We then reviewed the governing DoD and Service policy and other guidance documents,
      organizational structures and alignments, and other pertinent requirements or guidance from
      organizations such as the ABA. We also reviewed previous reports with findings and 

      recommendations related to Navy and Marine Corps appellate reviews. 


      We met with the Navy JAG, Marine Corps SJA, their senior staffs, and various other Navy and
      Marine Corps officials involved in appellate reviews in the DON. For comparative purposes, we
      also met with Army and Air Force officials involved in their appellate reviews, and collected and
      reviewed information from them.

      In addition, we visited various Navy and Marine Corps operating sites, including division heads
      and staffs at the Washington Navy Yard, the Pentagon, the Navy Region Legal Service Offices
      in Norfolk, Virginia, and San Diego, California, the Marine Corps Joint Law Center at Quantico,
      Virginia, and Marine Corps Legal Services Support Sections at Camp LeJeune, North Carolina,
      and Camp Pendelton, California. In total, we interviewed 71 officials in the Navy, Marine
      Corps, and other Services.

IV.          FINDINGS AND ANALYSIS
             A.      Summary of Problems and Attempted Corrections
      Serious post-trial processing problems have persisted in the Navy and Marine Corps for at least
      two decades. Some old post-trial delay cases still find their way to the appellate court. Although
      the current data are inadequate to determine the extent to which old cases will continue arriving
      at the Court, the data indicate a continuation is likely.

                     1. Standards

                        a. 	 U. S. Constitution
      The 5th Amendment to the Constitution provides that "No person shall be . . . deprived of life,
      liberty, or property, without due process of law." The U.S. Court of Appeals for the Armed
      Forces has interpreted this provision as extending to post-trial processing delays in courts-
      martial.

                        b.	 Courts-Martial
      The Uniform Code of Military Justice (10 U.S.C. § 801 et seq.) and its promulgating Executive
      Order, the Manual for Courts-Martial, set forth the requirements and procedures for post-trial
      processing. These documents prescribe few specific timelines for post-trial processing, and
      those prescribed generally address defense counsel's duty to respond. There are occasional, non-
      directive exhortations in discussion sections to act "promptly" (e.g., provide written notice of
      findings and sentence, R.C.M. 502 (d)(5) in Discussion (F)), but there is no specified entitlement

                                                      9

to speedy post-trial processing. However, the U.S. Court of Appeals for the Armed Forces
(formerly the U.S. Court of Military Appeals) has interpreted Articles 66 and 70, Uniform Code
of Military Justice, as affording appellants a right to timely review and to defense counsel able to
represent them in both a competent and timely manner before the court of criminal appeals (see
Diaz, infra).

                   c. Professional Responsibility
Each state bar association publishes rules of professional responsibility governing the
professional conduct of all attorneys licensed by the state. Failure to adhere to these rules can
result in suspension or disbarment from practicing law in the state.

Over the years, the ABA has developed and published model Codes or Rules for Professional
Responsibility. These rules assist state licensing authorities in formulating their rules of practice.
There is also an ABA Model Code of Judicial Conduct pertaining specifically to judicial activity,
which has been widely adopted.

Additionally, each Military Department has regulations detailing rules of professional
responsibility to govern the practice of law by all uniformed and civilian attorneys working
within the judge advocate corps or department. Furthermore, for military judges, the Army and
Air Force have Service-specific Codes of Judicial conduct. The DON does not have a
department-specific code, but has adopted the ABA’s Code of Judicial Conduct for the Court.

A Service attorney is governed by the rules of the state of licensure and the employing military
Service. Although there are periodic changes in these rules, for periods assessed in this review,
they have always imposed a duty on counsel to act diligently to promote fair and efficient
administration of justice. A list of important professional responsibility requirements relevant to
this review are summarized in Appendix F.

                   d. Case Law
Many standards pertinent to administering military justice emanate from military and U.S.
Supreme Court decisions. These decisions are binding on the Services, which are required to
comply. Three important decisions are summarized below:

(1) Dunlap v. Convening Authority, 48 C.M.R. 751 (1974) (Army case): The then U.S. Court
of Military Appeals tackled the problem of post-trial delay by imposing a rule presuming a
denial of speedy disposition when an accused was continuously confined after trial and the
convening authority did not promulgate final action within 90 days. Failure to comply with this
standard resulted in automatic dismissal of charges unless the Government could demonstrate
diligence.

The court noted delays in convening authority actions had been the subject of critical court
comments for a number of years. The court stated "Congress has commanded timeliness of
proceedings not only for the pretrial stages of the courts-martial processes and the trial, but also
in the appellate process. . . . Years of experience have demonstrated the need for a guideline as
to the timeliness of the convening authority's action when the accused is continued or placed in
arrest or confinement after conviction by the court-martial."

                                                 10 

This 90 day rule became the established standard until its 1979 rescission in U.S. v. Banks,
7 M.J. 92 (C.M.A. 1979). In Banks, the Court reiterated the importance of timeliness in post­
trial review, but concluded process improvements had eliminated the need for the inflexible
90 day rule imposed in Dunlap.

(2) Diaz v. Judge Advocate General of the Navy, 59 M.J. 34 (C.A.A.F. 2003) (Navy case): The
U.S. Court of Appeals for the Armed Forces determined that an accused has a 5th Amendment
due process right and an Article 66, Uniform Code of Military Justice, right to timely review of
the findings and sentence at all stages of the proceeding. Furthermore, the Government has a
statutory obligation under Article 70, Uniform Code of Military Justice, to provide appellants
with counsel who can represent them in both a competent and timely manner.

(3) U.S. v. Moreno, 63 M.J. 129 (C.A.A.F. 2006) (Marine Corps case): A host of military
appellate court decisions in the last several decades addressed post-trial processing delay
problems. Although all the Services had cases with unacceptably long delays, the Navy and
Marine Corps experienced consistently more difficulty in correcting the systemic practices
causing the delays. Consequently, in 2006, the U.S. Court of Appeals for the Armed Forces
established standards for measuring post-trial processing delays to determine whether a delay
was unreasonable and whether the appellant was prejudiced thereby.

In Moreno, the Court, frustrated by years of unheeded warnings, declared it would "apply a
presumption of unreasonable delay" whenever:

            •   the action of the convening authority is not taken within 120 days of the completion
of trial;
       • the record of trial is not docketed by the Service Court of Criminal Appeals within
30 days of the convening authority's action; or
       • appellate review is not completed and a decision is not rendered within 18 months of
docketing the case before the court of criminal appeals.

In announcing its decision, the U.S. Court of Appeals for the Armed Forces was clear that
administrative, manpower and workload factors were not acceptable factors excusing delay and
did not "trump the Article 66 and due process rights of appellants." The U.S. Court of Appeals
for the Armed Forces was also clear it expected convening authorities, reviewing authorities, and
courts of criminal appeal to document the reasons for delay and exercise the institutional
vigilance absent in Moreno.

These Moreno timelines are the primary standards the Navy and Marine Corps currently use to
measure timeliness in post-trial processing.

                       e. Policy
Relevant policy and requirements are listed in Appendix G.




                                                    11 

                2. Facts
There is no reliable database or reporting system to identify or assess either the nature or extent
of the DON's post-trial processing problems, either historically or currently. Information from
automated systems pre-dating the 2006 CMTIS was generally unavailable or unreliable, and
many data points could not be provided for our review. Additionally, the Navy used several
different systems since 1980, and the Navy and Marine Corps continue to use different systems.
The Marine Corps system did not provide any headquarters-level visibility until late 2009, and
information was not reliable until the modified CMS was fielded in February 2010.

Article 146, Uniform Code of Military Justice, establishes a committee to meet annually and
survey Uniform Code of Military Justice operations. The Committee is composed of judges
from the U.S. Court of Appeals for the Armed Forces, the Judge Advocates General of the Army,
Navy, Air Force, and Coast Guard, the Marine Corps SJA, and two members of the public,
which the Secretary of Defense appoints. The resulting Annual Reports of the Code Committee
on Military Justice are published and are available on the web. The military justice data in these
reports is the most complete, reliable information on historical performance available for the
Navy and Marine Corps.

Appendix H is based on these annual reports and shows the numbers of courts-martial within the
DoD, by Service and in total, for Fiscal Years 1990 through 2009 (the past 20 fiscal years).
Appendix H also shows the numbers of records of trial that the Service courts of appeal received,
by Service and in total, and the cases they reviewed, by Service and in total, during the 20 years.

As can be seen in Appendix H, over the 20 years, the Navy and Marine Corps accounted for over
61 percent of the total DoD courts-martial, and over 56 percent of the total DoD appellate cases
reviewed. Over the 20 years, the Navy and Marine Corps also accounted for over 56 percent of
the total general and special courts-martial conducted in the DoD. The graph below shows the
trend in general and special courts-martial in the Navy and Marine Corps.

                                             Navy and Marine Corps
                                        General and Special Courts-Martial
                                                FY 1990 - FY 2009
                          7000
  No. of Courts-Martial




                          6000
                          5000
                          4000
                          3000
                                                                                               GCM
                          2000
                          1000                                                                 SPCM
                             0
                                 90 91 92 93 94 95 96 97 98 99 00 01 02 03 04 05 06 07 08 09
                                                          Fiscal Year




                                                               12 

As can be seen above, the number of general and special courts-martial declined significantly, from
5,999 in FY 1990 to 1,112 in FY 2009. The decline was relatively steady over the years, although
there were slight “bubble” increases in FYs 1996-1997, FYs 2000-2002, and FY 2004.

The general and special courts-martial involved in our review were those resulting in convictions in
which the accused was sentenced to a year or more in confinement, a punitive discharge, or
death. In these cases, the appeal process was supposed to have occurred automatically, unless the
accused waived the appeal right (not permitted in a death case). The appeal process is shown in
Appendix B.

To help assess historic and current post-trial practices, we researched case law dating to the
1970s and extracted cases illustrating the range and nature of the post-trial processing problems.
See Appendix I. In addition, at our request, the Appellate Government Division (Code 46)
searched the Lexis legal database, identifying 53 cases from the Court of Appeals for the Armed
Forces and 195 cases from the Navy-Marine Corps Court of Criminal Appeals, all involving
post-trial delay issues completed in the courts since 1990. Finally, an Office of the Judge
Advocate General briefing slide from 2006 identified 19 cases decided in the 6 weeks
December 1, 2005, through January 17, 2006, all with post-trial delays the Court found
unreasonable.

One previous report was particularly helpful in examining the post-trial processing delay history.
On May 4, 2009, in the wake of Foster,6 the Navy JAG, then Vice Admiral Bruce MacDonald,
directed Captain Daniel O'Toole and a panel of experts to examine the state of military justice in
the U.S. Navy. In the resulting “Report on the State of Military Justice,” July 1, 2009 (O’Toole
report), Captain O’Toole concluded a series of events led to an environment in which a case like
Foster was permitted to happen, and the Navy Judge Advocate General Corps needed to re-focus
on its statutory military justice mission. The Navy JAG approved Captain O'Toole's findings and
recommendations, and the newly-nominated Marine Corps SJA concurred.7 Relevant discussion
and findings from the O'Toole report are referenced, summarized, or quoted throughout this
report. Recommendations from the report are listed in Appendix J.

The history of problems and attempted corrections are described in Appendix K.

               3. Discussion
Many factors contributed to the persistent post-trial delay problems in the Navy and Marine
Corps over the past two decades. Military justice lost focus as the core judge advocate mission
area, and process failures occurred at every segment in the post-trial process. Despite multiple
warnings and opportunities for reform, post-trial processing issues did not command sufficient
senior leadership attention or interest. In 2006, frustrated by years of inaction in addressing the
problems, the U.S. Court of Appeals for the Armed Forces established strict processing timelines
in the Moreno case in an effort to take control of a situation the Navy and Marine Corps would
not address. Over the years, the appellate courts repeatedly addressed inadequate "institutional

6
    Approximately 10 years from sentence to final appellate decision.

7
    The charter for the review did not include Marine Corps operations. According to Captain O’Toole, his review

    was only one part of the multi-review process initiated after Foster to assess Navy and Marine Corps processes
    and accountability.

                                                       13 

vigilance" and inadequate “professional diligence” demonstrated in multiple delay cases
presented for court review.

Longstanding process failures stemmed from inadequate leadership, supervision and oversight in
organizations suffering from many policy and structural impediments, including:

        • ineffective tracking systems and absent or unenforced processing timelines;
        • inadequate Service-wide policy prescribing Service expectations and standardizing
processes, procedures and checklists for processing courts-martial;
        • an almost unmanageable number of Navy convening authorities (every ship
commanding officer is a convening authority), as contrasted to other Services where the number
is far more constrained; and
        • very decentralized organizational structures wherein every legal office or staff judge
advocate functions independently without higher headquarters oversight or professional
supervision.

Through statute and Secretary of the Navy Instruction the Navy JAG is responsible for
administering military justice in both the Navy and Marine Corps. Historically, however, the
Navy JAG appears to have exercised little oversight over Marine Corps practices or problems.
In addition, prior to the Foster case, the Navy JAG did little to address post-trial delay problems
in either the Navy or Marine Corps.

Our review focused on problems and attempted corrections over the past 20 years. Although
Article 6 inspections8 were conducted, the inspections were not rigorous or sufficiently thorough
to highlight the significant process problems pervasive in both Navy and Marine Corps field
units.9 In 2006, the Moreno case triggered significant and well-intentioned efforts to address
longstanding process problems and case tracking. However, Navy's reliance on its case tracking
system (CMTIS - fielded in October 2006), its decision to undertake nonprocess-oriented field
inspections, and the Marine Corps' lack of any substantive inspection system prior to May 2010,
contributed to the overall difficulties in identifying and remedying post-trial process and delay
problems.

Our review revealed lengthy delays and inadequate process/tracking at every major action point,
including:

        •    preparing staff judge advocate reviews and convening authority actions;
        •    distributing records of trial to NAMARA;
        •    receiving and processing records of trial at NAMARA and the Court;


8
    Section 806, Article 6(a), Uniform Code of Military Justice, provides “. . . [t]he Judge Advocate General or
    senior members of his staff shall make frequent inspection in the field in supervision of the administration of
    military justice. . . .” These inspections are generally referred to as Article 6 inspections.
9
    The Navy JAG did not typically conduct Article 6 inspections at Marine Corps units, instead deferring the
    responsibility to the Marine Corps SJA. On June 14, 2010, the Navy JAG published JAGINST 5040.1,
    “Uniform Code of Military Justice Article 6 Legal Office Assessments.” The previous draft version was the
    template for inspections from about 2007 until the final publication.

                                                         14 

          •    delays and excessive time extensions in the Appellate Defense Division (Code 45);10
and
          •     productivity and workload management issues in the Court.

When case backlogs began in the late 1990s, and again in the early to mid-2000s, staffing issues
aggravated the backlogs. Staff increases for the Court and the Appellate Defense Division
(Code 45) were not sufficient or timely to address the growing backlogs. Requests for increased
staffing went unheeded until the case backlogs reached crisis stage.

Tracking/monitoring systems were ineffective in affording sufficient visibility over “choke
points,” and the various divisions could not anticipate the growing caseload. Additionally,
although responsible for cases after docketing, the Court did not take effective action to address
the growing delay and backlog problems. Instead, the Court effectively surrendered its case
management authority to an ever-increasing number of time extensions.

Overall, the Navy JAG and senior leadership did not satisfactorily identify, address, or fix the
severe post-trial processing problems that recurred over two decades despite many warnings and
trouble signs. When curative measures were taken, they were often short-lived or insufficiently
institutionalized to endure past the incumbency of individuals who resolved problems at the time.

Prior to fielding CMTIS in October 2006, the Navy did not have an overall system capability to
track courts-martial from the field to the Court. The focus seemed to be on “today,” with little
attention to reviewing trends or conducting analyses to alleviate long-term problems or prevent
future problems, except when particular issues surfaced requiring resolution. NAMARA and the
courts were unable to anticipate workload and locate the many old, missing and unaccounted
cases.

Individual court decisions in 1984, 1994, and 1997, specifically mentioned the Navy was
working on effective tracking systems. The decision in a 1997 case included specific assurances
the tracking problems had been fixed. However, the many piecemeal Navy systems employed
since the 1980s were inadequate for effective oversight or case management.

When the Navy CMTIS was deployed in October 2006, data from previous systems were
brought into CMTIS as partial records. Some data may have been lost or corrupted in the
transition. As a result, CMTIS case information has never been complete and accurate.

In addition, different organizational elements have different permission/access rights to the
system, which limits ability to correct data, or input missing data upon discovery. Equally
important, individual attorneys/legal personnel responsible for case actions do not use CMTIS in
completing their work. Instead, support staff members generally complete after-the-fact data
entries in CMTIS. The attorneys and other legal personnel responsible for case actions tend to
view the system as additional work, not an aid to completing cases or monitoring case actions.



10
      Military justice practitioners generally use the term “enlargement” when referring to a time extension.

                                                           15 

A primary objective in designing CMTIS was to capture workload types and hours for manpower
and resource purposes. This design provided a system capability similar to one a private law
firm might use for billing purposes, but not one well suited to capturing, querying, and reporting
the extensive data required to manage the many actions involved in the overall court-martial
process. In every Navy field and appellate organization we visited, an internally-developed
mechanism, such as a spreadsheet to track individual cases and actions, was the tool of choice.

Field units might check CMTIS in reporting on individual cases, but the system was generally
viewed as cumbersome, unwieldy, and unreliable. Individual users cannot generate ad-hoc
queries or reports, and any request for system change or ad-hoc query/report must be pursued
formally and may not even produce an answer.

The division responsible for CMTIS was repeatedly criticized for being unresponsive and
unhelpful. Based on our review, the Knowledge and Information Services Division (Code 65)
has neither the staffing nor expertise needed to handle the many system challenges and respond
timely to the many headquarters and field support requests.

The Navy and Marine Corps continue struggling to overcome technology and automated system
deficiencies. While visibility over courts-martial cases has improved, needed and more
comprehensive capability remains elusive in many respects.

As late as May 2010, CMTIS did not afford anyone in NAMARA the capability to monitor or
have visibility over cases in the field. As a result, NAMARA did not know when to expect a
record of trial from the field, or whether it had received cases due from the field, compounding
the “lost case” problem. This issue is not a CMTIS issue alone and, instead, reflects in part a
philosophical difference regarding field and headquarters responsibilities and authorities. We
were told, in fact, that NAMARA’s responsibilities did not begin until it received a record of trial
and, therefore, NAMARA did not need visibility over cases pending in the field. Hence,
NAMARA personnel were not authorized access to the CMTIS report module that would have
allowed them to anticipate record of trial receipts.

Although recognizing the CMTIS data were incomplete and not fully reliable, NAMARA
continuously requested system access or information to assist in accomplishing its mission, but
the access requests were denied and the information received was not particularly helpful. Based
on the significant post-trial delay and process problems persisting for much of the past 20 years,
the decision to withhold useful information is inexplicable and cannot be justified. (Following a
meeting with the Navy JAG in which we described our findings, we were told the appropriate
officials in NAMARA now have system access, can correct erroneous data entries and input
missing data, and soon will have capability to enter a new case in the system. Had NAMARA
been given this authority when CMTIS was fielded, many current post-trial delay problems
might have been avoided.)

The recently-fielded Marine Corps CMS appears to have substantially greater potential than the
Navy CMTIS. Specifically, CMS appears to offer better and more complete capability for
management to maintain visibility over individual case processing and status in the field,
including post-trial processing in the field. However, CMS is still new, relatively untested and

                                                16 

has yet to develop all the needed capabilities. Additional time and study are necessary to judge
the actual potential and determine whether CMS could be adopted for the Navy and Marine
Corps overall.

After the Moreno decision in 2006, senior Navy and Marine Corps leadership began addressing
more aggressively the problems plaguing their administration of military justice. Some resulting
measures were detailed above. Others will be detailed subsequently in this report. Although
many good changes were completed, initiated, or planned, they generally have not been
institutionalized in policy, or other formal guidance. Additionally, several outdated policy
documents require revision and reissuance.

A refrain heard repeatedly during interviews with the Navy JAG, Marine Corps SJA, and others
was the deterioration in military justice administration resulted primarily from a culture of
inattention and lost focus caused, in part, by the increasing need for operations law expertise in
the years after the first Gulf War. Over time, military justice was not prized as much as
operations law, which became the legal career path of choice, rewarded with promotions and
fast-track assignments.

The autonomy accorded to highly-decentralized organizations in the Navy and Marine Corps led
to very individualized processes and procedures, with little standardization. Many commanding
officers had limited immediate legal support, and no one in the Judge Advocate General Corps or
servicing legal organizations monitored events post-trial. The focus was on getting to trial; post­
trial requirements were not important, and the typical first-assignment judge advocate had
relatively little knowledge or understanding about post-trial processes.

Many remarked that no one came to the Judge Advocate General's Corps to be a “review
officer,” and judge advocates avoided the duty if at all possible. These factors led to a decline in
both experience and grade levels for personnel assigned to justice duties. Justice was often left
to the most junior and most inexperienced judge advocates. One individual told us he witnessed
the assignment in which the staff judge advocate position at Pensacola Naval Air Station was
reduced in grade from an O-5 (commander) to an O-2 (lieutenant junior grade).

Nearly constant war demands and deployments left many sections understaffed. As a Center for
Naval Analyses study pointed out, the Navy Judge Advocate General Corps was “undermanned”
for the challenges and workload faced in recent years.11 Likewise, the Marine Corps judge
advocate force experienced a temporary reduction in authorized strength while incurring
increased work requirements and demands for new positions.12 The military justice workload
has been declining, but the trend is not guaranteed.

11
     CRM D0017961.A2/Final, “Levels of Service Options for the JAG Corps: Personnel-Mission Tradeoffs,”
     May 2008
12
     In commenting on the draft report, the Marine Corps provided the following clarification:
         The Judge Advocate Authorized Strength Report (ASR . . .) dropped in February 2008, as the Marine Corps
         was building its end strength to 202,000. The ASR increased again in August 2008 and has remained
         relatively stable since. The ASR (run twice annually) is the list of billets that is actually "purchased" by the
         Marine Corps given fiscal realities and funding priorities. Relevant ASR data is as follows:
         i. August 2007: 311
         ii. February 2008: 294

                                                                17 

We note the many dedicated people who, despite the many problems, worked hard every day in
Navy and Marine Corps legal justice organizations to deliver good work products. Their
dedication continued even though they may have been handicapped with understaffing,
deployments, imperfect processes, minimal supervision, field leaders with limited experience in
military justice matters, and systems affording little visibility over courts-martial cases,
especially in the post-trial phase. Some organizational units labored in isolation from other units
involved in the same court-martial, within an overall context in which the Navy and Marine
Corps had the largest court-martial caseload of any Military Department.

       B.	      Do current systems, policies and procedures ensure timely
                and legally sufficient post-trial courts-martial reviews in the
                Navy and Marine Corps, and are resources sufficient?
              1. Standards
Relevant policy and requirements are listed in Appendix G.

                2. Facts
In commencing this review, we met with Vice Admiral James Houck, Navy JAG, and then
Colonel Vaughn Ary, Deputy Staff Judge Advocate and Acting Marine Corps SJA (later
confirmed in the position) and several senior members of their staffs. They described the post­
trial problems and outlined their ongoing initiatives to address the problems. Both agreed the
post-trial delays, and the systemic failures they represented, had become a serious problem
requiring aggressive and enduring corrective action.

                     a. Ongoing Reviews and Initiatives
(1) Military Justice Review. On May 4, 2009, in the wake of U.S. v. Foster, then Navy JAG,
Vice Admiral Bruce MacDonald, directed a review of military justice actions, policies and
procedures to ensure the Navy Judge Advocate General Corps performed its military justice
functions in a competent, professional manner. He specified the need to institutionalize the
policies and changes required to assure professional and timely military justice administration.

Captain Daniel O'Toole and five senior Navy and Marine Corps judge advocates authored the
resulting O’Toole report. This comprehensive report identified many weakness in the pre-trial,
trial, post-trial and appellate phases, outlined the lessons learned, and included recommendations
for improvement, several of which we adopted. This report served as the stimulus for a series of
additional initiatives to improve upon changes already implemented.

One such initiative required an annual review of military justice and progress in improving the
identified weakness areas. Captain O'Toole will lead the review again this year—the report was
due November 30, 2010.




       iii. August 2008: 330
       iv. February 2009: 367

                                                18
(2) Navy JAG Corps 2020 Strategic Plan. The plan, prepared in 2006, outlines four core
capabilities and transformation focus areas, including “Accountability.” Military justice is the
key component in this capability, and the vision is to restore and strengthen the Judge Advocate
General Corps' competence in this core area. The focus is on developing a career track for judge
advocates to specialize in military justice, improving litigation quality in the courtroom,
appellate level, and senior leadership positions. The plan also commits to developing key
performance measures to, among other things, measure timeliness and ensure services are
relevant. The plan is based on capturing military justice data in CMTIS.

The Navy and Marine Corps have other initiatives, either completed, being implemented, or in
planning. Other significant initiatives are discussed or referenced in this report. Appendix L
details the complete list.

                   b. Navy Field Organization
In 2006, the Navy realigned its field legal services offices within the Commander, Navy
Installation Command Navy Region construct, creating Region Legal Service Offices (RLSOs).
Consistent with consolidating assets in functional areas, the RLSOs acquired both the work and
supervisory responsibilities for all installation staff judge advocates in the region. The formerly
independent staff judge advocates were incorporated in and supervised by the RLSOs, and
supported by the RLSO chain-of-command. Afloat legal staffs remained independent, but the
RLSOs began supporting them administratively, as needed.

We visited the Mid-Atlantic RLSO, Norfolk, Naval Air Station, Virginia, and the Southwest
RLSO, San Diego Metro, San Diego, California, to examine how they processed court-martial
cases. The visits confirmed the concerns regarding processes and standards highlighted
elsewhere in this report. See Appendices J and L.

Despite regionalizing legal services in 2006, the manner in which military justice is administered
is not uniform across the RLSOs. As illustrated in the O'Toole report and confirmed in our
review, there are significant variances in how individual offices do business and who “owns”
specific processes. They lack standardization in both process responsibility and operating
procedures. For example, depending on the RLSO involved, responsibility for post-trial case
tracking may reside with the court reporter section, the staff judge advocate office, or the trial
department. The responsibility may also be split between the trial department and the staff judge
advocate office, with the trial department handling matters through record of trial authentication
and the staff judge advocate’s office assuming responsibility following the authentication. See
Appendix M.

The inconsistent operating procedures and responsibilities amplify opportunities for error,
inconsistent case results, and inadequate processes. Personnel turnover occurs frequently and
processes change or get lost as less experienced military justice administrators assume court-
martial duties.

Good, effective processes come from practice and experience that produce “lessons learned.”
These lessons learned are used to develop “best practices” from which uniform, tested
performance standards and checklists are developed, resulting in standard processes and

                                                 19 

procedures taught in a uniform, consistent manner in training, both formally and on-the-job.
Periodic inspections then check actual performance to identify errors and opportunities for
improvement.

We are not suggesting there is no room for innovation, creativity, or customization. We are
suggesting the historic and current ad-hoc, trial-and-error method has not been effective.

Processes/procedures: The RLSOs developed individual, internal management processes and
tracking mechanisms for their court-martial processes, including post-trial processes. Other than
CMTIS, there is no standard system or mechanism to track a court-martial or actions on a court-
martial. The RLSOs might use CMTIS on occasion to see if NAMARA received a particular
record of trial, but generally do not use CMTIS in processing or tracking cases.13

The Navy JAG also does not have a Navy-wide standard operating procedure for managing or
supervising military justice matters. There is some general direction in policy (Judge Advocate
General Manual, and Judge Advocate General Instructions) dealing with military justice, but
none provides for standard post-trial processing or tracking practices in the field. Other than the
timelines for specific actions specified in Moreno, Navy JAG headquarters elements, including
the Naval Legal Service Command, have not set timeliness goals and do not track the time
required to complete individual actions or processes in a court-martial, including during post­
trial processes.

In 2008, the Navy rescinded OPNAVINST 5810.4/JAGINST 5810.1, “Management Goals for
Processing Navy Courts-Martial,” September 5, 1984. This instruction prescribed time
guidelines for processing a court-martial, from first knowledge about an offense until final
appellate review completion. The only remaining processing time goal is the Moreno timelines,
which the Naval Legal Service Command and Navy JAG now attempt to monitor closely.

JAG/CNLSCINST 5814.1, “Post-Trial Checklists,” December 2, 1992, includes detailed
checklists for determining progress in all court-martial phases. According to the JAG IG,
however, the checklists have not been used for years and the instruction is undergoing revision.

Prior to June 2010, JAG IG inspections had become one-person checks that did not examine
processes, case files, case management, or timeliness. The JAG IG spoke with command
officials to assess relationships, but no longer completed comprehensive examinations. The
inspections focused on leadership. Information on processing timeliness was not shared with the
JAG IG before or during a field inspection.

The philosophy became that Moreno timeline monitoring at the Naval Legal Service Command
made detailed JAG IG inspections unnecessary. However, CMTIS did not have the capability to
give needed visibility over case processing or timeliness. Even if CMTIS had the capability,
inspections to examine details of how individual field organizations function remained essential

13
     In our final meeting with the Navy JAG before preparing this report, we were told the May 2010 CMTIS
     modifications incorporated all the data fields the RLSOs agreed were necessary for their needs, and the RLSOs
     now use CMTIS. We were also told the RLSOs will be instructed in the next 2-3 months to discontinue using
     their ad-hoc tracking systems and rely on CMTIS.

                                                        20 

as a check on actual policy implementation and execution. Following a meeting with the Navy
JAG in which we described our findings, we were told the Navy JAG had already decided to
revise the inspection program to inject more technical evaluations.

According to the RLSOs we visited, afloat legal officers/staffs are not required to coordinate
minor legal matters with a RLSO; however, if a Service member is court-martialed, the
responsible command processes the court-martial through the supporting RLSO. How the cases
and records of trial are tracked, and by which RLSO, are decided based on coordination between
RLSOs and the command legal staff. (See Appendix K)

 Experience base: The regional office structure, through resource consolidation, enables greater
efficiency in military justice services and has potential to enhance consistency in legal advice,
because the structure falls under senior, regional staff judge advocate direction and supervision.
However, the structure does not necessarily assure a correct staff judge advocate review or pre­
trial advice in a given case.

Commanding officers and executive officers in the RLSOs and Navy Legal Service Offices
traditionally were selected for their leadership skills and potential, not their military justice
experience. Because operational law became the practice of choice, military justice experience
levels for more senior judge advocates on staff in these offices declined.

Most attorney positions in the justice divisions are filled with generally inexperienced, first-tour
lieutenants. Consequently, having senior, experienced counsel in supervisory positions is
essential to controlling quality and timeliness in military justice services.

Several interviewees told us the post-trial review sections at the RLSOs are the least desirable
justice positions and lack command interest. Further, the review sections are often used more
heavily to fill deployment requirements. These factors all contribute to the continuing time delay
and quality problems in post-trial processing.

Another factor adversely impacting military justice competence is operational deployments, both
frequency and number. These requirements are filled to a large degree from RLSO and Navy
Legal Service Office assets, reducing the staff available to accomplish the work and effectively
reducing tour lengths for new judge advocates. Rather than the 24-36 month standard tour to learn
military justice fundamentals and develop litigation skills, lieutenants now spend only
18-24 months in first tours at a RLSO, and the tour may be as short as 6-12 months.

The Military Justice Litigation Career Track (MJLCT) was recently developed to address the
declining experience base in litigation and military justice practice. This initiative includes using
specialty positions for supervisory counsel and commanding officer/executive officer positions in
RLSOs and Navy Legal Service Offices. The objective is to enhance both quality and performance
in field military justice administration.

Tracking systems: RLSOs have a segmented internal organizational structure, which divides
case management among different specialized departments (see Appendices K and M). The
segmentation complicates court-martial monitoring and administration, particularly since no one
office is monitoring overall case processing and/or there is no single tracking mechanism.

                                                  21 

Both RLSOs we visited use internally-developed case tracking mechanisms to monitor case
progression. Although they enter required data in CMTIS, they do not use CMTIS to generate
reports for local use or case tracking. CMTIS does not capture some data they need/want for
case monitoring.

We compared the tracking mechanisms used in the two RLSOs we visited. The RLSOs used
similar data points to monitor compliance with Moreno timelines and track their post-trial
activities, but their tracking mechanisms were different (see Appendix M).

Command involvement/knowledge about military justice administration: Commanders are
responsible for administering military justice, and it is important for them to remain informed
about individual cases and in a position to gauge overall system performance. The Naval Justice
School has a week-long course to train senior officers in military justice matters. Prospective
O-5 (commander) and O-6 (captain) commanding officers and executive officers are encouraged
to attend this course enroute to becoming commanding officers and executive officers, and many
do. Prospective commanding officers also receive some military justice training at the
Prospective Commanding Officer Course at the Command Leadership School in Newport, RI.

                    c. Marine Corps Field Organization
The Marine Corps has used the same organizational model for providing military justice legal
services since the late 1960s. Legal Service Support Sections and Law Centers are the two
primary organizational structures used. These organizations are typically divided into trial, court
reporter, and review shops.

We visited the two Marine Corps Legal Service Support Sections at Camp LeJeune, NC, and
Camp Pendleton, CA. We also visited the Joint Law Center at Marine Corps Base Quantico,
Quantico, VA.

Like the Navy, the Marine Corps’ decentralized operational structure does not easily lend itself
to centralized oversight. In addition, segmented case processing across the different divisions in
a Law Center or Legal Services Support Section exacerbates case tracking problems. Before the
Marine Corps CMS was deployed in February 2010, no single system or mechanism tracked a
case across a Legal Service Support Section or Law Center.

The Marine Corps SJA told us he is considering regionalization options to make some functions
more efficient and effective. He is also attempting to decipher the various local support
arrangements to bring greater functionality to judge advocate services. In addition, he wants to
standardize judge advocate operations and obtain authority to exercise professional supervision
over legal services delivered in the field, authorities he currently lacks. A draft instruction to
achieve these results has been distributed for comment.

There is no higher headquarters or other supervisory legal organization to oversee or monitor
Marine Corps field units. Field staff judge advocates and officers-in-charge are totally
autonomous in administering military justice. Their effectiveness depends on individual
supervisor initiative, experience and aggressiveness.

                                                22 

Furthermore, the Marine Corps SJA does not have field supervisory authority. He may only
encourage/suggest improved field practices. Only the Commandant of the Marine Corps may
require or direct a specific practice.

Experience base and staffing: The Marine Corps field organizations suffer from essentially the
same stressors as the Navy. Frequent deployments and numerous individual augmentee
assignments often reduce staffing at ashore sites.

When we visited the site, the Camp LeJeune Legal Service Support Section was 15 enlisted
members below its 45 member authorized strength due to deployments and temporary duty
assignments. At the Camp Pendleton Legal Service Support Section, 23 officers were assigned
against 32 billets. Of the 23 officers assigned, 8 were deployed, leaving 17 (53 percent) of
32 officers actually in place to perform the work. Of 56 enlisted billets, only 51 members were
assigned and 18 of these were deployed. Only 33 enlisted members (59 percent of total) were in
place to perform the work.14 To compensate, five judge advocates had been sent to Pendleton on
temporary duty assignments.

Captains, the bulk of the Marine Corps’ judge advocate work force in the military justice area,
are experiencing reduced litigation opportunities, leading to a growing experience gap.
Traditionally, first-assignment captains spent 2-3 years learning their basic trade. That time has
been cut nearly in half for many.

The Marine Corps has also experienced a grade compression impact. The reduced time in grade
narrows a junior officer's experience base at the time he/she would normally assume a mid-level
leadership position.

Another factor impacting military justice practice in the field is demand for battlefield
deployments. The best military justice practitioners may be lost to these deployments.

Processes/procedures: A senior Marine official cited inadequate, nonstandard processes and
procedures as the root cause for post-trial delays. Among the overall initiatives underway or
planned, the Marine Corps SJA is establishing a uniform process for shipping records of trial to
NAMARA. The process would require Federal Express shipping to reduce transit time, a
requirement the other Services already have.

The Marine Corps SJA is also exploring using electronic records of trial to ease handling and
shipping processes, and further reduce the processing time involved. A test project is currently
underway between Camp Pendleton and NAMARA to develop business rules and protocols for
electronic record of trial submission, a noteworthy initiative.



14
     In commenting on the draft report, the Marine Corps advised that using the number of billets in the table of
     organization numbers (T/O) to determine whether legal personnel were appropriately assigned “does not
     provide an accurate picture,” as the Marine Corps relies on staffing goals (a percentage almost uniformly less
     than the T/O) in assigning personnel to Marine units.

                                                         23 

Information from interviews and document reviews demonstrate some current uniformity in the
way Marine Corps legal offices operate. However, each has developed unique internal operating
procedures (see Appendix M).

Tracking systems: Camp Pendleton has used the Marine Corps CMS, together with internal
mechanisms, for case tracking since 2003. Since the new CMS came on line and the
Commandant directed its use in February 2010, the Marine Corps CMS has become the primary
tracking system at Camp Pendleton. The officer-in-charge, Legal Service Support Section, uses
CMS reports to brief case status to his convening authorities weekly.

In an initial visit to the Camp LeJeune Legal Service Support Section we learned the unit had
begun entering data in CMS, but the system did not capture all the information the unit
needed/wanted to keep staff judge advocates advised on case status. The staff was working with
the information technology specialist responsible for CMS modifications (at Marine Corps
headquarters) to adjust CMS. The officer-in-charge was aware the Marine Corps SJA wanted to
eliminate multiple tracking systems; however, the unit still needed information from its internal
tracking mechanisms.

In a follow-up visit in June 2010, after training on the new system in May, the unit was using
CMS exclusively to track cases and generate reports. The staff still considered CMS imperfect
and wanted it to capture more data for field use, but the system appeared to be gaining credibility
and confidence in the field.

The Quantico Staff Judge Advocate enters all data in CMS and uses CMS daily. He also uses
internal mechanisms (spreadsheets) to track information not currently available in CMS, which
he needs/wants for case tracking and reporting.

             d. Navy Tracking System
Since October 2006, the Navy JAG has had a central case tracking system, CMTIS, which
permitted case tracking through record of trial receipt at NAMARA. Since system modifications
in May 2010, CMTIS now has data fields permitting case tracking through the appellate
processes at NAMARA and the Court, and the U.S. Court of Appeals for the Armed Forces.

Although independent (afloat) staff judge advocates do not use CMTIS, the RLSOs use the system to
report all data (from investigation through record of trial receipt at NAMARA) for all Navy cases
under their cognizance, which includes afloat cases. These offices also assist/advise afloat units
without staff judge advocates and, on request, assist afloat units with staff judge advocates assigned.
The RLSOs enter data in CMTIS for the afloat units.

The Marine Corps does not enter data in CMTIS and generally does not use the system, although
some Marine military justice personnel may use CMTIS to track cases after they enter the
appellate process at NAMARA and the Court. However, the military judges who preside over
Marine Corps cases after sentencing or acquittal enter a “few case data points” in CMTIS.15

15
     After the Marine Corps CMS was fielded in February 2010, military judges are no longer required to enter
     Marine Corps case data in CMTIS. NAMARA now must rely on the Marine Corps CMS for information on
     Marine Corps cases.

                                                       24 

According to the Navy JAG, he required military judges to enter Marine Corps data in CMTIS
because his authority to require the Marine Corps to do so was uncertain. He said the ongoing
Section 506 panel review should help resolve such authority issues.16

After Marine Corps cases arrive at NAMARA, missing data are supposed to be entered in CMTIS so
the case can be tracked from receipt through appellate court decision. However, permission and
access issues have impeded these efforts.

Prior to June 2010, individual divisions in NAMARA did not have access rights allowing them to
enter missing field-level data, or correct erroneous field data in CMTIS. In fact, they did not have
access rights giving them any visibility over cases pending in the field. NAMARA could not
anticipate incoming workload, or identify cases it should have received.

To correct a field-level error or enter missing CMTIS data, NAMARA had to contact the field unit
where the court-martial occurred, ask the unit to complete the data, and then wait for the correction to
appear in CMTIS. This approach, however, did not work for Marine Corps cases because the Marine
Corps did not use CMTIS. NAMARA had the information in records of trial received for appellate
review, but was not permitted to correct field-level data in CMTIS.

Following major initiatives in 2002 and again in 2006 to identify lost/missing Navy and Marine
Corps appellate cases (see Appendix K), NAMARA has performed cumbersome “audits” at least
quarterly to identify possible lost or missing cases. These audits use information from:

      • the Navy and Marine Corps Appellate Leave Activity to identify Navy and Marine
Corps members who are on appellate leave after a court-martial conviction; and
      • the Service Brigs confining Navy and Marine Corps members to identify convicted
members still in confinement.

To identify possible lost and missing cases, NAMARA compares information from these sources
with its record of trial receipts. Then, NAMARA follows up with individual field units as
necessary to locate cases for which it has not received a record of trial to begin the appeal
process.

The prior efforts appear to have resolved many possible lost case issues. Unfortunately, since
NAMARA was not permitted to input or correct field-level case data in CMTIS, results from the
continuing efforts generally have not been reflected in CMTIS. As a result, CMTIS continues to
have missing and inaccurate data. In addition, as discussed later in this report, the audits did not
identify all cases in which an accused was on appellate leave or in confinement.

We were given a CMTIS report identified as “All Moreno Cases” as of March 10, 2010.
Although two of the three timelines in Moreno depend on the convening authority action date to
determine compliance, most (81.9 percent) records in the CMTIS report did not include this date,
as shown in the table below.

16
     The National Defense Authorization Act for Fiscal Year 2010, Section 506, “Independent Review of Judge
     Advocate Requirements of the Department of the Navy,” requires “. . . an independent panel to review the judge
     advocate requirements of the Department of the Navy. . . .”

                                                        25 

                                  Results of Analysis

            CMTIS Report Identified as “All Moreno Cases” on March 10, 2010 


                                               With          Without
                                             CA Action      CA Action            Total
                   Description                 Date           Date

                                            No.       %    No.      %      No.           %
       Cases with NMCCA Decision
       Navy                                   50   84.7%      9    15.3%     59    100.0%
       Marine Corps                            5    3.3%    146    96.7%    151    100.0%
        Total                                 55   26.2%    155    73.8%    210    100.0%
       Docketed with NMCCA/No Decision
       Navy                                   41   82.0%      9    18.0%     50    100.0%
       Marine Corps                            4    2.5%    155    97.5%    159    100.0%
         Total                                45   21.5%    164    78.5%    209    100.0%
       Not Received at NMCCA
       Navy                                 260    43.8%     333   56.2%     593   100.0%
       Marine Corps                          45     3.7%   1,184   96.3%   1,229   100.0%
         Total                              305    16.7%   1,517   83.3%   1,822   100.0%
       All Cases
       Navy                                 351    50.0%     351   50.0%     702   100.0%
       Marine Corps                          54     3.5%   1,485   96.5%   1,539   100.0%
        Total                               405    18.1%   1,836   81.9%   2,241   100.0%


As can be seen above, the omission rate for convening authority action date was high for cases
processed through NAMARA with Court decisions (73.8 percent), for cases processed through
NAMARA and pending Court decisions (78.5 percent), and for cases not yet received at
NAMARA (83.3 percent). Although the omission rate was higher for Marine Corps cases
(96.5 percent), they were also high for Navy cases (50 percent) even though Navy field units
were supposed to be entering the information in CMTIS.

We did not examine other missing data in the March 10 report in detail, but did note that
417 cases had record of trial receipt dates at NAMARA, which field units were responsible for
recording in CMTIS. In comparison, as can be seen above, a total of 419 cases had passed
through NAMARA and were either pending Court decisions (209 cases), or had Court decisions
(210 cases). Thus, at least 2 cases (419 – 417) in the March 10 report were missing record of
trial receipt dates.

In addition, about 40 percent of the 1,822 cases not yet received at NAMARA had sentencing
dates predating 2008. About 12 percent predated 2007. Thus, these cases were more than
26 months old, and more than 38 months old, respectively, at the report date and still not
received for appellate review. This information is shown in the table below.




                                               26 

                                     Results of Analysis

               CMTIS Report Identified as “All Moreno Cases” on March 10, 2010 

                        Age of Cases Not Yet Received at NAMARA

                      Sentencing          Navy          Marine Corps            Total
                      Date in
                             2006      82     13.8%      136     11.1%      218     12.0%
                             2007     176     29.7%      329     26.8%      505     27.7%
                             2008     135     22.8%      299     24.3%      434     23.8%
                             2009     149     25.1%      358     29.1%      507     27.8%
                             2010      51      8.6%      107      8.7%      158      8.7%
                      Total           593    100.0%    1,229    100.0%    1,822    100.0%


We alerted the Navy JAG to these findings and our belief that at least some of these cases were not
subject to appellate review.

Prior to system modifications in May 2010, CMTIS did not have a data field to track whether a court-
martial was subject to appellate review. Further, the system still does not identify whether a
convicted Service member waives the right to appellate review. Accordingly, there was no way for
CMTIS to limit the report to only cases requiring appellate review.

As we were completing field work on this review, in May 2010, another old Navy case surfaced.
In U.S. v. Bartolo, the accused was convicted in general court-martial on January 10, 2006, and
was sentenced to 70 months confinement and a dishonorable discharge for committing indecent
acts with a female under age 16. NAMARA never received the record of trial and did not know
the case existed until brig personnel preparing to release the appellant from confinement called to
check the appeal status. Staff in the servicing legal office claimed the case was mailed to
NAMARA in 2006; however, CMTIS did not include data entries identifying an active case, and
the responsible legal office never followed up to ascertain whether NAMARA received the case.
The field office was responsible for entering the data in CMTIS and ensuring the case receipt at
NAMARA.17

The Navy JAG directed an inquiry to determine what happened in this case. In addition, as a
result of the case, NAMARA completed its most thorough “scrub” to date based on both brig and
appellate leave activity records. Based on this scrub, NAMARA officials advised us they were
“99.5 percent certain” they had located all missing appellate records.

Following Bartolo, the Navy JAG directed a physical file review to address all “unaccounted
for” cases identified in CMTIS, which included our concerns about unaccounted cases in the
March 10 CMTIS report described above. Following this physical file review, in a meeting with
the Navy JAG and his senior staff on July 8, 2010, we were told:

       • Prior to fielding CMTIS in October 2006, Navy JAG did not have a central case
tracking system and, although a central system was not required, he realized maintaining

17	
      The March 10, 2010 “All Moreno Cases” CMTIS report described above did not include appellants’ names, so
      we could not determine if the Bartolo case was included in this report.

                                                       27 

visibility over courts-martial and completing required appellate reviews was critical to his
mission.
         • Upon becoming the Navy JAG in August 2009, his emphasis was on “getting it right”
in the future, not on correcting the past.
         • They had viewed problems with pre-October 2006 cases in CMTIS (partial case
records “rolled-up” into CMTIS from prior systems) as problems with legacy recordkeeping, not
problems with CMTIS.
         • the Navy has now physically reviewed files and accounted for every Navy and
Marine Corps case entered in CMTIS since October 1, 2006 (month CMTIS was fielded).

              833 Navy cases were all accounted for.18
              263 Marine Corps cases were all accounted for, even though they had to go back
to the field on 57 cases, and initially identified 4 “live round” cases (detailed below).

        • They did not physically review the files in 35,218 cases in CMTIS predating
October 1, 2006, but 100 percent are either closed or under “positive NAMARA control.”
        • They have not been willing to devote the approximately 1.6 staff years needed to
physically review files in all 35,218 cases in CMTIS predating October 2006.
        • They have reviewed files in every case involving a sailor or marine still in
confinement, and are sure another Foster case will not happen.19 (They could not give us the
same assurance regarding cases in which a convicted sailor or marine is no longer serving time.
They also could not give us assurance that every case CMTIS should have captured was actually
in the system.)
        • The CMTIS reports NAMARA needs for case management should be ready in
2-3 months. The Assistant Judge Advocate General for Military Justice agreed his office could
continue current ad-hoc tracking mechanisms until then.
        • The RLSOs are already required to use CMTIS and, in the next 2-3 months, will be
instructed not to use internal tracking systems/mechanisms. (They will need the internal systems
until such time as they can rely on CMTIS data and have the capability to complete ad-hoc
queries and reports based on CMTIS data.)

Upon following up on the Marine Corps cases identified as “live round” cases, we learned:

        • Initially, several hundred cases from CMTIS were erroneously identified as not
forwarded to NAMARA. Upon reviewing the files and other CMTIS reports, NAMARA
(Administrative Support Division) determined 57 Marine Corps cases potentially still required
post-trial action.
        • The Marine Corps determined CMTIS inaccurately showed Article 66 reviews were
necessary in 47 cases (not actually required), had not been updated to show appellate reviews
were completed in another 5 cases, and incorrectly showed another recent case as late, leaving
4 unaccounted cases. With respect to these four cases, the Marines all had been discharged -­

18	
      We randomly selected 20 cases from this list, and verified they were accounted for in the Navy and Marine
      Corps physical file reviews.
19	
      We randomly selected 21 cases from 382 names on the world-wide brig list (12 brig locations), and verified
      they were accounted for in the Navy and Marine Corps physical file reviews.

                                                         28 

they either reached the end of active service (EAS), or were administratively separated. None
had a punitive discharge executed, although two had bad conduct discharges (BCDs) adjudged.
The BCDs were suspended in pretrial agreements (PTA). Details on the four cases were:

             Bolla (1stMarDiv) – Trial date was April 11, 2006. Sentence was 12 months
confinement, reduction in rank to E-1 (Private), and forfeit $848.00 a month for 12 months.
Convening authority action was on June 21, 2006. An Article 64 (Judge Advocate) review,
rather than the required Article 66 review, was conducted erroneously on June 28, 2006. The
case is being sent to the convening authority to see if the initial action should be modified.
(1,479 days from convening authority action until we were told the case was being returned to
the convening authority.)
             Stagner (29 Palms) – Trial date was July 11, 2006. Sentence was 1 year
confinement, reduction to E-1, and a BCD. Convening Authority Action on March 7, 2007,
suspended the BCD and confinement over 6 months. The responsible staff judge advocate
erroneously believed the suspended sentence did not trigger an Article 66 review and did not
send the case to NAMARA. The Marine reached end of service and received a general discharge
on December 7, 2006. The case was sent to NAMARA on June 30, 2010. (1,211 days from
convening authority action until the record of trial was sent to NAMARA.)
             Thibodeau (K-Bay) – Trial date was June 9, 2008. Sentence was 52 days
confinement, reduction to E-1 and a BCD. Convening authority action on October 24, 2008,
suspended the BCD for 12 months (now remitted). The Marine was administratively separated
(other than honorable--OTH--discharge) on February 19, 2009. The case was mailed to
NAMARA on June 29, 2010. (613 days from convening authority action until the record of trial
was mailed to NAMARA.)
             Brock (3d MAW) – Trial date was December 4, 2008. Sentence was 12 months
confinement and reduction to E-1. Convening authority action on June 22, 2009, suspended
confinement in excess of 6 months for 8 months (now remitted). Pursuant to a board waiver, the
Marine was administratively separated (OTH discharge) on October 7, 2009. The case is being
sent to NAMARA. (582 days from convening authority action until we were told the case was
being sent to NAMARA.)

The Marine Corps advised it is working with commands to ensure these and other cases are
properly handled in the future. The Marine Corps is also giving refresher training on the
requirements for Articles 64, 66, and 69 reviews.

A Center for Naval Analyses study is currently reviewing the Judge Advocate General Corps’
information technology needs. This study includes benchmarking various other systems against
CMTIS to assess options available to the Navy. The Center for Naval Analysis requested and
the Marine Corps demonstrated its CMS for this study twice, once in March 2010 and again in
June 2010.

          e. Marine Corps Tracking Systems
Commandant of the Marine Corps Administrative Order (MARADMIN) 062/10,
“Implementation of Case Management System for Courts Martial,” February 1, 2010, mandated
that all Marine legal offices use the Marine Corps CMS fielded in February 2010. According to
the order, CMS creates a common operating picture for all military justice practitioners,

                                              29 

enhances ability to generate reports, improves data capture for reporting purposes, and increases
visibility over cases from the local office through the appellate process.

Local staff judge advocates and officers-in-charge are now able to view all cases within their
cognizance. In addition, for the first time, the Marine Corps SJA is able to view all cases in the
Marine Corps and has real-time access to the data. Based on initial feedback from the field, the
Marine Corps CMS has significantly improved Marine Corps visibility over military justice
administration, including post-trial review, in the Marine Corps and the software contractor is
continuing additional improvements to meet user needs throughout the Marine Corps.

The Marine Corps CMS is also available for NAMARA to track cases from trial date through
mailing the record of trial to NAMARA. In the future, this access should help NAMARA
maintain visibility over Marine Corps cases throughout the post-trial process.

The Marine Corps CMS is a field-level tracking system enabling Marine Corps field legal offices
to monitor cases in progress. The system:

        • tracks a case from the date a command requests legal services or imposes pretrial
restraint until NAMARA “dockets” the case;
        • has capability to calculate total elapsed time from first data entry until last data entry
in any Marine Corps case;
        • captures several data points relating to the time required to perform a post-trial
review, e.g., time with the court reporter, trial counsel, military judge, staff judge advocate, and
convening authority;
        • permits any authorized user to enter changes/corrections, and generate custom
reports;
        • permits Marine Corps headquarters offices and NAMARA to have system access and
“see” cases in the field; and
        • does not capture case processing activity at NAMARA and the appellate courts.20

The Chief, Military Law Branch, Marine Corps headquarters, is tasked with monitoring all
pending cases for compliance with Moreno timelines. This tasking is part of an effort to build a
sense of urgency (in the field) about the post-trial phase.

Each week, the Chief, Military Law Branch, prepares a tracking report directly from CMS
displaying all cases pending in the field, by unit, along with a post-trial clock showing the time
elapsed from sentencing date to current day. The tracking report has a "red stoplight" icon
identifying each case exceeding the 120 day Moreno timeline, i.e., sentencing date to convening
authority action date.




20
     As noted previously, the Navy JAG no longer requires military judges to enter Marine Corps case data in
     CMTIS, and NAMARA now has access to enter data in CMTIS. In the future, NAMARA must enter Marine
     Corps cases in CMTIS to begin appellate case tracking.


                                                      30 

The March 8, 2010, tracking report listed 127 cases, 31 with convening authority actions. Of
these 31 cases, 7 exceeded the 120 day Moreno standard—the excess ranged from a few days to
151 days. Of the remaining 97 cases (without convening authority actions), 10 exceeded the
120 day standard at the report date.

This Marine Corps-wide information is visible and readily obtainable at headquarters, which is a
significant improvement in tracking capability not existing even a few months ago. This
capability, however, did not detect the “live round” cases with lengthy delays described above in
connection with the Navy CMTIS capability.

           f. Case Management/Electronic Case Filing
During interviews with various officials in NAMARA, the Army and Air Force appeals courts,
and the Court of Appeals for the Armed Forces, the officials expressed great interest in
enhancing their relatively rudimentary electronic case management capabilities. They stated
interest in the internet-based Case Management and Electronic Case Filing (CM/ECF) system
currently used throughout the Federal district court system, the U.S. Circuit Courts of Appeal,
the Bankruptcy Courts, and the Court of Appeals for Veteran’s Claims.

The Court of Appeals for Veterans' Claims recently transitioned to this system. We interviewed
one of the court’s judges, the former Judge Advocate General of the Air Force. He told us the
CM/ECF system is an impressive case management and electronic filing system, which he has
recommended to the Air Force Court of Criminal Appeals.

The Clerk of Court for the Court of Appeals for the Armed Forces told us the court would very
much like to implement CM/ECF, but lacks authority to mandate the use. Instead, the court
recently instituted an electronic filing program for petitions to that court.

Both Navy and Marine Corps Reserve and active duty counsel told us they believe the system
would be a marked improvement over other data management systems. In fact, the Service
courts of criminal appeals have discussed this system at length in previous conferences, and an
Appellate Government Division (Code 46) representative has briefed the system to each Service
court of criminal appeals.

Overall, we found unanimous interest in implementing this type system in all the Services, but
neither DoD nor a Service has stepped forward to spearhead the implementation due to cost
considerations, possible transition difficulties, and inadequate consensus among the Service
Judge Advocates General. Because they have not reached an agreement, problems continue with
the multiple, different Service systems, which judges on the Court of Appeals for the Armed
Forces have noted.

During this review, we heard about various CM/ECF features and possible difficulties with
adopting the system in the military. This information is included in Appendix N. Also, in our
last meeting, the Navy JAG advised us the ongoing Center for Naval Analyses study, which
included benchmarking CMTIS against CM/ECF and other systems, is revealing potential
problems with the military adopting CM/ECF.


                                               31 

In our view, any study/evaluation involving CM/ECF or a similar system should include military
justice practitioners (active duty, civilian, and Reserve) familiar with the system to ensure a
thorough, balanced assessment. A standard electronic case filing and management system for
military courts-martial could yield immense savings in time and funds.

           g. Administrative Support Division (Code 40)
The Administrative Support Division in NAMARA has a standard operating procedure for case
receipt, review, and quality control. Upon completing a review, a checklist is prepared
identifying (among other things) data entries needed in CMTIS. Normally, the Administrative
Support Division reviews and forwards all records of trial to the Court within 1-2 days after
receipt from the field. This time applies to cases requiring appellate court review, as well as
those sent to the Criminal Law Division (Code 20) for Judge Advocate General review.

The Deputy Director, a civilian employee, provides stability, continuity and experience in a unit
generally staffed with junior Marine Corps enlisted members. The current Deputy, however, is
nearing retirement. The Navy should consider hiring and training a replacement before the
retirement to prevent a disruption possibly exacerbating the overall case processing delay
problems, which have continued over the years.

We were told that 4-5 years ago, 15-20 percent of all cases received in the Administrative
Support Division were "trouble" cases--something was wrong with the record of trial arriving in
the division, requiring corrective action by the field unit responsible for the court-martial. We
were also told the "trouble" rate is now down to about 1 percent, and resolving a trouble case
now generally takes no longer than 48 hours. If a trouble case is not resolved quickly, the
Assistant Judge Advocate General for Military Justice (Code 02), personally contacts the unit.
Prior to the current procedure, a trouble case might not be resolved for 8-9 months.

Prior to the current Assistant Judge Advocate General for Military Justice, 70-80 court mandates
(cases the Court or the U.S. Court of Appeals for the Armed Forces, returns for corrective action,
e.g., rehearing on sentence) could be pending in the field at any given time without any overall
visibility, or even a tool to monitor the mandates or their individual status. Today, with the
mandate tracker developed internally and the office’s constant oversight, as of March 5, 2010,
there were only 16 pending court mandates and NAMARA had visibility over those mandates.

The improvements resulted from several efforts:

       • the Criminal Law Division’s focus on timely administration in its “Newsmailers”
(information bulletins);
       • greater field unit adherence to the Manual for Courts-Martial checklist for assembling
records of trial; and
       • improved training at the Naval Justice School.

These efforts improved record of trial assembly in the field, reducing errors in records of trial
received at NAMARA.



                                                 32 

However, Navy and Marine Corps processes still vary by unit. According to the Director,
Criminal Law Division, more standardized procedures and checklists are needed, and a larger
civilian support structure would enhance continuity.

Overall, the Administrative Support Division (Code 40) now has good processes in place and
there is no case backlog. Due to a Lean Six Sigma21 process completed in approximately 2007,
the division reduced processing times to the current 1-2 day turnaround. (See Appendix K)

              h.	 Appellate Defense Division (Code 45)
Overall, the Appellate Defense Division is currently functioning well. Cases are progressing
through the division in a timely fashion, despite some limiting factors.

The Navy and Marine Corps tracking systems do not provide sufficient data for us to assess
exact processing times in the appellate divisions (see Appendix K). However, when sending a
case to Appellate Defense for review, the Court assigns a deadline for receiving defense briefs.
If Appellate Defense cannot meet the deadline, an extension of time may be requested. If the
request is justified, the Court will grant a time extension.22 Although case complexity and record
of trial length are the primary factors affecting the time required to review a record of trial, the
number of extension requests and their lengths can be indicative of both workload and case age.

The graph below depicts the number of time extensions requested. Although not as good an
indicator as the number of time extensions granted, the table provides some meaningful insight
into both caseload and processing time.




21	
      A set of tools and methods for improving business processes used in both service companies and public sector
      agencies.
22	
      As indicated in Appendix K, this is a significant change from the time when the appellate divisions had an
      agreement permitting up to 24 time extensions before a division would object, and the Court approved the
      requests without requiring justification.

                                                         33 

                                    Appellate Defense Division

                                  Requests for Time Extension to

                            Navy-Marine Corps Court of Criminal Appeals

                     1500
   No. of Requests




                     1000

                      500

                        0
                             93   94   95   96   97   98   99   00    01    02   03   04   05   06   07   08   09   10
                                                                 Calendar Year

                                                                Requests

* Data for CY 2010 is as of mid-February

The graph shows marked improvement beginning in 2005 and continuing into the current year.
As of February 2010, the Appellate Defense Division had not requested a time extension in
connection with any case pending in the division.

In providing this information, the Appellate Defense Division advised the data source was
CMTIS and, thus, not completely trustworthy. Our specific conclusions in this report rely on this
data only to the following extent: we believe the data reasonably establish the trend over time,
reasonably show time extensions are no longer used as the primary technique to deal with high
workloads and/or case backlogs, indicate caseload is now managed more timely, and division
staffing is sufficient.

Civilian Deputies: To enhance continuity and experience, particularly in the appellate practice
areas, the Navy JAG directed and NAMARA civilianized the deputy positions in the appellate
divisions in 2009. The current Deputy Director, Appellate Defense Division (Code 45), has
experience as both an active duty and Reserve appellate defense counsel, and brings good
experience and management skill to the division. This Deputy is developing what will become a
standard training and mentoring program. We were shown several lesson plans developed to
date, which outline fundamental, common issue areas they encounter in practice. The Deputy
personally reviews the materials with each new counsel.

The division has eight appellate counsel on staff, not counting the Director who was detailed
full-time to other duties outside the office at the time of our interviews. Twenty-seven Reserve
judge advocates assist the division, reviewing virtually all "thins" (smaller cases with less than
200 pages).




                                                                     34 

The Deputy has implemented several initiatives to improve oversight and business practices in
the office. For example, a non-attorney staff member previously assigned cases. The Deputy
now performs the duty to assure an equitable and balanced case distribution.

Two relatively recent Navy JAG policies have greatly enhanced productivity and addressed past
problems:

         •   appellate counsel will not be deployed or assigned to individual augmentee duty; and
         •   no first-tour judge advocate will be assigned to the division.

Further, although not required, the Appellate Defense Division has been consulted about
potential assignment candidates in recent times. Division management has been satisfied with
the quality of personnel assigned to the office.

Director turnover: One problem, which recently recurred, is frequent turnover in the Director
position. At the time of our interviews, the current Director had been reassigned to other duties
(Section 506 panel) and his incoming replacement, slated for summer arrival, had also been re­
directed to other duties.23 This trend adversely impacts the Deputy's ability to attend to training
and other duties. Conversely, it demonstrates the value of a having a civilian deputy to assure
continuity.

Reservists: Another more recent development is the decline in experience level for Reserve unit
personnel supporting the Appellate Defense Division (Code 45). Currently, all newly-separated
active duty judge advocates must now be assigned first to a more traditional drill unit in the
Reserve. As a result, the Appellate Defense Division does not receive these experienced
Reservists and the overall experience level is declining. After inquiring about this policy, the
Navy gave us a detailed explanation, which concludes:

             . . . our policy is to place new accessions in the RLSO [Region Legal
             Service Office] and NLSO [Naval Legal Service Office] units. These units
             can best provide the mentoring and administrative support necessary to
             prepare junior officers for a career in the Navy Reserve. They provide an
             opportunity to complete career milestones for junior Reserve officers such
             as Reserve Pay officer, Training Officer, and Unit Administrative Officer.
             Additionally, placing new officers in units with other new accessions and
             junior officers allows those officers interaction with their peers, close
             supervision and mentoring by unit senior leadership, and competitive
             fitness reports. This also seems to work best for officers who are
             simultaneously embarking on Reserve careers and new civilian careers. It
             allows them to compartmentalize their Reserve duties and keeps Reserve
             duties from overwhelming them and their new civilian supervisors. We
             believe that these appellate skill sets will not become stale while new
             accessions complete their first tours in a RLSO or NLSO unit, and they


23
     In commenting on the draft report, the Navy JAG advised that the replacement assumed the duties as assigned
     in summer 2010.

                                                        35 

           will then be able to join an Appellate unit after they have successfully
           transitioned into the Reserve program.

           By analogy, on the active duty side, the JAG Corps does not generally
           detail Law Education Program graduates directly onto line staffs as
           independent duty Staff Judge Advocates, even though the new LEP may
           have specific unrestricted line experience that would be valuable to that
           billet assignment. Instead, most are detailed . . . to OJAG or to RLSO or
           NLSO staffs as department heads. This allows them time to learn about
           the JAG Corps, even though they are already experienced Naval officers.
           Once they have completed their initial tour, then they can and are detailed
           to independent duty on line staffs and perform exceedingly well.

The appellate divisions rely heavily on Reserve support to accomplish their missions. Reserve
support played a large role in clearing the immense case backlogs plaguing Appellate Defense
and the Court in this decade. Therefore, it will be important to assure the Reserve unit in the
Appellate Defense Division maintains a cadre of knowledgeable, qualified counsel.

Time Extensions: Excessive Court-approved time extensions to submit briefs, and lengthy
appellate delays were the norm in the early to mid-2000 timeframe (see Appendix K). As of
March 4, 2010 (date of our last interview), the Division did not have cases pending initial
pleadings in which a time extension had been requested. All cases were completed in the initial
briefing period allowed. Before counsel may request a time extension, both the Deputy and
Director must review and sign off before the request goes to the Court.

Law Clerks: In 2008, the previous Navy JAG established 1-year law clerk positions on the
Court. The intent was for judge advocates serving as law clerks to gain work experience
enhancing their training and preparation for follow-on assignments as either appellate defense or
appellate government counsel.

Feedback from both the Appellate Defense Division (Code 45) and the Appellate Government
Division (Code 46) is this program, while well-intentioned, has not improved appellate practice
and may have had a reverse effect in both divisions. The 1-year tour with the Court reduces the
usual 3-year tour the judge advocate would serve in an appellate division, leaving only 2 years
for appellate counsel duty. Further, the law-clerk experience has not prepared the individuals
sufficiently for appellate duties, which requires another 6 months or longer after an individual
judge advocate arrives to work in the Appellate Defense or Government Division.

As a result, the appellate division has a fully productive counsel for only about 1 year and a
much higher turnover rate. In the Appellate Defense Division (Code 45), this situation
exacerbates attorney-client relationship issues and, thereby, affects the quality of representation.
Based on actual experience, the law clerk initiative should be reviewed and adjusted
appropriately.

Case Tracking: CMTIS is generally ineffective for the Appellate Defense Division (Code 45).
The managers see the Knowledge and Information Services Division (Code 65) as unresponsive
to system change requests.
                                                 36 

An additional issue for the Appellate Defense Division has been its inability to automate records.
The Deputy has repeatedly asked field units to “burn” records of trial onto compact discs and
submit the electronic versions. When dealing with lengthy records and preparing briefs, defense
counsel must frequently find and refer to specific words and passages in the record, which is
difficult and time consuming when using hard-copy records. The search/find capability available
with an electronic record would significantly reduce both the difficulty and time involved in
locating specific material.

Trial Defense Counsel: The Navy is the only Service without a Chief Defense Counsel, and
does not have an office responsible for trial defense services Navy-wide. Consequently, no one
office is developing policies or training programs tailored to the community's needs, and no one
person is overseeing the competence, delivery, or efficiency of defense services in the field.
Unique issues and challenges confront the defense counsel community, and not having a
functional head represents a significant leadership vacuum in defense practice.

The Navy JAG told us he plans to develop a formal Defense Counsel Assistance Program
because the need for more assistance to the defense community has become apparent. At
minimum, he intends to establish the program and is considering establishing a defense
command. He has not decided on a specific solution, but establishing a formal Defense Counsel
Assistance Program has been adopted as a JAG 2010 priority action item.24

             i. Appellate Government Division (Code 46)
Current practice in NAMARA depends on hard copy records. Paper records of trial and
pleadings are given to the Administrative Support Division (Code 40), the Court (Code 51), and
the appellate divisions (Codes 45 and 46). Pleadings, briefs, and reply briefs are all paper
documents, hand carried from one office to another, with support clerks subsequently recording
the delivery and receipt information in CMTIS.

NAMARA (including the appellate divisions) does not have high-speed scanner capability to
upload records of trial into electronic form. A current scanner, although recently upgraded,
cannot handle the Appellate Government Division's routine litigation needs, which involve
thousands-of-page court documents.

Based on internal initiative and support from the Assistant Judge Advocate General for Military
Justice, the Appellate Government Division works electronically using the Marine Corps’
SharePoint web-based, information-sharing site. Although up-loading lengthy records of trial is
not possible, all working documents and taskings are up loaded to the site and all division
personnel can access the information. SharePoint is the division’s “one-stop” management and
tracking tool.

24
     On October 1, 2010, the Naval Legal Service Command (NLSC) was reorganized, separating the Naval Legal
     Service Offices (NLSOs) and Region Legal Service Offices (RLSOs) into two functional groups, eliminating
     the NLSC Vice Commander position, and creating new Deputy Commander, RLSOs, and Deputy Commander,
     NLSOs, positions with authority and resources to manage and supervise courts-martial case processes. The
     Commander, NLSC, also established a Defense Counsel Assistance Program (DCAP) and a Trial Counsel
     Assistance Program (TCAP).

                                                      37 

The Appellate Government Division is currently working to give the field additional information
on SharePoint. The division is also developing a military justice blog to use in updating
prosecutors on military justice developments and practice tips. The division was able to
configure SharePoint to meet its needs, e.g, due date tracking, in a way CMTIS could not be
used.

Staffing/experience: Current staffing is adequate for the caseload. There are 10 appellate
counsel (one deployed), and 2 civilian support personnel. As in the Appellate Defense Division,
the Deputy Director is civilian, a recent initiative to enhance continuity. The Deputy Director, a
former Marine major, became the Deputy after the military deputy was reassigned.

Most appellate counsel serve 3-year tours. Virtually all Appellate Government Division
(Code 46) counsel are second-tour Marine Corps captains/ Navy lieutenants. Although they all
should have had some military justice experience in their first tours, we were told some arrived
at the appellate division with little to no military justice experience.

Law Clerks: As noted in the Appellate Defense Division section above, the Appellate
Government Division’s experience with the law clerk program has not been a useful or effective
training enhancement, and has reduced tour length in the division. The director would prefer all
his counsel serve the full 3-year tour.

Training: As part of the current Director’s professional development program, all Appellate
Government Division counsel are sent to a local civilian course on appellate brief writing. Other
training courses include:

       •   the Appellate Judges Educational Institute Conference;
       •   the Association of Government Attorneys in Capital Litigation Conference;
       •   D.C. Bar Association's Appellate Advocacy seminar; and
       •   the annual Court of Appeals for the Armed Forces Conference.

These courses are considered essential for a counsel’s professional development. The Director
would like a more standardized, uniform training program for both field trial counsel and
appellate counsel, with stable funding to assure continuity.

Operating Procedures: When a case/defense pleading comes to the Appellate Government
Division, the Deputy Director assigns an attorney based on evaluating the case complexity and
individual counsel workloads. The Deputy creates a “task,” assigns the case, and establishes
suspense dates, all on SharePoint. The division does not have a high-speed scanner with
capability to upload lengthy records of trial to SharePoint, but the Deputy arranges to upload
case pleadings and other case information, and the assigned counsel processes the case in
SharePoint.

A recent innovation included assigning an experienced mentor, usually an experienced Reserve
judge advocate, to help the appellate government counsel. The Division Director and Deputy
meet daily to review case status.

                                                38 

The collaborative SharePoint technology allows Reservists assigned to the division, without
regard to location, to review, edit, and comment on a brief. Reservists, several of whom
currently are experienced Federal and state appellate attorneys, are valuable additional assets for
the division.

The only remaining challenge to an efficient case processing and archiving system for the
division is not having the high-speed scanning capability needed to upload lengthy records of
trial to SharePoint. This capability would enhance overall case processing timeliness and
effectiveness. For example, attorneys then could search for key words, phases, or legal
arguments electronically, rather than manually searching the paper records of trial, possibly
multiple times.

Trial Counsel Assistance Program: The Appellate Government Division supports the Trial
Counsel Assistance Program, a program to advise field trial counsel on military justice litigation
matters. Under this program, the division advises both Navy and Marine Corps prosecutors,
using SharePoint as the platform to answer questions and share information. Email is used to
answer questions directly, but both the issues and answers are uploaded to SharePoint for
archiving and sharing. The Army and Air Force have been invited to participate on this site.

Another resource for information sharing currently being explored is a military justice blog, a
discussion forum on SharePoint for those interested in the latest updates and advice and tips on
military justice practice from a prosecutor’s perspective. Previously, the Director sent emails
with military justice updates and practice tips to the field, but this practice proved too
cumbersome.

Technology: Anyone with access rights/permissions to the SharePoint site can monitor current
cases, including tracking case status and action on any time extension request. A user can review
all pleadings relevant to an appellate litigation. Once access becomes available to the high-speed
scanner capability needed, the Appellate Government Division intends to upload and have the
entire record of trial available on SharePoint.

           j. Chief Judge of the Navy (Code 05) and the Court (Code 51)
The Court experienced several significant problems in the early to mid- 2000 timeframe. A case
backlog overwhelmed the Court, exposing problems with insufficient staffing, inexperienced and
unproductive appellate judges, ineffective detailing methodology for judge assignments, and
ineffective case tracking and prioritization systems (see Appendix K). These problems led to
significant changes and improvements.

Chief Judge of the Navy. In 2007, at Navy JAG request, the Secretary of the Navy established a
new capstone position, the Chief Judge of the Navy, to oversee the entire Judiciary, both trial and
appellate operations. The Chief Judge is the reporting senior for all appellate judges on the Court.

The Chief Judge’s ability to rate and supervise the appellate judges addresses the Article 66
proscription against any appellate judge rating or otherwise affecting a fellow judge’s evaluations
and assignments (see Appendix K). In the past, limited supervisory authority was asserted as a key


                                                  39 

problem in addressing less productive and less committed judges on the Court, a problem the new
Chief Judge position should remedy.

In addition to addressing supervision and rating issues, the new Chief Judge position creates a
community sponsor and resource advocate, one who can monitor professional competence, promote
needed training initiatives, and supervise the Judiciary overall while assuring professional
independence.

Judicial staffing and experience: As discussed in the O’Toole report, the increase to 13 active duty
judges and 11 supporting Reserve judges in January 2006, immediately impacted the Court (see
Appendix K). The Reserve judges use "flex drills" (roughly equivalent to telecommuting) to review
many appellate cases submitted for adjudication. These cases are mostly guilty-plea cases involving
less than 100 pages.

Additionally, during regular drill periods, Reserve judges are assigned to standing panels and assist
in resolving larger, more complex cases. Their contributions are significant, accounting for
25 percent of the Court’s case dispositions in calendar year 2008.

In 2007, the number of active duty judges increased to 17, but began declining in 2008, after a
significant reduction in the case backlog. More important than the increase in numbers, in 2007, the
Navy JAG increased former trial judge assignments to the court, and required designating up to four
Court positions for officers in the Military Justice Litigation Career Track. In 2009, the Navy JAG
clarified that one appellate judge on each panel must be a former trial judge. The Court, as presently
composed, meets these requirements, but the requirements have not been included in policy.

As of July 1, 2009, there were four former trial judges on the court (three Navy and one Marine
Corps), including a Military Justice Litigation Career Track "Specialist" and the Chief Judge. The
Chief Judge is both a former trial judge and a designated Military Justice Litigation Career Track
"Expert."

Many appeal cases involve pre-trial and post-trial procedure issues that non-career litigators with
significant staff judge advocate experience can handle readily. However, the Court’s history
supports a conclusion that the most difficult appeal cases involve evidentiary, criminal law, and
procedural trial issues. Former trial and appellate judges are more competent to resolve these cases
correctly and efficiently. Thus, it is important to maintain a balanced mix of former judges and
experienced staff judge advocates in the Court's composition. The latter bring a different perspective
and experience base that helps inform court decisions. Those who have spent extensive time on the
bench can become somewhat insulated from operational realities in everyday military life.

Over the last 2 years, the total number of active duty judges assigned to 3 panels ranged from 9 to 11,
with 2-3 Reserve judges assigned to each panel (10 Reserve judges currently assigned). This staffing
is sufficient for the current caseload. By the end of summer 2010 rotations, the Court will be staffed
with 10 judges and 7 law clerks for 3 panels.

Judicial Screening Board: Under another initiative implemented in 2009, the Judicial Screening
Board screens applicants for both trial and appellate judgeships. Those interested in a judge position
must submit an extensive application explaining why they want the position, outlining the cases they
have tried, and attaching their law school transcripts and fitness reports. One objective is to staff the

                                                   40 

Court with three to five professional military justice litigation experts or former trial judges. The
Chief Judge must be a career track litigation expert. The Court will also have three Marine judges
and judges with staff judge advocate backgrounds, all with significant military justice experience.

Current Caseload: The staffing surge and decline in military justice caseload in recent years
assisted the Court in regaining control over its docket. According to the Clerk of Court, who has
been in the position since 2000, the Court has never been in better shape.

The Court's caseload on December 31, 2009, is shown in the table below in comparison to three other
dates: July 2009 (when the O’Toole report was issued); April 2006 (immediately prior to the
Moreno case when the Court was backlogged); and December 2000 (when a large backlog was
building in the Appellate Defense Division, but had not reached the Court). The table shows the
backlog, which inundated the Court in the mid-2000 timeframe, has been eliminated. As of
December 2009, no case was over a year from docketing (the Moreno standard is 18 months) and
only 4 cases exceeded 6 months from docketing.

                             Navy and Marine Corps Appellate Cases
                               Docketed with Appellate Court, and
                               Pending Decision in Judicial Panels

                                              # Cases   # Cases   # Cases
                               # Cases
                                             Pending   In Panel  In Panel
                              Docketed
                     Date                    In Panel  > 6 Mos   > 12 Mos
                                  No.      No.    %   No.   %   No.    %
                                                   *        **         **
                  12/31/00         1,319    87 6.6%     7 8.0%    0 0.0%
                  04/30/06           794   325 40.9% 24 7.4% 14 58.3%
                  07/01/09           320   173 54.1%    7 4.0%    0 0.0%
                  12/31/09           189    75 39.7%    4 5.3%    0 0.0%

                  * Percentage of total cases docketed

                  ** Percentage of total cases in panel


Tracking: The Court uses three monthly CMTIS reports to oversee case progress. First, a
Moreno report showing cases by trial date, date docketed with the Court, and date sent to panel.
The second report lists cases according to the type court-martial involved and final disposition,
showing the time in panel and listing the date docketed, date to panel, and number of pages. This
report helps individual judges assess their workload and case age. The third report, a "judge activity"
report, lists cases and case status by individual judge. The Chief Judge and Senior Judges on the
Court receive an additional, more comprehensive management report with additional detail on the
Court’s activities.

The Chief Judge of the Navy created additional internal tracking reports to assist his oversight and
management responsibilities. These reports include CMTIS information, but are not system
generated. One statistic the Chief Judge examines is the number of cases tried in the past 90 days.
This statistic helps the Chief Judge anticipate future caseload and adjust court staffing, if required.


                                                   41 

There is no fixed metric or standard governing case production except the timelines mandated in
Moreno. The Chief Judge has asked the Chief Trial Judge to track record of trial authentication
times. Although this process point has not been a problem area historically, monitoring court-martial
process points is a prudent practice to identify emerging problems early.

Time Extension Policy: Excessive time extensions (number and length) were a significant
problem in the past (see Appendix K). In the post-2000 timeframe, prior to 2007, an initial
120 day time extension, and 6 or more time extensions in an individual case, were common.
Now, appellate defense may receive an initial 60 day time extension, but any subsequent request
may not exceed 30 days. Furthermore, on February 1, 2010, new Court rules imposed strict
guidelines and required very specific and well-substantiated reasons for requesting a delay. The
chart below shows the significant improvement experienced beginning in 2006 and continuing
currently.

                                     Navy-Marine Corps

                                   Court of Criminal Appeals

                                   Time Extensions Granted


                                 Calendar            No.
                                  Year         Time Extensions
                                    2003                  88
                                    2004                1333
                                    2005                1122
                                    2006                 441
                                    2007                  34
                                    2008                  46
                                    2009                  66
                                   2010 *                  0

                                 * At about January 22, 2010

           k. Military Justice Litigation Career Track
A number of initiatives have been developed to increase military justice competence across the
Navy Judge Advocate General Corps. Among them, a Military Justice Litigation Career Track,
first implemented in May 2007 (JAGINST 1150.2A, “Military Justice Litigation Career Track,”
June 17, 2009). As caseload declined but became more complex, and as the operations
tempo/deployments increased, the cumulative effect was reduced time in the courtroom and
eroded litigation experience (degree and quality) across the Navy, a trend all the Services
experienced. The Military Justice Litigation Career Track initiative was intended to address this
growing problem among Navy judge advocates.

JAGINST 1150.2A created a career path for litigators to develop and expand their experience. It
also tasked senior litigators with identifying and developing judge advocates who demonstrate
significant military justice knowledge and trial advocacy skills, thereby (1) developing the
military justice litigators needed to improve effectiveness and efficiency in the courts-martial

                                                 42 

process, and (2) forming the nucleus for a “reach-back capability,” i.e., a pool from which
experienced trial practitioners and staff judge advocates can be selected.

Applicants, generally senior 0-3 (lieutenant) and 0-4 (lieutenant commander) officers, may apply
for entry into the career track through annual selection boards. Senior, experienced Navy
litigators comprise these boards. A judge advocate who demonstrates the requisite quantitative
and qualitative experience in military justice litigation may be selected for the Military Justice
Litigation Career Track.

The Navy has designated 49 positions for Military Justice Litigation Career Track officers, and
within 5 years plans to have a qualified pool (65 officers) to sustain the community. As of
June 2009, the qualified pool (47 attorneys) consisted of 20 “experts” and 27 “specialists”
selected from over 150 applicants. These positions are distributed throughout field appellate and
headquarters organizations to assure an experience base of military justice practitioners in key
military justice positions, such as appellate defense and appellate government division directors,
and some Regional Legal Services Office commanders.

Not part of the Navy program, the Marine Corps has 22 positions coded for individuals with
advanced degrees (Master of Laws--LL.M.) in criminal law. The advanced degree is preferred
for individuals in the coded positions (e.g., Chief Defense Counsel, Senior Trial Counsel, and
Defense Counsel), but exceptions may be approved based on other relevant qualifications.

           l. Reserve Component
Complementing the Military Justice Litigation Career Track program is a new Navy Reserve
Component Judge Advocate General construct developed in June 2009. Under this construct,
expertise is aligned into three “pillars of practice:”

       •   military justice litigation;
       •   commander services and legal assistance; and
       •   specialty practices in international, environmental and admiralty law.

The military justice litigation pillar includes trial and defense counsel, appellate practice and
litigation-related positions (e.g., the commanding officer and executive officer at a Region Legal
Service Office). This pillar is designed to support the appellate divisions and help ensure
qualified judge advocates are available to backfill field units when operational deployments
impact the units. The Court (Code 51), and the Appellate Defense and Appellate Government
Divisions (Codes 45 and 46), all depend heavily on Reserve judge advocates to fulfill their
missions.

           m. Military Justice Oversight Council
The Navy JAG chairs the Military Justice Oversight Council, established in 2009. The council
currently meets monthly to review case management overall, and post-trial processing
specifically. The Marine Corps SJA is a member, as are several senior Navy leaders involved in
managing courts-martial matters.



                                                43 

All cases exceeding Moreno standards are individually briefed, as is each case without a decision
after 6 months or more in the Court. The Council focuses on ensuring proper resources and
procedures are in place and working. Once individual cases are completed, “lessons learned”
from the case may be briefed to the Council. The Military Justice Oversight Council represents
the first time the Navy JAG has been involved in reviewing military justice matters on a
recurring basis, or assumed an active role in military justice oversight and supervision.

           n. Inspections
Navy: There has been a JAG IG position for at least the last 2 decades with JAG IG inspection
teams examining individual field units every 3 to 4 years. In 2006, the field portion of the JAG
IG inspection program was revamped as a one-man-interview-based review without any detailed
inspection of military justice processes, records, performance, or metrics. The redesigned field
inspection system, which was coupled with other elements and intended to be more rigorous
overall, did not achieve the desired results. CMTIS system limitations, including missing and
inaccurate information, coupled with no longer using subject-matter experts in inspecting field
military justice functions, undermined effectiveness in the inspection system.

In explaining the 2006 change, the Navy JAG said he re-structured the inspections program in
his previous position commanding the Naval Legal Service Command because the inspection
had become a “joke.” The JAG IG could not complete in-depth inspections at every site every
year, and people simply prepared for an infrequent inspection, “got things” in order, and knew
they could "slack off" for the next few years. The inspections did not develop sustained good
performance and were generally ineffective.

The Navy JAG changed the focus to a “more stepped and cumulative approach” with Article 6
visits, JAG IG visits, CMTIS metrics, and command oversight. According to the Navy JAG,
however, the CMTIS piece did not materialize and the case visibility he counted on is still
missing.

The Navy JAG emphasized a commitment to improving the inspection program. In June 2010,
he announced future JAG IG inspections will again be team efforts with military justice experts
embedded. In addition, he indicated he authorized hiring a clerk for administrative duties so the
JAG IG could focus on substantive responsibilities.

The inspections now include fleet (independent) staff judge advocates, an initiative begun in
2009, and focus exclusively on military justice. The new inspection requirements will be
formalized in Navy JAG policy.

Marine Corps: Major General Ary, the Marine Corps SJA, is working to standardize field
processes and instill greater rigor in legal practice. He drafted a Legal Services and
Administration functional area checklist for incorporation in the Commanding General's
Inspection Program. Under this program, to improve commander oversight, subject matter
experts will inspect Marine Corps Law Centers and Legal Service Support Sections to ensure
compliance with standards and processing times.




                                               44 

The new checklist, formally published on June 3, 2010, focuses on standards and adherence, and
will be applied to inspected units. These Inspector General inspections, coupled with the more
rigorous Article 6 inspections General Ary has implemented, should help improve field legal
services in the Marine Corps. According to Major General Ary, while past practice relied on
trust, his approach is “trust, but verify” through inspection.

             o. Authorized Staffing
Some case backlog and delay problems in both the Navy and Marine Corps related to inadequate
staffing authorizations at both field and appellate levels.

Navy: A 2008 Center for Naval Analyses study determined the Navy could be at risk from
maintaining a “status quo manpower option,” even with a declining military justice caseload.25
In assessing risks and costs, the study concluded:

      • "modest to significant stress" was evident in the Region Legal Service Office
commands and was "especially acute" in field commands that were “operational or joint;" and
      • very long work weeks indicated a need for sizable increases in “manpower” to
manage the expected workload.

According to the study, the status quo represented a "great deal of risk to the Navy" and, if
selected as the “manning standard,” the Judge Advocate General Corps was “undermanned.”

The Assistant Judge Advocate General, Director of Operations (Code 06), advised us the
Program Objective Memorandum (POM) 12 (January 4, 2010) indicates a likely reduction for
FY 2012, due to concerns about a disproportionately large support-to-operational-personnel
ratio. The Navy JAG also anticipates reduced authorizations and/or inventory, and has already
been directed to reduce end-strength from the current 841 judge advocates to the 777 judge
advocates authorized for the end of FY 2011.

The Navy is still recovering from a legalman shortage, which drove a decision to enhance
legalman training to a paralegal-equivalent.26 This enhanced training will enable legalmen to
perform more legal tasks, relieving judge advocates from duties not requiring an attorney. The
change, however, does not alleviate inadequate staffing concerns.

Another concern is an increase in “uncompensated” assignments, or the demand for judge
advocates to fill duty billets for which there are no corresponding authorizations, such as
requirements for joint-duty judge advocates. Judge advocate authorizations are declining, yet the
Navy JAG must maintain higher personnel inventories to meet increasing individual augmentee
and other duty demands.



25
     We note the RLSO in San Diego reported its active caseload quadrupled after August 2008, and the high level
     continued through 2009. The increase may have resulted from Defense Base Closure and Realignment
     Commission realignments or a changing disciplinary trend.
26
     Legalman (LN), a Navy Enlisted Rating (Job) Description, denotes a paralegal with knowledge and expertise
     qualifying them to do perform some legal work under an attorney’s supervision.

                                                        45 

Marine Corps: In late 2007, the Marine Corps SJA proposed several increases in judge
advocate structure to address a structural deficit and the increased requirements resulting from
end-strength increases and emerging requirements. As a result, the judge advocate structure was
increased and positions were “re-coded.”

In 2008, positions historically held by judge advocates, but not coded as such, were re-coded as
judge advocate billets. Between 2008 and 2010, the Marine Corps' Total Force Structure
Division validated requests to recode approximately 56 judge advocate positions requiring
specialized training and education (Master of Laws degree) in certain legal areas, including
military justice. These positions were also prioritized for 100 percent staffing to eliminate
personnel gaps in critical areas.

A secondary effect of recoding positions to require a Master of Laws degree was to increase
opportunities for judge advocates to receive advanced education, which should elevate legal
practice throughout the Marine Corps. Fifty one validated positions had been approved for re-
coding as of June 4, 2010, and 56 positions will be coded for specialties by 2014.

To increase judge advocate inventories, Marine Corps Recruiting Command increased targeted
judge advocate hires 71 percent between FY 2008 and FY 2010. The increase was from 35 in
FY 2008, to 45 in FY 2009, and 60 in FY 2010.

In July 2009, due to force structure increases, the O-4 (major) judge advocate inventory fell to
71 percent of the Grade Adjusted Recapitulation.27 To address this deficiency, the Marine Corps
conducted a Return to Active Duty Board, selecting six reserve judge advocates to return to
active duty. This initiative gave the Marine Corps additional experienced mid-level leaders with
both military and civilian legal expertise. MARADMIN 296/10 was released on May 24, 2010,
announcing the Fall 2010 Return to Active Duty Board.

The Marine Corps Judge Advocate Division calculated the following actual and projected
staffing required to fulfill Marine Corps requirements for legal services. These levels, which are
less than the Grade Adjusted Recapitulation (optimal strength) levels, reflect year-to-year
increases between FY 2008 and FY 2012.

                                      Marine Corps Judge Advocates

                               Judge Advocate Staffing to Meet Requirements


                                                      FY 2008:       393
                                                      FY 2009:       411
                                                      FY 2010:       432
                                                      FY 2011:       448
                                                      FY 2012:       460


20 	
       According to Marine Corps Order (MCO) 1300.31A, “Enlisted Classification and Assignment Documents,”
       March 3, 1992:
           “c. Grade Adjusted Recapitulation . . . reflects total Marine Corps manpower requirements by rank and
           PMOS [primary military occupational specialty] as of the end of the projected fiscal year. . . .”

                                                              46 

Overall, the Marine Corps initiatives should help alleviate resource strains experienced in recent
years.

       p.      Judge Advocate Promotions - Precept Language
After the first Gulf War, operational law positions became the positions of choice and the path to
career success. The 2005 Sea Enterprise Panel on the Trial Judiciary concluded "[t]here is an
undeniable perception that the judiciary is not a career enhancing assignment for Navy judge
advocates." Promotion board statistics revealed few officers serving as military judges when
promotion boards convened were selected for promotion. Selection to flag rank was virtually
foreclosed to those in careers focusing on military justice.

Developing and maintaining increasingly technical litigation skills requires advanced education
and progressive assignment to trial litigation positions, a reality likely to limit opportunities for
assignment to sea duty and reduce assignment variety during a career. Under the traditional
paradigm for promotion, such a career was not perceived as upwardly mobile.

A key consideration in developing the Military Justice Litigation Career Track program was the
need to ensure an equitable promotion rate for those choosing to "specialize" in military justice,
rather than remain more general "Fleet" practitioners. If litigators continued not being promoted
- career track or not - promising attorneys would continue diverting to other practice areas in the
Judge Advocate General Corps, or separating from the Navy to pursue civilian litigation careers.
Therefore, one important element in the Military Justice Litigation Career Track program was
including promotion board “precept language” explaining the need to ensure sufficient military
justice practitioner promotions into higher grades to maintain an experience base and assure
continuity in this core functional area.

The Marine Corps uses special precept language to advise promotion boards when a "critical
shortage" (below 85 percent) occurs in a specified career field. The language may be used in
O-5 (lieutenant colonel) and O-6 (colonel) promotion boards to highlight a shortage in the judge
advocate specialty and assist in assuring an adequate number of judge advocates are promoted to
the O-5 and O-6 grades.

Appendix O includes further information on Navy and Marine Corps precept language, usage,
and results.

            q. Overall Performance Measures
The Court provided a report based on CMTIS data showing the appellate cases resolved between
January 1, 2009, and April 15, 2010 (16½ months). Only about 27 percent (266 of 980 records)
had convening authority action dates and in about half these cases, the convening authority
action date predated the trial data, indicating data input errors. Similarly, in about 9 percent of
the total cases (87 of 980 records), the Court decision/resolution date predated the trial date,
again indicating data input errors. After excluding cases with apparent data inaccuracies, our
efforts to determine current compliance with the Moreno standards are shown in the table below.




                                                  47 

                     Navy and Marine Corps Court of Criminal Appeals

                            Cases Resolved 1/1/2009 - 4/15/2010

                                                                                  Records
                                                                               No.        %
Total Records                                                                    980    100.0%
Records with Trial Dates                                                         935     95.4%
Records with Convening Authority Action Dates                                    266     27.1%
Records with Court Docket Dates                                                  980    100.0%
Records with Court Decision/Opinion Dates                                        980    100.0%
Moreno Compliance--120 Day Standard (Trial to Convening
Authority Action)
   Records Used to Measure Compliance                                            134
   Records Meeting Standard                                                       23       17.2%
Moreno Compliance--30 Day Standard (Convening Authority Action
to Docket)
   Records Used to Measure Compliance                                            273
   Records Meeting Standard                                                        2        0.7%
Moreno Compliance--18 Month Standard (Court Docket to Decision)
   Records Used to Measure Compliance                                            980
   Records Meeting Standard                                                      980      100.0%
Moreno Compliance-- First Two Standards Combined (Trial to
Court Docket)
   Records Used to Measure Compliance                                            935
   Records Meeting Combined 150 Days Standard                                    446       47.7%
Moreno Compliance-- Three Standards Combined (Trial to Court
Decision)
   Records Used to Measure Compliance                                            848
   Records Meeting Combined 690 Days Standard*                                   771       90.9%
           * 120 days + 30 days + 18 months at 30 days per month

As can be seen above, the Court now appears to be doing well in meeting the 18-month Moreno
timeline (100 percent compliance). Although field units still are not doing well in meeting their
individual Moreno time standards for completing convening authority actions within 120 days,
and ensuring the appeals are forwarded and docketed with the Court in another 30 days, overall,
they meet the combined standard (150 days from trial date to docket date) in about 48 percent of
the cases. The Court’s timeliness then enables about 91 percent of cases to meet the combined,
overall Moreno time standards (690 Days from trial to decision).

The following graph shows the overall improvement in this area over time between fiscal years
1994 and 2009.




                                               48 

                                           Average Disposition Time

                                     from Trial to Appellate Court Decision

                                            Navy and Marine Corps

                                          1000
  Average Number of Days




                                            800

                                            600

                                            400

                                            200

                                              0
                                                  94   95   96   97     98   99   00   01   03   04   05   06   07   08   09
                           SpCM & GCM Dispositions 603 497 468 551 556 523 625 744 842 893 785 715 488 423 408
                                                       Fiscal Year/Average No. of Days for Disposition in Fiscal Year

The improvements beginning in FY 2005 and continuing through FY 2009 appear to be
continuing.

The most telling indicator of how effectively the Navy and Marine Corps have addressed their
longstanding post-trial delay problems is their current and future performance, which we
attempted to assess based on compliance with time standards established in Moreno and the other
limited statistical data available. The greater test will be their ability to sustain timely
performance over the long-term, something we believe they can achieve from developing and
institutionalizing appropriate standards, processes, case processing and tracking systems, and
comprehensive inspections examining process utilization and effectiveness. Continuing active
leadership involvement, supervision and monitoring at all levels will be essential to ensuring
attention remains focused on post-trial review objectives and assuring timely, good-quality
military justice administration overall.

               3. Discussion
The Navy and Marine Corps have many good initiatives underway to address their post-trial
problems. Existing statistical measures, although limited, demonstrate improvement in all areas
--reduced processing times and speedier reviews are apparent. Assisted with declining caseloads
and staffing surges from about 2004 to 2008, the immense case backlog has been eliminated.
Current staffing in the appellate divisions and Court appears sufficient, with current caseloads, to
maintain timely processing.

The Navy JAG's expressed commitment, following the O'Toole report, to continue reviewing
annually the state of military justice in the Navy will be essential to ensuring effectiveness in
existing and new processes/programs. The Military Justice Oversight Council, which the Navy
JAG chairs, is an important step in establishing the higher-headquarters supervisory review and
oversight that have been lacking historically.


                                                                      49 

Current leadership in the Assistant Judge Advocate General for Military Justice Division
(Code 02), NAMARA, and the Court initiated many changes to improve their practices and
attempt to develop effective tracking and other mechanisms to have case visibility they could not
attain through CMTIS. Some staff members are particularly savvy about technology and have
contributed to advancing the state of military justice administration through case automation and
management.

Civilianizing the Deputy Director positions in the appellate divisions was a prudent decision
helping to assure badly needed continuity and expertise in these offices. The individuals in the
positions will be critical in managing workload and staff, identifying caseload surge indicators,
and securing resources and support to prevent backlogs as have repeatedly besieged the offices in
the past. It will be particularly important for the Assistant Judge Advocate General for Military
Justice (Code 02) and the Navy JAG to respond to surge support needs when required.

Maintaining strong, experienced Reserve support units for those divisions and the Court is
paramount. They could not accomplish their day-to-day mission without substantial and
experienced Reserve support. Assignment selection policies should be tailored to assure a ready
Reserve resource. When caseload increases, additional Reserve assignments should be
considered first, since additional active duty assignments can take 6-12 months, which likely
would be too late to meet an immediate need. Reserve resources will also be important in
backfilling field military justice positions vacated due to deployments and individual augmentee
requirements.

The new Chief Judge of the Navy position is a significant achievement, which should improve
quality and performance in both the Trial and Appellate Judiciary. The new Judicial Screening
Board process is also particularly noteworthy and should substantially enhance the Court’s
competence and credibility, eliminating past difficulties with appellate judge temperaments or
backgrounds not suited to the position.

The Chief Judge of the Navy has supervisory authority over all Judiciary personnel and provides
a unified voice and senior advocate for the community’s needs. The new position consolidates
responsibility and authority for professional supervision in a single office, achieving a needed
focus and judicial competence heretofore missing. Coupled with efforts to establish a litigation
career track and restore promotion opportunities for career litigators, the Chief Judge of the Navy
should energize and motivate more judge advocates to pursue, not shun, military justice
assignments. The new position should also increase the depth and breadth of military justice
experience in the Judge Advocate General Corps, with improved field unit and military justice
administration performance as one objective.

The first-ever Court publication (JAGINST 5814.1, “Navy-Marine Corps Court of Criminal
Appeals,” August 3, 2009), new “Rules of Practice and Procedure Including Internal Operating
Procedures” (effective February 1, 2010), and improved internal case management procedures,
are all much needed policy standardization and process improvements. The tracking systems and
increased supervision incorporate some tools necessary for managing the caseload and
identifying individual cases requiring priority review. The much more rigorous judicial selection
process will, if sustained, help prevent the problems witnessed in the Foster case.


                                                50 

       a. Case Tracking and Management
Automated tracking systems have a long and troubled history in the Navy JAG. Although
progress has been made since 2006, effective and timely case tracking remains an elusive
objective. As recently as June 2010, the Navy and Marine Corps were still finding “lost” cases,
which still must work their way through the appellate process. This situation will likely continue
in the foreseeable future.

A single court-martial tracking system should be the desired goal for the Navy and Marine
Corps. If the ongoing Center for Naval Analyses study can be adjusted to include the coverage,
a comprehensive study is needed to define a truly functional case management-focused tracking
system to address the myriad of user data and reporting needs from field through appellate court
levels in both the Navy and Marine Corps.

Additionally, the integrated case management solutions available in the Federal courts' Case
Management / Electronic Case Filing (CM/ECF) system should be considered This system
appears to offer an off-the-shelf technology adaptable to military requirements, and has universal
interest across the Service courts of criminal appeals and the Court of Appeals for the Armed
Forces. The proponents include active duty, civilian, and Reserve military justice practitioners,
many of whom have first-hand experience with these systems in their civilian practices. Funding
and other commitment/issues, however, have stymied efforts to seriously examine the system’s
utility.

We understand the ongoing Center for Naval Analyses study is including this system in
benchmarking efforts. We encourage a detailed review of this system’s adaptability/feasibility.
The review should include military justice practitioners who understand the technology, know
system capabilities, and are familiar with Service requirements.

Significant, dedicated funding will be necessary to develop and implement the courts-martial
case processing and tracking system the Navy needs to address the inadequate automation and
case tracking that caused lost visibility over appellate cases and resulting delays in administering
military justice. The current, outdated reliance on paper production and transmission is
laborious, costly, and produces untimely results.

       b. Process Responsibility
Another significant issue is inadequate post-trial process uniformity in Navy and Marine Corps
field units. Despite uniform organizational structures, Navy RLSOs each operate differently
with distinct processes and without any uniform organizational alignment to control case
processing. The O'Toole report noted inconsistent post-trial processing structures across the
RLSOs, which our review confirmed. The same situation exists in the Marine Corps.

Another significant concern is inadequate standardization in procedures, checklists and templates
for case processing in both the Navy and Marine Corps. Navy and Marine Corps field units use
distinctly different, unit-developed standard operating procedures for case processing, without
standardization across either Navy or Marine Corps units. Additionally, although CMTIS is the
central case tracking system in the Navy, the RLSOs each maintain internal case tracking
systems because CMTIS does not meet their overall needs.

                                                 51 

The Marine Corps has achieved some recent progress in standardizing the case tracking function.
The new Marine Corps CMS fielded in February 2010 appears to be gaining confidence. The
two units we visited now both use the Marine Corps CMS exclusively for case tracking and
reporting.

The information technology section responsible for managing the Marine Corps CMS has been
conducting field training and developing upgrades and changes in response to field information
requirements. Although CMS is still not a comprehensive data and time tracking system, the
Marine Corps is making progress in this area.

In the Navy, two key regulations outlining detailed management goals and checklists for case
processing have not been used for years. In fact, the management goals directive was rescinded
without replacement. The only remaining time goals are those imposed in Moreno, after many
court warnings, which followed noncompliance with published time and processing standards
that became unused due to inadequate enforcement and interest.

Published standards and directives defining procedures, goals and expectations for individual
processes are fundamental to any system's health and rigor. Standards are the means by which
effective systems and processes endure and perform properly over time despite personnel
turnover, organizational change, and deployment turmoil. They assure process continuity and
reduce error opportunities.

Our interviews revealed significant process deficiencies in the field. Although improved since
Moreno, continuing errors and delays appear to result primarily from lacking uniform,
institutionalized processes and standards.

The current focus on Moreno compliance to avoid post-trial delays is good, but should not be the
sole process and time management focus in military justice. Many pre-trial, trial, and post-trial
processes require detailed attention and rigor. If not monitored and accomplished properly, any
process can jeopardize case viability, or cause a lengthy, unnecessary delay.

Some individuals we interviewed described the historical cultural paradigm in the Navy as a
hands-off, reactive approach to business, not a proactive or preventive approach. In recent years,
there has been a more concerted effort to tackle process issues more aggressively. However, in
our review, we found that oral discussions, informal documents, e-mails or telephonic
communications were often the media of choice to announce changes, without follow-on
institutionalization in more enduring formats. While these type communications are helpful
when immediate action is needed, they should not substitute for formalizing policy in
departmental regulations or instructions. We also found a tendency to use aspirational language,
rather than create concrete standards. For example, a division recommendation to identify the
specific Moreno time standards in a draft Naval Legal Service Command instruction was deemed
unnecessary. The current language simply exhorts timely processing. Although such language
is good, we believe it is not sufficient to motivate the thousands of people in the large and
dispersed Navy and Marine Corps organizations to perform to a desired, but unspecified
standard.

                                               52 

This year's annual review of Navy military justice administration, which Captain O'Toole is
again heading, offers an opportunity to address this issue further. Because the Navy JAG is
responsible for military justice administration in both the Navy and Marine Corps, the upcoming
and future reviews should include Marine Corps military justice administration in the coverage.

       c. Supervision and Oversight
This area has improved since the current Navy JAG began the Military Justice Oversight
Council, and the Naval Legal Service Command gained current visibility over cases pending in
the field. However, few oversight or supervisory mechanisms are embodied in official policy or
institutionalized processes, and the decentralized Navy and Marine Corps organizations have
little intermediate or higher headquarters oversight capability except at the Navy JAG, Marine
Corps SJA, and Naval Legal Service Command levels.

Prior to CMTIS, field activity performance could not be monitored and totally depended on
individual staff judge advocate experience and military justice focus. In establishing the Military
Justice Oversight Council, the current Navy JAG created the first senior-level oversight
mechanism for military justice we found in the Navy; however, that Council could be terminated
at any time and successor Navy JAGs might choose not to continue the current commitment to
military justice oversight.

Anticipating such an occurrence, the current Navy JAG began revising a SECNAV instruction to
include provisions formally establishing the council. The draft instruction, which is still in
review, requires annual Navy JAG reports to the Secretary of the Navy, Chief of Naval
Operations, and Commandant of the Marine Corps.

In addition, the Region Legal Service Offices are now aligned to provide greater oversight and
quality assurance for post-trial processing, at least for the ashore legal entities they supervise.
However, they do not have supervisory or administrative control over the remaining independent
staff judge advocates, who are totally autonomous in administering military justice and may vary
greatly in experience and expertise.

       d. Inspections
The Marine Corps recently instituted a comprehensive Commanding General IG inspection
process, but the Navy retreated from more rigorous military justice inspections, believing its
Naval Legal Service Command monitoring (based on CMTIS and other data), in conjunction
with the Article 6 and more limited IG inspections, would be a sufficient tool. That belief was
not fulfilled.

Just as establishing definitive standards is essential to developing sound processes, requiring
recurring, detailed inspections to assess processes and procedures is essential to determining
effectiveness. Inspections, with subsequent accountability for performance, help organizational
leaders ensure processes are good, are actually used, and function as intended. In a recent
closeout meeting, the Navy JAG acknowledged the current system had not met expectations and
subsequently announced plans to revise the inspection program.


                                                53 

       e. Convening Authorities
The sheer number of convening authorities in the Navy and their geographic dispersal creates
unique military justice administration and logistics issues. For example, the legal personnel
available to support many convening authorities have limited experience, which has contributed
to errors in handling military justice matters. Modifications that simplify and streamline the
current structure and subject independent afloat legal personnel to administrative control would
substantially improve the post-trial process.

       f. Authorized Staffing
Although we generally found current appellate division staffing adequate for current caseloads,
some data suggests field staffing authorizations for both the Navy and Marine Corps may be
inadequate. A 2008 Center for Naval Analyses study identified various “stressors” on personnel
resulting from excessive workloads. The Marine Corps reported identical challenges and
difficulties. Deployments and increased judge advocate requirements for which authorizations
do not exist have imposed additional stress. The upcoming Section 506 panel review will have
an opportunity to examine this area in greater detail.

       g. Marine Corps SJA
Through statute and Secretary of the Navy instruction, the Navy JAG is responsible for military
justice matters in the Marine Corps. In reality, however, neither the current nor previous Navy
JAGs have generally exercised this responsibility vis à vis the Marine Corps, as evidenced by the
longstanding post-trial delay problems. The operating paradigm has been to “trust” the Marine
Corps to manage issues, in effect ceding responsibility without granting corresponding authority.
Whether this situation resulted from respect for the Marine Corps’ autonomy, or was a default
result from overall time consuming demands on the Navy JAG, it produced a leadership vacuum
in the Marine Corps.

In most routine matters, the Navy JAG advises, supports, and communicates with the
Commandant of the Marine Corps through the Marine Corps SJA. Effective communication and
interaction between the Navy JAG and Marine Corps SJA over the years seem to have depended
primarily on their personal relationship, not any obligation involved in the respective positions.
The current relationship between the two officers is direct and unimpeded, which has
significantly benefited the efforts in recent years to resolve case backlogs and gain visibility over
courts-martial cases.

The Marine Corps SJA does not have departmental responsibilities and supervises only those
functions and personnel assigned to the Judge Advocate Division, Headquarters, Marine Corps.
His role is advisory at the headquarters level, except as the Secretary of the Navy, the Navy JAG,
or the Commandant of the Marine Corps may otherwise direct. From an overall perspective:

        • Marine Corps field legal organizations do not have any supervisory legal organization
monitoring their activities. They function totally autonomously.
        • The Marine Corps SJA serves as the occupational field sponsor for judge advocates,
legal services officers, and enlisted members, but does not have supervisory authority over these
personnel. This authority remains within the non-JAG chain of command.


                                                 54 

          • The Navy JAG, by statute, holds exclusive authority to certify judge advocates as
  competent to perform duties as trial and defense counsel.
          • The Marine Corps SJA is not authorized to conduct Article 6 inspections, or exercise
  professional supervision over legal services delivered in the Marine Corps.
          • Not having field supervisory authority impacts the Marine Corps SJA's stature as the
  military legal community's leader in the Marine Corps. Recent legislation increasing the Marine
  Corps SJA’s grade to Major General suggests some intent for the position to have greater
  leadership and supervisory responsibilities.
          • The operations tempo and heavy demand for legal services in all disciplines has
  expanded the requirements for judge advocate functions in all Services. In this operational
  environment, the Navy JAG must rely on the Marine Corps SJA to exercise functional
  supervision and leadership in the Marine Corps judge advocate community, either on the Navy
  JAG’s behalf or under direct authority that must be created.
          • In most military organizations, a commander's staff judge advocate has direct and
  unimpeded access to the commanding officer, which assures access and independence in the
  legal advice rendered. Similarly, under statute, staff judge advocates and legal officers have the
  right to direct communication with convening authorities in all matters concerning military
  justice. The Marine Corps SJA position is two organizational levels below the Commandant.
  The Marine Corps SJA must pass through both the Director for the Marine Corps Staff and the
  Assistant Commandant before gaining access to the Commandant. In contrast, the Marine Corps
  SJA's civilian counterpart, the Counsel for the Commandant, is a direct report to the
  Commandant and has direct access. In military justice matters, it is essential for a commander's
  legal advisor to have unfettered access.

  Consideration should be given to enhancing the Marine Corps SJA's authority to exercise more
  direct and effective professional supervision over Marine judge advocates and the legal services
  they deliver. We understand the Navy is considering this matter and reviewing a new draft
  SECNAV instruction, which among other things will address the Marine Corps SJA authorities
  and responsibilities. This draft was in the Navy General Counsel's office for review when we
  completed our field work.

V.	      CONCLUSIONS
  Military Justice is the primary statutory mission for judge advocates. Other missions and
  practices evolved over time, but no other function is so inextricably linked to a commander's
  responsibility for maintaining a well-disciplined force. Although commanders own the military
  justice system and are the decision-makers, judge advocates administer and supervise the system.
  They bear a special responsibility for assuring the justice system is administered fairly and
  efficiently, and for diligently representing the interests of both the commander and the accused.

  Our charge and principal focus was on reviewing the systems, policies and procedures used, and
  determining whether the resources devoted to military justice administration were adequate to
  assure appellants their due process rights as required under the U.S. Constitution, the Uniform
  Code of Military Justice, and applicable case law. Overall, we found significant improvements.
  Many good initiatives had been initiated, were under development, or were in planning.


                                                  55 

      However, some concerns remain that could preclude enduring reform if not addressed 

      appropriately. 


      Over time, the Navy and Marine Corps judge advocate communities lost sight of their core
      mission. There was a consistent failure in leadership and inadequate institutional vigilance,
      supervision and oversight at all organizational levels involved in administering military justice.
      The failures also represented a deviation from fundamental principles of professional
      responsibility, which require diligence, competence and timely representation of clients' interests
      in the criminal justice system.

      The highly decentralized Navy and Marine Corps organizations do not have intermediate
      supervisory staff judge advocate or command levels in most cases. As a result, effectiveness in
      any given unit continues to be, in many respects, ad hoc and dependent on the personality, work
      ethic, aggressiveness, and interest of individual supervisors and staff judge advocates. Current
      Naval Legal Service Command monitoring has had a beneficial effect.

      Historically, institutionalized policy, standardization, and supervisory oversight could have
      ensured more effective military justice administration and prevented post-trial delay problems.
      Automated tracking systems either did not exist, did not provide needed visibility, or were
      ineffective in affording the visibility over cases needed for effective supervision. Inspections,
      where they existed, were ineffective in identifying process deficiencies, or eliciting sufficient
      corrective action. Time processing guidelines were not enforced or did not exist. Assignment
      policies for the Court and appellate divisions adversely impacted quality and continuity.
      Compounding the supervision and process deficiencies, dramatically increased deployments and
      individual augmentee requirements after 1991 created both turmoil and understaffing in post-trial
      functions.

      In meetings, the Navy JAG, Vice Admiral James Houck, and the Marine Corps SJA, Major
      General Vaughn Ary, candidly assessed the post-trial delay problems triggering this review. In
      their words, there was a culture shift away from military justice to operational law, most
      significantly during Gulf War I and thereafter. They are implementing many initiatives to
      address outstanding issues, in addition to numerous initiatives dating to about 2005, which are
      now in force. As Major General Ary commented, they must set standards, train to standards, and
      inspect to standards.

VI.          RECOMMENDATIONS
      1.	 We recommend the Department of the Navy develop and field a single Navy and Marine
          Corps military justice case processing and tracking system that satisfies user requirements
          and achieves system-wide visibility over the entire court-martial process, including capability
          for an accused to monitor his/her appellate case status directly through web access.
          Continuing the current in-house efforts cannot be expected to resolve the problems
          experienced over the last two decades.

         Management Comments: Management comments on recommendations in the draft report
         are summarized and discussed below, and are included verbatim in Section VII below.

                                                      56 

The DON concurred with recommendations 1 and 2 in the draft report, which have been
consolidated into Recommendation 1 above. The DON advised:

   (1) The Navy JAG is committed to developing a fully integrated DON military justice
case processing and tracking system, a priority reflected in JAG Guidance 2010 (December
2009). The ultimate system objective must be accurate case tracking through all DON
military justice processes to ensure timely mission accomplishment, and each accused
Marine or Sailor receives due process.

   (2) While this tracking system is being developed, current systems accurately track
cases—CMTIS, augmented with manual back-up checks, is a functional, real-time case
tracking capability for Navy cases, and the Marine Corps CMS, a single, mandated Corps-
wide tracking system, provides all the visibility necessary for headquarters-level supervision
and also provides an "accounts receivable" to the NMCCA for all Marine cases requiring
appellate review.

   (3) In March 2010, the Navy JAG (with concurrences from the DON Chief Information
Officer, the DON Next Generation Enterprise Network System Program Office, and the
DON Assistant for Administration) initiated a Center for Naval Analyses study to examine
current Navy and Marine Corps case tracking systems, and also benchmark against the
Federal Court's Case Management and Electronic Case Filing (CM/ECF) system and the
Army and Air Force systems. The study, which is due in February 2011, will assist in
identifying possible options for a unified Navy and Marine Corps system, and may provide a
basis for a DoD-wide system.

  (4) The Navy and Marine Corps have instituted numerous IT system improvements to
monitor case tracking, but there is room for improvement. For example:

       > Electronic Court Case Files: Most state and federal court systems are moving to full
electronic/digital court records. Electronic records comply with the Paperwork Reduction
Act, speed process delivery, and automate functions.

      > Access to Data: A single, complete data entry, storage and retrieval system
incorporating all criminal incident information across the Navy and Marine Corps would
meet all current and future reporting requirements, and enable criminal activity statistical
trend analysis.

       > Case Management: There is a need to enable end user (investigators, counsel,
support personnel) to quickly and effectively generate materials for courts-martial processing
based on underlying system data (e.g. auto populated forms) and effectively distribute and
document court compliance practices electronically to reduce manpower and improve
efficiency.

    > Workload analysis: An IT system to effectively manage legal offices, including
managing personnel workload, identifying performance trends, streamlining internal

                                             57 

   processes and evaluating manpower requirements, is standard practice in the private sector.

   The DON will continue pursuing an integrated Navy and Marine Corps system. An 

   integrated DoD system could be a more optimum long term solution.


   Our Response: The management comments are responsive. They also acknowledge that
   current visibility over cases does not derive solely from the current automated systems,
   which must be augmented with “manual back-up checks.” As discussed in the report, at the
   time of our field work, Navy field units were submitting weekly reports so the Naval Legal
   Service Command could assess compliance with Moreno standards. CMTIS reports were not
   reliable for that purpose and had to be supplemented. As also discussed in the report, even
   though visibility over cases improved both before and during our review, the improved case
   visibility did not prevent surprise when other old cases (Bartolo, Bolla, Stagner, Thibodeau,
   and Brock) surfaced during our review. Although we believe similar surprises are not as
   likely in the future, the possibility cannot be ruled out and should not be ignored.

2.	 We recommend the Secretary of the Navy issue policy establishing uniform post­
    trial processing standards, procedures, time guidelines and process responsibilities
    for the Navy and Marine Corps. Although our review focused on post-trial
    processing, more detailed process standards should be established for the entire
    court-martial process and should be institutionalized in Service policy.

   Management Comments: The DON concurred, advising:

      (1) JAGINST 5814. 1A requires the Commander, Naval Legal Service 

   Command and Marine Corps SJA to institutionalize post-trial processes working

   successfully in the respective Service environments;


      (2) the Marine Corps SJA has initiated standard post-trial processes in the 

   Marine Corps, including a standard post-trial Staff Judge Advocate Review letter

   and standard Convening Authority's Action form;


      (3) the Marine Corps SJA is reviewing other Marine Corps standards and local

   standard operating procedures for consolidation and development into Marine 

   Corps-wide post-trial processes and standards; and


      (4) under Commanding General Inspection Program purview, the Marine 

   Corps recently implemented a new standard 16-page checklist addressing staff 

   judge advocate offices, Legal Service Support Sections, and Law Centers, giving

   Commanders the ability to measure performance and hold legal professionals

   accountable.


   Our Response: The management comments are responsive, assuming, 

   JAGINST 5814.1A, currently in staffing within the Navy, establishes, “uniform

   post-trial processing standards, procedures, time guidelines and process

   responsibilities for the Navy and Marine Corps.”



                                                58 

3.	 We recommend the Secretary of the Navy, or the Judge Advocate General of the Navy if so
    empowered, extend authority for the Navy Region Legal Service Offices and Naval Legal
    Service Command to supervise and direct timely and accurate post-trial processing by Navy
    independent (afloat) staff judge advocates. Independent staff judge advocates currently do
    not have a supervisory legal organization to which they answer for post-trial processing,
    either for specific issues or for military justice administration overall.

   Management Comments: The DON concurred that the Commander, Naval Legal Service
   Command and Region Legal Service Offices should supervise and direct timely and accurate
   post-trial processing, but nonconcurred that independent staff judge advocates' currently do not
   have a supervisory legal organization to which they answer for post-trial processing. According
   to the comments,

           “As reflected on page 89 of the DoDIG report, in 2005, the JAG directed
           Region Legal Service Offices (RLSO) and Naval Legal Service Command
           (NLSC) to supervise and direct timely and accurate post-trial processing
           by all commands in their areas of operation, including Navy independent
           and afloat staff judge advocates (SJAs),” and

           “. . . Navy convening authorities and their independent SJAs rely on the
           advice and guidance of the cognizant RLSO.”


   Our Response: These comments do not address the central issue, i.e., there is no legal
   organization with authority to direct or supervise the independent staff judge advocates in
   post-trial processing matters. As clarification, on page 89 of the draft report, we noted that in
   2005, the Navy JAG directed the new Region Legal Service Offices to “track and retain
   control over records of trial until convening authority actions were completed and the records
   were received by NAMARA.” Tracking and retaining control over records of trial is
   different in character and degree from actively supervising and directing timely and accurate
   post-trial processing by independent SJAs. Further, as demonstrated by information in this
   report, RLSO efforts and convening authority/independent SJA reliance on advice and
   guidance of RLSOs historically failed to ensure timely post-trial processing of records of trial
   and submission to the Court.

4.	 We recommend the Secretary of the Navy direct a comprehensive review to identify the
    staffing needed to meet military justice requirements in the Navy and Marine Corps. The
    review should assess staffing adequacy and mix, and take into account the impact(s) frequent
    deployments and mandates to fill uncompensated billets have on the ability to complete
    mission requirements. The review should also assess the potential benefits from civilianizing
    some officer or enlisted billets to enhance continuity and help assure uninterrupted service in
    the post-trial process. The ongoing Section 506 panel review provides an opportunity for
    immediately assessing the needs.

   Management Comments: The DON concurred, agreeing the Section 506 panel review is an
   immediate opportunity and advising:


                                                59 

      (1) the Navy JAG is providing the Chief of Naval Personnel and cognizant budget

   submitting offices with a comprehensive Navy JAG staffing needs review;


     (2) the Marine Corps SJA is working closely with the Deputy Commandant for
   Manpower and Reserve Affairs, and the Total Force Structure Division, to assess Marine
   Corps' manpower needs; and

      (3) in accordance with our recommendation, the Navy JAG intends to evaluate the
   feasibility of civilianizing post-trial review billets in the Region Legal Service Offices and
   will report the results in the Annual Report on Military Justice within the Department of the
   Navy, due November 30, 2010.

   Our Response: The comments are responsive.

5.	 We recommend the Secretary of the Navy, Commandant of the Marine Corps, and Judge
    Advocate General of the Navy take appropriate steps to authorize the Staff Judge Advocate
    to the Commandant of the Marine Corps to:

   a.	 exercise professional supervision over Marine judge advocates and the legal services they
       deliver; and

   b.	 conduct Article 6, Uniform Code of Military Justice (UCMJ) inspections in the Marine
       Corps.

   Management Comments: The DON concurred, advising:

      (1) The Navy JAG and Marine Corps SJA, in coordination with the DON General
   Counsel, have been directed to revise SECNAVINST 5430.27C to increase Marine Corps
   SJA responsibility and authority to set and maintain standards for administering military
   justice and providing uniformed legal services in the Marine Corps. The revision will
   expressly delegate the Navy JAG's Article 6, UCMJ, inspection responsibilities within the
   Marine Corps to the Marine Corps SJA.

      (2) Legislation will be proposed to establish a direct relationship between the Secretary of
   the Navy and the Marine Corps SJA to enhance oversight and accountability over the new
   Marine Corps SJA authority.

     (3) A legislative change to 10 U.S.C. §806 will be proposed to make the Marine Corps
   SJA responsible and accountable for conducting Article 6, UCMJ, inspections in the Marine
   Corps.

      (4) The changes all will be drafted to ensure consistency with the Navy JAG’s Title 10
   authorities.

   Our Response: The comments are responsive.



                                               60 

6.	 We recommend the Judge Advocate General of the Navy establish a joint Navy and Marine
    Corps task force to review and assess systems such as the Federal Case Management /
    Electronic Case Filing (CM/ECF) system for possible fielding in the Navy and Marine Corps.
    The Navy should explore opportunities for including the Army and Air Force in the study,
    and making such a system a DoD-wide application.

   Management Comments: The DON concurred, advising that in March 2010, the Navy JAG
   initiated an IT requirements study in which the Center for Naval Analyses is benchmarking the
   Federal Court's Case Management and Electronic Case Filing (CM/ECF) system, as well as the
   Marine Corps, Army, Air Force and Department of Justice systems, to assist in identifying
   possible options for a unified Navy and Marine Corps system, and potentially commonalities
   across the DoD. Once recommendations from this study are received, the DON will assess the IT
   system(s) to pursue. Although DON will continue pursuing an integrated Navy and Marine
   Corps system, an integrated DoD system may be a more optimum solution. Currently, each
   Service has its own case tracking system and none has an electronic case filing system. For long-
   term efficiency across the Services, moving to a unified system could be advantageous. The
   Navy JAG will make its study results available to the Army and Air Force to evaluate the
   potential for adopting a common system.

   Our Response: The management comments are responsive.

7.	 We recommend the Judge Advocate General of the Navy implement a comprehensive and
    detailed inspection program for military justice administration in field units and ensure the
    inspections address processes and tracking systems. Independent (afloat) legal units should
    be included in the inspection program.

   Management Comments: The DON concurred, advising:

      (1) JAGINST 5040.1, issued on June 14, 2010, updates policy, responsibilities, and
   procedures for assessing Navy legal offices, including independent SJA offices, staffed with JAG
   community personnel, and provides for annually inspecting every Region Legal Service Office
   (RLSO), the Naval Justice School, and selected staff judge advocate offices;

      (2) by instruction, a subject matter expert in military justice will participate in every RLSO
   inspection to assess the RLSO's performance and compliance with statutory and regulatory
   requirements, including post-trial processing of courts-martial, and also review Naval Legal
   Service Office (defense and personnel representation functions) performance; and

      (3) with respect to the Marine Corps, the draft report details Marine Corps SJA actions to
   enhance both the Commanding General's Inspection Program and his own Article 6 inspection
   process, specifically to ensure compliance with standards and processing times. These
   inspections programs are designed to be complementary.

   Our Response: The comments are responsive.

8.	 We recommend the Judge Advocate General of the Navy establish a Chief Defense Counsel
    or equivalent position in the Navy. The Navy is the only Service without such a position,
    and the defense community lacks leadership and a community advocate to oversee defense

                                                  61 

   services and assure proper resources and training are available.

   Management Comments: The DON concurred, advising that on October 1, 2010, Naval
   Legal Service Command (NLSC) was reorganized to separate the Naval Legal Service
   Offices (NLSOs) and Region Legal Service Offices (RLSOs) into two functional groups.
   This reorganization included eliminating the Vice Commander position, NLSC, and creating
   a Deputy Commander, RLSOs, and Deputy Commander, NLSOs. Each Deputy Commander
   has authority and resources to actively manage and supervise courts-martial case processes.

   Commander, NLSC, also established both a Defense Counsel Assistance Program (DCAP)
   and a Trial Counsel Assistance Program (TCAP). The DCAP is led by a Navy captain
   Military Justice Litigation Career Track officer as its director, who serves in the role of a
   chief defense counsel of the Navy and reports to Deputy Commander, NLSO. DCAP is
   separate and distinct from the office of the Judge Advocate General Criminal Law Division
   (Code 20) and the Appellate Defense Division and will provide “reach-back support”
   dedicated to specific trial defense counsel needs. DCAP director supervises only personnel
   detailed to DCAP, but will assist the Deputy Commander, NLSOs, in exercising oversight
   and reporting responsibilities.

   The TCAP is led by a Navy commander Military Justice Litigation Career Track officer, who
   serves as the chief trial counsel of the Navy, reporting to Deputy Commander, RLSOs.
   TCAP will provide Government-related subject matter expertise and support to RLSO trial
   counsel when requested (trial counsel, or Commanding Officer, RLSO) or as the Deputy
   Commander directs. TCAP Director supervises only personnel detailed to TCAP, but will
   assist the Deputy Commander, RLSOs, in exercising oversight and reporting responsibilities.

   The Marine Corps has had a Chief Defense Counsel since 1985.

   Our Response: The comments are generally responsive. Realigning NLSC Headquarters
   and creating new positions and functions with greater focus on the defense community are
   significant steps forward. The Deputy Commander, NLSOs, has been given the authority
   and resources to manage and supervise courts-martial defense matters, and will be assisted by
   the Director, DCAP, who serves in the role of chief defense counsel. However, the senior
   partner in the Navy’s defense firm, the Deputy Commander, NLSOs, is also responsible for
   two other major legal programs: legal assistance and claims. We remain concerned that
   these additional responsibilities will negatively impact the Deputy Commander, NLSOs’
   ability to lead, oversee, and resource defense services. We continue to recommend
   establishing a Chief Defense Counsel position with the authority and resources to manage
   and supervise the Navy defense function, including the defense counsel and staff.

9.	 We recommend the Secretary of the Navy initiate a legislative proposal(s) to amend statute
    as appropriate to authorize the Staff Judge Advocate to the Commandant of the Marine Corps
    to certify a Marine judge advocate’s competence to perform duties as a trial or defense
    counsel.

   Management Comments: The DON agreed that a statutory change is needed to enhance and
   clarify the Marine Corps SJA’s authority over delivery of professional legal services in the

                                               62 

   Marine Corps. However, the DON believes modifying 10 U.S.C. §§ 5041, 5046, 1044, and 806
   (to be implemented through revisions to relevant DON and Marine Corps regulations) will best
   accomplish the needed change and make amendment of Article 27(b) unnecessary.

   Our Response: The comments are responsive. Although we believe pursuing a direct
   amendment to Article 27(b), Uniform Code of Military Justice, should continue as an active
   option during this process, we have modified our original recommendation to eliminate mention
   of Article 27(b). This modification provides DON greater latitude in pursuing changes needed to
   enhance and clarify the Marine Corps SJA’s authority.

10. We recommend the Judge Advocate General of the Navy provide at least annual military
    justice updates to the Secretary of the Navy, Chief of Naval Operations, and Commandant of
    the Marine Corps. The updates should detail post-trial processing improvements, Moreno
    compliance, and progress in establishing effective oversight and tracking mechanisms for
    post-trial processing.

   Management Comments: The DON concurred with recommendations 7 and 12 in the draft
   report, which have been consolidated in this recommendation, advising that the Navy JAG
   already initiated an annual reporting process, with the first annual report compiled in
   September 2009, and the second due November 30, 2010. According to the comments:

      (1) the “Service Chiefs” will provide this annual report to the Secretary of the Navy, thus
   ensuring adequate Service input and comment to the Secretary;

      (2) a proposed Secretary of the Navy instruction currently in coordination would 

   institutionalize the annual reporting requirement; and


      (3) the report will be a comprehensive assessment of military justice practice across the DON,
   including the Marine Corps.

   Our Response: The comments are responsive.

11. We recommend the Judge Advocate General of the Navy update applicable service policy
    documents such as the Naval Legal Service Command Manual, the Judge Advocate General
    Manual, and the Legal Administration Manual to:

   a.	 Establish uniform business rules for shipping/transmitting records of trial to the Navy-
       Marine Corps Appellate Review Activity to assure speedy, positive tracking capability
       and visibility over records of trial at both field and appellate levels.

   b.	 Require the Navy-Marine Corps Appellate Review Activity to send all court “mandates”
       requiring convening authority action through the servicing field legal offices.

   c.	 Require convening authorities, upon completing a court-mandated action, to return the
       completion documents to the Navy-Marine Corps Appellate Review Activity through the
       servicing field legal office.



                                                 63 

   Management Comments: The DON concurred, advising:

      (1) With respect to shipping/transmitting records of trial, JAGINST 5813.1B,
   "Standardization of General Courts-Martial and Special Courts-Martial Verbatim and
   Summarized Records of Trial," September 29, 2010, requires sending all records of trial
   requiring review under Articles 66 or 69 to the Office of the Judge Advocate General via
   FEDEX/UPS/DHL/USPS Express, or hand delivery (when feasible and authorized). The
   Marine Corps is currently conducting a pilot project to test using electronic records of trial.
   Possible project results include reduced costs and improved post-trial processing timelines,
   tracking, and service/departmental visibility.

      (2) With respect to sending and returning mandates, the Manual of the Judge Advocate
   General (JAGMAN), Chapter I, has been revised, is currently in coordination, and final
   promulgation is anticipate in December 2010. Section 0155(c)(I) will be amended to include
   the following language based on the recommendation and to formalize current practice:

          All supplementary orders that require convening authority action shall be
          returned to the convening authority via the servicing Region Legal Service
          Office or area Marine Corps Staff Judge Advocate's office. Additionally, once
          the court-mandated action is complete, convening authorities shall return the
          completion documents to the Navy-Marine Corps Appellate Review Activity
          via the same office.

   The Marine Corps SJA is currently revising the Legal Administration Manual (Marine Corps
   policy) to reflect these new processes.

   Our Response: The comments are responsive.

12. We recommend the Judge Advocate General of the Navy monitor and maintain Reserve unit
    support for the appellate divisions and the Navy-Marine Corps Court of Criminal Appeals to
    assure sufficient numbers and experience to accomplish missions and meet immediate surge
    requirements.

   Management Comments: The DON concurred, advising:

      (1) the Navy JAG and Marine Corps SJA monitor Reserve support to these organizations
   continuously;

      (2) separate reserve units support the appellate divisions and NMCCA – currently,
   13 Naval Reserve judge advocates support the Appellate Government Division (Code 46);
   20 Naval Reserve judge advocates, 1 Reserve Legalman and 5 Marine Corps Reserve judge
   advocates support the Appellate Defense Division (Code 45); and 10 Naval Reserve appellate
   judges and two Marine Corps Reserve appellate judges supported the NMCCA;

     (3) personnel assignment numbers are monitored through the Military Justice Oversight
   Council and Service assignment processes (Navy JAG and Marine Corps SJA); and


                                                64 

      (4) Marine Corps headquarters (Reserve Legal Services Support Section, Judge Advocate
   Division) centrally manages (administration, command, and control) Reserve legal services
   delivery to the Total Force (Marine Corps), and ensures trained and qualified legal personnel
   are available as directed to support active duty requirements, including requirements at the
   appellate divisions and NMCCA.

   Our Response: The comments are responsive.

13. We recommend the Judge Advocate General of the Navy maintain an O-6 grade
    authorization for, and fill the Director, Appellate Defense Division (Code 45), position at the
    0-6 level.

   Management Comments: The DON concurred, advising the JAG Corps recognizes the
   importance and is committed to maintaining continuity and seniority in the billet, although
   temporary gaps may be unavoidable given military personnel rotations.

   Our Response: The comments are responsive.

14. We recommend the Judge Advocate General of the Navy examine effectiveness and utility in
    the 1-year clerkship program established to enhance appellate counsel training and either
    modify or rescind the program.

   Management Comments: The DON concurred, advising:

      (1) although the appellate court clerkship program is vital to the NMCCA mission and counsel
   who serve as law clerks value the experience highly, the Navy JAG is reviewing assignment
   options to assess the effects of the resulting 2 year (vice 3 year) tours in the appellate divisions
   arising when an officer is assigned to a 1 year court clerkship prior to arriving at an appellate
   division; and

      (2) the review results will be addressed in the Annual Report on the State of Military Justice
   within the Department of the Navy.

   Our Response: The comments are generally responsive. However, we encourage a
   thorough review that includes an option to increase the duty tour to 4 years and, thereby,
   eliminate the impact on the appellate divisions.




                                                 65 

VII.   MANAGEMENT COMMENTS




                                      THE SECRETARY OF T H E N A V Y
                                          W"'S"I~G T Of'l . D . C , 203!50 1000

                                                                                           November 5, 2010


         MEMORANDUM FOR DEPARTMENT OF DEFENSE INSPECTOR GENERAL

         SUBJECT: Evaluation of Post-Trial Reviews of Couns-Manial within the Department of the.
                  Navy (Project No. 2009COO7)

                 Per your memonllldum of September 24, 2010, the following comments are provided in
         respon!;C to the dr<lft report concerning po~t - lrial processing of courts-manial within the
         Departmcnt of the Navy.

                     Your repon a.~serts that the Department has failed 10 ensure thllt all courts-manial receive
         timely post-trial review. While I am confident that tbe vast majority of courts-manial did
         n:ccive timely post-trial review. there are instances where processes failed. The case of Ull iteti
         Stlll,..I' ~ FQ...·/t:r. lhe impetu~ for this review, is a stark cltamplc.


                   There are many reasons for the failurc.~ during thi.~ lime period: a mililary justice ethos
         that produced the [lirgest number of eourts·murtial within the 000; the globally dispersed and
         decentralized nature of Navy and Marine forces. of which the judge advocate communities are 11
         part; significant operational tempo and increasing clienl demands on judge advocate. ouiside of
         militlll')' justic~ ; and the difficulty or slandardil.ing policies and instituting common opcrdting
         systems across two mature Serviees with ditTerent organizational constructs. There is also
         evidence thai. in some cases. inuttention to detail and substandard profeSSionalism a1 all levels
         allowed cases like Fo,~I"r to suffer.

                 Your draft report states that "[IJhe most telling indicator of how effectively the Navy and
         Marine Corps have addressed thcir longstanding po~l-tri al delay problems is their current and
         ruture perfomlancc . . .. " Judged againsl this standard. 1 believe the Dcpartment of the Navy IS
         meeting ils post-trial military justice mission. as demonstra ted by the following :

            •   In 2010. neither the Court of Appeals for the Armed Forces lCAAF), nor the Navy­
                Marine Corps Court of Criminal Appeals (NMCCA) found any failure of due process in
                any case because of pm;t-trial delay. In 2009. only the FOSler ca'iC required lcl.icfby
                NMCCA.

            •   The uppcllillc process has not eltceeded the 18-month guideline of the Moreno decision in
                any c1Ise this year. and only eltceooed thai guideline in IWO cases in 2009. One case was
                Foster; the olher case required no corrective action.

            •   Your report indicate,~ that the average disposition time from trial 10 appellate court
                decision in FY 2009 avcmged 408 days - less than one-half of the FY 2004 rale - and, in
                fact.lhe most Cltpeditious avemge processing T"dte since 1994. Our data from FY 2010
                shows another record low post-trial processing rate: For cases decided by the NMCCA in
                FY 2010, the uvero ge time from !rial 10 appellale decision declined 10 248 days. Even
                when including n:manded cases on whieh the NMCCA had taken previQus action, the
                average rise ~ to only 323 days.




                                                         66 

67 

68 

69 

70 

71 

72 

73 

74 

75 

76 

77 

78 

79 

80 

81 

82 

83 

84 

85 

86 

87 

88 

89 

90 

91 

92 

93 

94 

95 

96 

97 

98 

99 

100 

101 

102 

103 

104 

105 

106 

107 

108 

109 

110 

111 

112 

113 

114 

115 

116 

117 

118 

119 

120 

121 

122 

Appendix A.             Requirement for DoDIG Review
Senate Report 111-35 (to accompany S. 1390), “Report on the National Defense Authorization
Act for 2010” (printing ordered July 2, 2009), directed a DoDIG review, as follows:

          Inspector General review of post-trial processes for court-martial record
          preparation and appellate review within the Department of the Navy

          The committee believes that action is long overdue to analyze and correct
          longstanding problems with the post-trial processes for preparation of records of
          courts-martial and for appellate review of court-martial convictions within the
          Department of the Navy. The United States Court of Appeals for the Armed
          Forces (C.A.A.F.) in the case of Toohey v. United States, 60 M.J. 100 (C.A.A.F.
          2004), established standards for assessing whether convicted service members
          had been denied due process under the Fifth Amendment to the Constitution as a
          result of denial of reasonable appellate processing of their cases. Since then, a
          succession of Navy and Marine Corps cases, including, but not limited to, United
          States v. Jones, 61 M.J. 80 (C.A.A.F. 2005); United States v. Allison, 63 M.J. 365
          (C.A.A.F. 2006); United States v. Moreno, 63 M.J. 129 (C.A.A.F. 2006); United
          States v. Dearing, 63 M.J. 478 (C.A.A.F. 2006); and, most recently, the
          unpublished case of United States v. Foster have addressed extremely lengthy
          delays in appellate review. In the Foster case, the conviction of a Marine was set
          aside because his conviction for rape "could not withstand the test for legal and
          factual sufficiency." This Marine had been confined for more than 9 years
          awaiting appellate review of his case. These cases demonstrate that cognizant
          legal authorities in the Department of the Navy have not taken necessary and
          appropriate steps to ensure that the resources, command attention, and necessary
          supervision have been devoted to the task of ensuring that the Navy and Marine
          Corps post-trial military justice system functions properly in all cases.

          The committee recognizes that a series of Navy Judge Advocates General have
          attempted to overcome the systemic challenges associated with preparing,
          authenticating, tracking, and forwarding records of trial from numerous
          commands entrusted with court-martial convening authority and ensuring that the
          appellate review process comports with all legal standards. The committee is
          convinced, however, that intervention is needed by departmental civilian and
          military leaders to definitively resolve these chronic administrative problems and
          that action should be taken immediately to resolve these issues.

          The committee directs the Inspector General of the Department of Defense, in
          consultation with the Secretary of the Navy, to review the systems, policies, and
          procedures currently in use to ensure timely and legally sufficient post-trial
          review of courts-martial within the Department of the Navy. The review shall
          discuss and summarize the history of problems experienced by the Navy and
          Marine Corps since 1990 in ensuring appropriate appellate review of general and
          special courts-martial and curative measures. The principal focus of the review
          shall be to determine whether the resources dedicated to post-trial processes, the
          information and tracking systems in use, the applicable procedures and policies,
          and the monitoring and supervision of actions of participants in the military
          justice system aimed at ensuring compliance with the procedural requirements of
          law are adequate to accomplish the requirements for due process of law under the


                                                 123                                  Appendix A
Uniform Code of Military Justice and applicable case law. This review should be
provided to the Secretary of the Navy no later than January 1, 2010.

The committee further directs the Secretary of the Navy, in consultation with the
Chief of Naval Operations and the Commandant of the Marine Corps, no later
than March 1, 2010, to submit to the Committees on Armed Services of the
Senate and the House of Representatives a written report on the findings and
recommendations of the Department of Defense Inspector General and actions
taken or planned to address these findings and recommendations, The Secretary
shall include in the report his assessment of the adequacy of (1) the Department
of the Navy's processes and resources dedicated to affording legally sufficient
post-trial review of all Navy and Marine Corps cases, (2) the systems in place to
track courts-martial cases, and (3) means to ensure accountability and
compliance with the requirements of the Uniform Code of Military Justice and
applicable case law.




                                      124                                   Appendix A
Appendix B.   Court-Martial Post-Trial Process (Summary of Major Legal Steps) 





                                 125                             Appendix B
Appendix C.   Navy JAG and Marine Corps Organizations





                             126                   Appendix C
127   Appendix C
Appendix D.	 Navy and Marine Corps Field and Appellate
             Organizations
The Judge Advocate General of the Navy (Navy JAG) heads the Office of the Judge Advocate
General, a staff office within the Office of the Secretary of the Navy. The Navy JAG is
responsible for delivering legal services in both the Navy and Marine Corps.

The Office of the Judge Advocate General supports the Navy JAG in advising the Secretary of
the Navy on legal and policy matters. The office also supports the Navy JAG in advising and
assisting the Chief of Naval Operations in formulating and implementing policies and initiatives
pertaining to legal services within the Navy. The Deputy Judge Advocate General is also the
Commander, Naval Legal Service Command.

The Navy JAG is responsible for the professional supervision of all Navy and Marine Corps
judge advocates and for conducting Article 6 inspections of military justice administration in the
Navy and Marine Corps. Inspecting military justice administration in the Marine Corps
generally has been deferred to the Marine Corps SJA. The Office of the Judge Advocate General
organization and the Marine Corps organization are shown in Appendix C.

                  a.	 Naval Legal Service Command
The Naval Legal Service Command provides legal services to afloat and ashore commands,
active duty naval personnel, family members, retirees, and eligible beneficiaries from other
Services, at 99 offices world-wide. The command:

       • provides counsel for courts-martial, administrative boards, physical evaluation
boards, legal assistance, and local commanders and, through the Region Legal Service Offices,
handles post-trial matters for all assigned commands, and provides support to all afloat staff
judge advocates and convening authorities as needed;
       • provides training for Navy, Marine Corps and Coast Guard judge advocates,
legalmen, and other DoD personnel; and
       • is the primary sourcing organization for Navy Judge Advocate General Corps’
individual augmentation and deployment requirements to support overseas contingency
operations.

The Naval Legal Service Command consists of nine Naval Legal Service Offices (NLSOs), nine
Region Legal Service Offices (RLSOs), and the Naval Justice School.21 In FY 2009, the
command had 386 judge advocates, 1 Civil Engineer Corps Officer, 10 Limited Duty (Legal)
Officers, 213 legalmen, and 210 civilians. During the fiscal year, 15 percent of Naval Legal
Service Command’s judge advocates deployed as individual augmentees directly supporting
overseas conflict operations in Iraq, Afghanistan, Djibouti and Guantanamo Bay, Cuba. The
Naval Legal Service Command organization is shown in Appendix E.



21	
      The NLSOs provide defense counsel representing the accused in courts-martial. The RLSOs provide
      prosecutors/trial counsel representing the Government in courts-martial.


                                                   128 	                                         Appendix D
               b.	 Assistant Judge Advocate General for Military Justice (Code 02)
                   and Navy-Marine Corps Appellate Review Activity (NAMARA)
The Assistant Judge Advocate General for Military Justice (Code 02) is one of four Assistant
Judge Advocate Generals who report to the Deputy Judge Advocate General and Navy JAG.
The Assistant Judge Advocate General for Military Justice:

        •	 supervises the division director responsible for criminal law policy (Code 20);
        •	 serves as a member, Office of the Judge Advocate General Ethics Committee;
        • serves as the Chairman, Judicial Screening Board (JAGINST 5817.1C, January 7,
2008)
       • coordinates administrative matters with the Chief Judge, Department of the Navy
(Code 05); Chief Judge, Navy-Marine Corps Court of Criminal Appeals (Code 51); and the
Chief Judge, Navy-Marine Corps Trial Judiciary (Code 52); and
       •	 is the Officer in Charge, Navy-Marine Corps Appellate Review Activity (NAMARA)

As officer-in-charge, NAMARA, the Assistant Judge Advocate General for Military Justice
supervises:
       •	 the Administrative Support Division (Code 40);
       •	 the Appellate Defense Division (Code 45); and
       •	 the Appellate Government Division (Code 46).

                      (1) Criminal Law Division
The Criminal Law Division (Code 20) oversees all aspects of military justice policy in the
Department of the Navy. Among its overall responsibilities, the Criminal Law Division reviews
for error, and takes action on courts-martial cases involving less severe sentences arising from
general court-martial convictions (Article 69 (a), R.C.M 1201(b)). In October 2009 (beginning
of the current fiscal year), the Criminal Law Division was staffed with nine employees
(seven military and two civilian), including two attorneys, and three legal advisors.

                      (2) Navy-Marine Corps Appellate Review Activity (NAMARA)
NAMARA is the organizational name for the Assistant Judge Advocate General for Military
Justice divisions directly involved in receiving, processing and reviewing (substantive legal
review) all cases requiring review by the Navy-Marine Corps Court of Criminal Appeals.

                            (a) Administr ative Suppor t Division
The Administrative Support Division (Code 40) receives, ensures completeness, and delivers a
complete record of trial to the Navy-Marine Corps Court of Criminal Appeals for docketing and
appellate review. The Administrative Support Division also receives and reviews general courts-
martial records of trial forwarded for mandatory Judge Advocate General review under
Article 69(a), when the appellants have not waived or withdrawn their rights to appellate review.
In October 2009, the Administrative Support Division was staffed with 10 employees (8 military
and 2 civilian), including 2 document examiners and 1 legal technician.




                                            129 	                                   Appendix D
                            (b) Appellate Defense Division
The Appellate Defense Division (Code 45) represents Navy and Marine Corps appellants before
the Court, the U.S. Court of Appeals for the Armed Forces, and the U.S. Supreme Court, unless
the appellant has hired civilian counsel for the representation and/or waived the right to military
counsel. After docketing, a court-martial case record is sent to the Appellate Defense Division
for examination as to whether any error may have occurred affecting legal or factual sufficiency
in the case. As required, the Appellate Defense Division prepares legal briefs outlining asserted
errors for the Court’s consideration. The Appellate Defense Division also: (1) represents
appellants before the Navy Clemency & Parole Board, if the cases are in appellate review and
time constraints permit; (2) assists field trial defense counsel in filing extraordinary writs before
the Court and the U.S. Court of Appeals for the Armed Forces; (3) provides an informal death
penalty assistance team to advise field defense counsel facing potential capital cases; and
(4) provides limited, informal advice to field trial defense counsel on specific cases in litigation.
In October 2009, the Appellate Defense Division was staffed with 15 employees (10 military and
5 civilian), including 9 defense attorneys and 3 legal technicians.

                             (c) Appellate Gover nment Division
The Appellate Government Division (Code 46) represents the United States in criminal appellate
proceedings before the Court, the U.S. Court of Appeals for the Armed Forces, and the U.S.
Supreme Court. The division also: (1) makes recommendations to the Navy JAG concerning
issues to be certified to the U.S. Court of Appeals for the Armed Forces; and (2) provides limited
Trial Counsel Assistance Program (TCAP) support to trial counsel and staff judge advocates in
the field concerning their representation of the United States in court-martial and post-trial
processes. In October 2009, the Appellate Government Division was staffed with 13 employees
(10 military and 3 civilian), including 9 government attorneys and 1 legal technician.

                   c. Marine Corps Judge Advocate Organization
As of May 2010, the Marine Corps had approximately 444 active-duty judge advocates,
340 Reserve judge advocates, 17 warrant officers, 478 legal services specialists, and 41 speech-
recognition court reporters. These personnel work in legal offices supporting the Fleet Marine
Forces in the continental United States, overseas, and on deployment throughout the world.
Marine Corps Reserve judge advocates support offices in all functional areas.

Marine Corps judge advocates are not restricted officers, and may perform duty in various roles
outside their occupational specialties. On average, Marine judge advocates serve one to two
tours outside the legal profession during a career. Marine judge advocates are expected to be
“legal generalists” with four core legal competencies, which are generally understood to be
military justice, operational law, administrative law (with ethics regulations as a subset) and
legal assistance. Marine judge advocates practicing contract and fiscal law usually have Masters
of Law degrees (LL.M.) in contract and fiscal law, and practice under the supervision of the
Counsel for the Commandant. In military justice, they serve as prosecutors, defense counsel,
military judges, review officers, and appellate counsel for both the Government and Service
members. As of March 2010, eight active-duty Marine judge advocates were serving as counsel
in the Office of the Military Commissions, the organization authorized under the Military
Commissions Acts of 2006 and 2009 to conduct trials for alien unlawful enemy combatants
engaged in hostilities against the United States.


                                             130                                       Appendix D
Most Marine Corps judge advocates are assigned to operational commands. The military justice
mission is highly decentralized and handled by local judge advocate personnel. Legal Service
Support Section officers-in-charge, Law Center directors (typically dual-hated as installation
staff judge advocates), Military Justice Officers (supervise Military Justice sections within Legal
Service Support Sections and Law Centers), and individual unit staff judge advocates supervise
and oversee the delivery of military justice support in the field. Each Legal Service Support
Section or installation Law Center serves multiple commanders and staff judge advocates in their
respective installations or regions.

The three Marine Expeditionary Forces each has a Legal Service Support Section (located at
Camps Pendleton, Lejeune, and Foster (Okinawa, Japan)) providing the bulk of military justice
administrative support for the Marine Expeditionary Force. Individual command staff judge
advocates within the Marine Expeditionary Force, however, remain the primary legal advisors to
their commanders for military justice decisions. Marine law centers are located on other Marine
Corps installations, such as air stations, recruit depots, and bases, and provide military justice
administrative support at their respective installations.

There is no command or supervisory relationship between the Legal Services Support Section
officers-in-charge and the wing/division staff judge advocates they support. The Marine
Expeditionary Force staff judge advocate does not have any direct supervisory authority over the
Legal Services Support Section, but can work through the Marine Expeditionary Force
Commander to secure cooperation from a recalcitrant Legal Support Service Section in a
particular matter. Consequently, as in the Navy, most Marine Corps staff judge advocates
operate independently and in a highly decentralized manner. There are senior staff judge
advocates in the Marine Expeditionary Force structure, but these staff judge advocates are
concerned predominantly with operational legal duties, have relatively little military justice
involvement, and have no institutional responsibility for overseeing or monitoring military
justice activities in subordinate commands.

                       (1) Prosecution
Depending on office design, the staff judge advocate, Legal Service Support Section officer-in­
charge, or Law Center director is the senior supervisory attorney for the trial counsel. In several
offices, an installation Law Center director also acts as staff judge advocate for an installation
commander. After staff judge advocates, Law Center directors and Legal Service Support Section
officers-in-charge, the Military Justice Officers or legal team officers-in-charge are the mid-level
supervisory attorneys for Trial Counsel. Senior trial counsel manage the trial counsel staff below
them.

                       (2) Defense
All defense counsel in the Marine Corps fall under the professional supervisory authority of the Chief
Defense Counsel of the Marine Corps. In turn, each region in the Marine Corps (East Coast, West
Coast, and Pacific) has a Regional Defense Counsel, who acts as the supervisory attorney and fitness
report reviewing officer for all defense counsel in the region. The Regional Defense Counsel are
attached to the Legal Service Support Sections and report administratively to the Legal Service
Support Section officer-in-charge, but receive their fitness reports from the Marine Corps’ Chief
Defense Counsel. The senior defense counsel at a Legal Service Support Section or Law Center


                                              131                                        Appendix D
provides professional supervisory oversight for junior defense counsel (like the senior trial counsel
for junior trial counsel).

                        (3) Post-trial Processing and Review
The staff judge advocate, Legal Service Support Section officer-in-charge, or Law Center director is
the senior supervisory attorney for processing post-trial cases. The Court Reporter Section, led by
the Court Reporter Chief, is responsible for preparing and forwarding records of trial to all parties for
authentication, and for providing authenticated records of trial to the Review Officer, who runs the
Review Section. The Review Section is responsible for judge advocate reviews on cases not
forwarded to NAMARA, and for preparing the post-trial documents necessary for cognizant staff
judge advocate and convening authority post-trial reviews. The Review Sections are staffed
primarily with military enlisted members supervised by a military judge advocate.




                                               132                                         Appendix D
Appendix E.   Naval Legal Service Command





                         133                 Appendix E
Appendix F.             Relevant Professional Standards
The Rules for Professional Conduct require attorney diligence and promptness in executing
professional responsibilities. Primary relevant requirements are:

         • a judge with supervisory authority for the performance of other judges shall take
reasonable measures to ensure those judges properly discharge their judicial responsibilities,
including the prompt disposition of matters before them (Rule 2.12, ABA Model Code Of
Judicial Conduct);
         • a judge shall perform judicial and administrative duties competently and diligently
(Rule 2.5, ABA Model Code Of Judicial Conduct);
         • a lawyer shall act with reasonable diligence and promptness in representing a client
(Rule 1.3, ABA Model Rules of Professional Conduct 2004);
         • a covered attorney shall provide competent, diligent, and prompt representation to a
client (Rule 1.1., Judge Advocate General Instruction (JAGINST) 5803.1B, “Professional
Conduct of Attorneys Practicing Under the Cognizance and Supervision of the Judge Advocate
General,” February 11, 2000, Enclosure (1), “Rules of Professional Conduct”);
         • a covered attorney shall act with reasonable diligence and promptness in representing
a client (Rule 1.3, JAGINST 5803.1B);
         • a covered attorney's workload should be managed by the attorney (and supervisor, if
applicable) so that each matter can be handled effectively (Comment (1) to Rule 1.3,
JAGINST 5803.1B);
         • perhaps no professional shortcoming is more widely resented than procrastination. A
client's interests often can be adversely affected by the passage of time or the change of
conditions (Comment (2) to Rule 1.3, JAGINST 5803.1B);
         • a covered attorney shall make reasonable efforts to expedite litigation or other
proceedings consistent with the interests of the client and the attorney's responsibilities to
tribunals (Rule 3.2, Expediting Litigation, JAGINST 5803.1B);
         • dilatory practices bring the administration of justice into disrepute (Comment to
Rule 3.2, JAGINST 5803.1B).

Furthermore, Rule for Courts-Martial 109, Manual for Courts-Martial, specifies "Each Judge
Advocate General is responsible for the professional supervision and discipline of military trial
and appellate military judges, judge advocates, and other lawyers who practice in proceedings
governed by the code and this Manual."




                                           134                                        Appendix F
Appendix G. Relevant Policy and Requirements
         • 10 U.S.C. §5148 provides: “(b) . . . The Judge Advocate General shall be appointed
. . . from judge advocates of the Navy or the Marine Corps . . . (d)(2) The Judge Advocate
General of the Navy, under the direction of the Secretary of the Navy, shall . . . perform the
functions and duties and exercise the powers prescribed for the Judge Advocate General in
chapter 47 [Uniform Code of Military Justice] of this title . . .”
         • Secretary of the Navy Instruction (SECNAVINST) 5430.27C, “Responsibility of the
Judge Advocate General of the Navy and the Staff Judge Advocate to the Commandant of the
Marine Corps for Supervision and Provision of Certain Legal Services,” April 17, 2009.
Prescribes the Judge Advocate General of the Navy’s responsibility for supervising certain legal
services in the Department of the Navy, including those performed in the Office of the Judge
Advocate General, and sets forth responsibilities for the Staff Judge Advocate to the
Commandant of the Marine Corps. The Marine Corps must comply with Navy regulations
governing military justice activity if promulgated in specific Secretary of the Navy, or Judge
Advocate General policy. The Marine Corps is not required to follow instruction from Navy
commanders, such as the Commander, Naval Legal Service Command.
         • Office of the Chief of Naval Operations Instruction (OPNAVINST) 5810.4/Judge
Advocate General Instruction (JAGINST) 5810.1, “Management Goals for Processing Navy
Courts-Martial,” September 5, 1984. Contained very specific time goals for processing courts-
martial, from first knowledge of an offense through investigation, trial, convening authority
action, and thereafter to final appellate review. Effective March 20, 2008, the policy was
cancelled at the Judge Advocate General's request. The Judge Advocate General indicated the
Commander, Naval Legal Service Command, now monitors case progress and holds Region
Legal Service Office Commanders accountable, thereby eliminating the need for these
management goals.
         • JAGINST 1150.2A, “Military Justice Litigation Career Track,” June 17, 2009.
         • JAGINST 5400.lA, “Office of the Judge Advocate General (OJAG) Organization
Manual,” July 6, 1992. Chapter 8 has military justice instructions regarding handling and
processing records of trial at the Navy-Marine Corps Appellate Review Activity and the Navy-
Marine Corps Court of Criminal Appeals.
         • JAGINST 5800.7E, “Manual of the Judge Advocate General (JAGMAN),” June 20,
2007. Implements Uniform Code of Military Justice and Manual for Courts-Martial provisions;
designates Navy general and special court-martial convening authorities; specifies a 120-day
Moreno timeline for sentencing to convening authority action; references rescinded
OPNAVINST 5810.4 for processing time goals; and requires the staff judge advocate to explain
a delay exceeding the 120-day goal.
         • JAGINST 5803.1C, “Professional Conduct of Attorneys Practicing Under the
Cognizance and Supervision of the Judge Advocate General,” November 9, 2004. Applicable to
both Navy and Marine Corps judge advocates.
         • JAGINST 5813.1A, “Standardization of GCM/SpCM [General Court-Martial/Special
Court-Martial] Verbatim Records of Trial,” September 17, 1993.
         • JAGINST 5813.4G, “Navy-Marine Corps Trial Judiciary,” February 10, 2006.
Requires all military trial judges to complete the Military Judge's Course successfully.
         • JAGINST 5814.1, “Navy-Marine Corps Court of Criminal Appeals,” August 3, 2009.


                                         135                                       Appendix G
         • JAGINST 5817.1C, “Judicial Screening Board,” January 7, 2008.
         • JAG/Commander Naval Legal Service Command (JAG/CNLSCINST) 1500.2A,
“Trial Advocacy Training,” October 12, 2004.
         • Commander, Naval Legal Service Command Instruction
(COMNAVLEGSVCCOMINST) 5040.1C, “Command Inspections,” January 30, 2001,
Enclosure (3), “Command Inspection Checklist.” Not currently used; checklist in draft revision
pending since about 2007 is currently used.22
         • COMNAVLEGSVCCOMINST 5800.1E, “Naval Legal Service Command (NLSC)
Manual,” February 19, 2002. Naval Legal Service Command policy for operating and
administering the Naval Legal Service Offices, Trial Service Offices, Naval Justice School, and
their respective detachments, branch offices, and satellite offices. The publication does not
reflect the current Naval Legal Service Command organization. The Trial Service Offices were
disbanded and folded into the Region Legal Service Offices in 2006.
         • COMNAVLEGSVCCOMINST 5814.1, “Post-Trial Checklists,” December 2, 1992.
In revision; applies to Naval Legal Services Command offices, not the Marine Corps; according
to the Judge Advocate General Inspector General, this publication has not been used for several
years.
         • Marine Corps Administrative Order (MARADMIN) 062/10, “Implementation of
Case Management System for Courts-Martial,” February 1, 2010.
         • MARADMIN 276/10, “Implementation of Command Inspections of SJA Offices,
Law Centers and Legal Service Support Sections,” May 10, 2010.
         • Marine Corps Order (MCO) P5800.16a, “Marine Corps Manual For Legal
Administration (LEGALADMINMAN),” August 31, 1999.
         • Navy-Marine Corps Court of Criminal Appeals (NMCCA) “. . . Rules of Practice and
Procedure Including Internal Operating Procedures” (effective February 1, 2010); Rule 23.2.,
“Motions for Enlargement of Time.” Specifies timelines and requires very explicit justification
for time extension requests.
         • Criminal Law Division (Code 20) "Newsmailer" 2006-06A, U.S. v. Moreno
Implications and Guidance. E-mail memorandum in which the Criminal Law Division
disseminated the Moreno decision; newsmailers are not directive or policy-making in nature.
         • Marine Corps Deputy Staff Judge Advocate Memorandum to Field, Subject:
“Standards for Court-Martial Post-Trial Processing,” January 9, 2010.




22
     As we were completing this report, on June 14, 2010, the instruction was published in final form, rescinding
     COMNAVLEGSVCCOMINST) 5040.1C, “Command Inspections,” January 30, 2001.


                                                   136                                               Appendix G
Appendix H. Military Justice Statistics (FY 1990 – FY 2009)

   Fiscal      General             Special          Summary            Total Courts-         Nonjudical         Total Disciplinary    ROT Received       Appellate Cases
   Year/    Courts-Martial      Courts-Martial    Courts-Martial         Martial             Punishment              Actions           by Service         Reviewed by
  Service                                                                                                                            Appellate Courts   Service Appellate
                                                                                                                                                             Courts
             No.        %       No.        %       No.        %        No.        %         No.         %         No.         %       No.        %       No.        %
 FY '90­    35,731   100.00%   66,429   100.00%   55,531   100.00%   157,691   100.00%   1,691,810   100.00%   1,849,501   100.00%   68,218   100.00%   71,774 100.00%
 FY'09
 USN         5,412    15.15%   21,801    32.82%   20,202    36.38%    47,415    30.07%    408,585     24.15%    456,000     24.66%
 USMC        4,356    12.19%   25,922    39.02%   18,689    33.66%    48,967    31.05%    212,599     12.57%    261,566     14.14%
 Subtotal    9,768    27.34%   47,723    71.84%   38,891    70.03%    96,382    61.12%    621,184     36.72%    717,566     38.80%   38,519    56.46%   40,337    56.20%
 USA        16,644    46.58%   10,345    15.57%   14,985    26.98%    41,974    26.62%    896,456     52.99%    938,430     50.74%   18,829    27.60%   20,197    28.14%
 USAF        9,319    26.08%    8,361    12.59%    1,655     2.98%    19,335    12.26%    174,170     10.29%    193,505     10.46%   10,870    15.93%   11,240    15.66%
 FY 09       1,092   100.00%    1,820   100.00%    2,929   100.00%     5,841   100.00%     65,036    100.00%     70,877    100.00%    1,611   100.00%    1,812   100.00%
 USN            94     8.61%      203    11.15%      201     6.86%       498     8.53%     11,145     17.14%     11,643     16.43%
 USMC          140    12.82%      675    37.09%    1670     57.02%     2,485    42.54%     11,772     18.10%     14,257     20.12%
 Subtotal      234    21.43%      878    47.93%    1,871    63.88%     2,983    51.07%     22,917     35.24%     25,900     36.54%      694    43.08%      846    46.69%
 USA           638    58.42%      528    29.01%      946    32.30%     2,112    36.16%     35,210     54.14%     37,322     52.66%      590    36.62%      618    34.11%
 USAF          220    20.15%      414    22.75%      112     3.82%       746    12.77%      6,909     10.62%      7,655     10.80%      327    20.30%      348    19.21%
 FY 08       1,146   100.00%    1,832   100.00%    3,070   100.00%     6,048   100.00%     73,186    100.00%     79,234    100.00%    2,034   100.00%    2,494   100.00%
 USN           106     9.25%      292    15.94%      340    11.07%       738    12.20%     11,353     15.51%     12,091     15.26%
 USMC         163    14.22%      692    37.77%     1373    44.72%      2,228   36.84%      10,425    14.24%      12,653     15.97%
 Subtotal     269    23.47%      984    53.71%     1,713   55.80%      2,966   49.04%      21,778    29.76%      24,744     31.23%     852    41.89%       937    37.57%
 USA          674    58.81%      488    26.64%     1252    40.78%      2,414   39.91%      44,390    60.65%      46,804     59.07%     867    42.63%     1,167    46.79%
 USAF         203    17.71%      360    19.65%       105    3.42%        668   11.04%       7,018     9.59%       7,686      9.70%     315    15.49%       390    15.64%
 FY 07       1,345   100.00%    2,156   100.00%    2,876   100.00%     6,377   100.00%     77,024    100.00%     83,401    100.00%    2,268   100.00%    3,398   100.00%
 USN           148    11.00%      249    11.55%      243     8.45%       640    10.04%      9,850     12.79%     10,490     12.58%
 USMC          149    11.08%      800    37.11%     1262    43.88%     2,211    34.67%     15,012     19.49%     17,223     20.65%
 Subtotal      297    22.08%    1,049    48.65%    1,505    52.33%     2,851    44.71%     24,862     32.28%     27,713     33.23%      986    43.47%    1,590    46.79%
 USA           809    60.15%      635    29.45%     1223    42.52%     2,667    41.82%     45,124     58.58%     47,791     57.30%      917    40.43%    1,268    37.32%
 USAF          239    17.77%      472    21.89%      148     5.15%       859    13.47%      7,038      9.14%      7,897      9.47%      365    16.09%      540    15.89%
 FY 06       1,368   100.00%    2,333   100.00%    3,069   100.00%     6,770   100.00%     76,510    100.00%     83,280    100.00%    2,972   100.00%    3,845   100.00%
 USN           158    11.55%      335    14.36%      527    17.17%     1,020    15.07%     12,863     16.81%     13,883     16.67%
 USMC          120     8.77%      964    41.32%     1262    41.12%     2,346    34.65%     13,217     17.27%     15,563     18.69%
 Subtotal      278    20.32%    1,299    55.68%    1,789    58.29%     3,366    49.72%     26,080     34.09%     29,446     35.36%    1,536   51.68%     1,787    46.48%
 USA           749    54.75%      579    24.82%     1140    37.15%     2,468    36.45%     42,814     55.96%     45,282     54.37%      968   32.57%     1,323    34.41%
 USAF          341    24.93%      455    19.50%      140     4.56%       936    13.83%      7,616      9.95%      8,552     10.27%      468   15.75%       735    19.12%


                                                                       137                                                                                   Appendix H
 Fiscal       General           Special          Summary         Total Courts-      Nonjudical        Total Disciplinary    ROT Received       Appellate Cases
 Year/     Courts-Martial    Courts-Martial    Courts-Martial      Martial          Punishment             Actions           by Service         Reviewed by
Service                                                                                                                    Appellate Courts   Service Appellate
                                                                                                                                                   Courts
           No.        %      No.        %      No.        %      No.        %      No.         %       No.         %       No.        %        No.        %
FY 05      1,606   100.00%   2,827   100.00%   3,376   100.00%   7,809   100.00%   80,986   100.00%    88,795   100.00%    3,332   100.00%     3,596 100.00%
USN          172    10.71%     473    16.73%     958    28.38%   1,603    20.53%   18,316    22.62%    19,919    22.43%
USMC         187    11.64%   1,137    40.22%    1022    30.27%   2,346    30.04%    8,985    11.09%    11,331    12.76%
Subtotal     359    22.35%   1,610    56.95%   1,980    58.65%   3,949    50.57%   27,301    33.71%    31,250    35.19%    1,835    55.07%     2,088    58.06%
USA          825    51.37%     700    24.76%    1252    37.09%   2,777    35.56%   45,299    55.93%    48,076    54.14%      954    28.63%     1,032    28.70%
USAF         422    26.28%     517    18.29%     144     4.27%   1,083    13.87%    8,386    10.35%     9,469    10.66%      543    16.30%       476    13.24%
FY 04      1,316   100.00%   3,068   100.00%   2,866   100.00%   7,250   100.00%   80,404   100.00%    87,654   100.00%    2,904   100.00%     3,572   100.00%
USN          163    12.39%     611    19.92%    1026    35.80%   1,800    24.83%   19,674    24.47%    21,474    24.50%
USMC         150    11.40%   1,261    41.10%     928    32.38%   2,339    32.26%    8,985    11.17%    11,324    12.92%
Subtotal     313    23.78%   1,872    61.02%   1,954    68.18%   4,139    57.09%   28,659    35.64%    32,798    37.42%    1,501    51.69%     2,069    57.92%
USA          647    49.16%     682    22.23%     755    26.34%   2,084    28.74%   42,004    52.24%    44,088    50.30%      856    29.48%       976    27.32%
USAF         356    27.05%     514    16.75%     157     5.48%   1,027    14.17%    9,741    12.12%    10,768    12.28%      547    18.84%       527    14.75%
FY 03      1,355   100.00%   2,990   100.00%   2,949   100.00%   7,294   100.00%   81,053   100.00%    88,347   100.00%    3,341   100.00%     3,317   100.00%
USN          170    12.55%   1,036    34.65%    1208    40.96%   2,414    33.10%   19,770    24.39%    22,184    25.11%
USMC         145    10.70%     818    27.36%     782    26.52%   1,745    23.92%    8,344    10.29%    10,089    11.42%
Subtotal     315    23.25%   1,854    62.01%   1,990    67.48%   4,159    57.02%   28,114    34.69%    32,273    36.53%    1,684    50.40%     2,162    65.18%
USA          689    50.85%     665    22.24%     858    29.09%   2,212    30.33%   43,037    53.10%    45,249    51.22%    1,089    32.60%       753    22.70%
USAF         351    25.90%     471    15.75%     101     3.42%     923    12.65%    9,902    12.22%    10,825    12.25%      568    17.00%       402    12.12%
FY 02      1,851   100.00%   3,174   100.00%   3,075   100.00%   8,100   100.00%   81,612   100.00%    89,712   100.00%    3,477   100.00%     3,275   100.00%
USN          276    14.91%     769    24.23%   1089     35.41%   2,134    26.35%   19,662    24.09%    21,796    24.30%
USMC         223    12.05%   1,419    44.71%   1009     32.81%   2,651    32.73%    8,523    10.44%    11,174    12.46%
Subtotal     499    26.96%   2,188    68.94%   2,098    68.23%   4,785    59.07%   28,185    34.54%    32,970    36.75%    2,010    57.81%     1,926    58.81%
USA          788    42.57%     602    18.97%     858    27.90%   2,248    27.75%   44,318    54.30%    46,566    51.91%      850    24.45%       785    23.97%
USAF         564    30.47%     384    12.10%     119     3.87%   1,067    13.17%    9,109    11.16%    10,176    11.34%      617    17.75%       564    17.22%
FY 01      1,741   100.00%   2,961   100.00%   2,901   100.00%   7,603   100.00%   88,710   100.00%    96,313   100.00%    3,151   100.00%     3,064   100.00%
USN          254    14.59%     751    25.36%   1066     36.75%   2,071    27.24%   21,670    24.43%    23,741    24.65%
USMC         227    13.04%   1,513    51.10%   1037     35.75%   2,777    36.53%   13,351    15.05%    16,128    16.75%
Subtotal     481    27.63%   2,264    76.46%   2,103    72.49%   4,848    63.76%   35,021    39.48%    39,869    41.40%    1,922    61.00%     1,726    56.33%
USA          770    44.23%     357    12.06%     672    23.16%   1,799    23.66%   45,082    50.82%    46,881    48.68%      721    22.88%       775    25.29%
USAF         490    28.14%     340    11.48%     126     4.34%     956    12.57%    8,607     9.70%     9,563     9.93%      508    16.12%       563    18.37%




                                                                 138                                                                               Appendix H
 Fiscal       General           Special          Summary         Total Courts-      Nonjudical        Total Disciplinary    ROT Received       Appellate Cases
 Year/     Courts-Martial    Courts-Martial    Courts-Martial      Martial          Punishment             Actions           by Service         Reviewed by
Service                                                                                                                    Appellate Courts   Service Appellate
                                                                                                                                                   Courts
           No.        %      No.        %      No.        %      No.        %      No.         %       No.         %       No.        %        No.        %
FY 00      1,597   100.00%   3,094   100.00%   2,688   100.00%   7,379   100.00%   79,505   100.00%    86,884   100.00%    2,917   100.00%     2,268 100.00%
USN          252    15.78%     755    24.40%     974    36.24%   1,981    26.85%   19,842    24.96%    21,823    25.12%
USMC         176    11.02%   1,626    52.55%     909    33.82%   2,711    36.74%    9,770    12.29%    12,481    14.37%
Subtotal     428    26.80%   2,381    76.96%   1,883    70.05%   4,692    63.59%   29,612    37.25%    34,304    39.48%    1,738    59.58%     1,219    53.75%
USA          731    45.77%     393    12.70%     666    24.78%   1,790    24.26%   41,285    51.93%    43,075    49.58%      706    24.20%       660    29.10%
USAF         438    27.43%     320    10.34%     139     5.17%     897    12.16%    8,608    10.83%     9,505    10.94%      473    16.22%       389    17.15%
FY 99      1,507   100.00%   2,867   100.00%   2,143   100.00%   6,517   100.00%   75,687   100.00%    82,204   100.00%    3,013   100.00%     3,116   100.00%
USN          176    11.68%     670    23.37%     628    29.30%   1,474    22.62%   19,658    25.97%    21,132    25.71%
USMC         173    11.48%   1,432    49.95%     937    43.72%   2,542    39.01%    8,907    11.77%    11,449    13.93%
Subtotal     349    23.16%   2,102    73.32%   1,565    73.03%   4,016    61.62%   28,565    37.74%    32,581    39.63%    1,684    55.89%     1,894    60.78%
USA          737    48.91%     432    15.07%     487    22.73%   1,656    25.41%   38,879    51.37%    40,535    49.31%      872    28.94%       739    23.72%
USAF         421    27.94%     333    11.61%      91     4.25%     845    12.97%    8,243    10.89%     9,088    11.06%      457    15.17%       483    15.50%
FY 98      1,597   100.00%   2,913   100.00%   2,348   100.00%   6,858   100.00%   80,916   100.00%    87,774   100.00%    3,394   100.00%     3,877   100.00%
USN          247    15.47%     789    27.09%     743    31.64%   1,779    25.94%   21,452    26.51%    23,231    26.47%
USMC         223    13.96%   1,533    52.63%    1040    44.29%   2,796    40.77%   10,033    12.40%    12,829    14.62%
Subtotal     470    29.43%   2,322    79.71%   1,783    75.94%   4,575    66.71%   31,485    38.91%    36,060    41.08%    2,163    63.73%     2,518    64.95%
USA          685    42.89%     287     9.85%     489    20.83%   1,461    21.30%   41,447    51.22%    42,908    48.88%      731    21.54%       783    20.20%
USAF         442    27.68%     304    10.44%      76     3.24%     822    11.99%    7,984     9.87%     8,806    10.03%      500    14.73%       576    14.86%
FY 97      1,816   100.00%   3,428   100.00%   2,097   100.00%   7,341   100.00%   82,421   100.00%    89,762   100.00%    3,848   100.00%     3,338   100.00%
USN          280    15.42%     888    25.90%     687    32.76%   1,855    25.27%   22,664    27.50%    24,519    27.32%
USMC         268    14.76%   1,810    52.80%     944    45.02%   3,022    41.17%   11,369    13.79%    14,391    16.03%
Subtotal     548    30.18%   2,698    78.70%   1,631    77.78%   4,877    66.44%   34,033    41.29%    38,910    43.35%    2,313    60.11%     2,008    60.16%
USA          741    40.80%     325     9.48%     396    18.88%   1,462    19.92%   39,907    48.42%    41,369    46.09%      922    23.96%       733    21.96%
USAF         527    29.02%     405    11.81%      70     3.34%   1,002    13.65%    8,481    10.29%     9,483    10.56%      613    15.93%       597    17.88%
FY 96      1,835   100.00%   3,544   100.00%   1,872   100.00%   7,251   100.00%   76,626   100.00%    83,877   100.00%    3,471   100.00%     3,718   100.00%
USN          275    14.99%   1,124    31.72%     720    38.46%   2,119    29.22%   22,256    29.04%    24,375    29.06%
USMC         254    13.84%   1,663    46.92%     869    46.42%   2,786    38.42%    8,649    11.29%    11,435    13.63%
Subtotal     529    28.83%   2,787    78.64%   1,589    84.88%   4,905    67.65%   30,905    40.33%    35,810    42.69%    2,095    60.36%     2,090    56.21%
USA          789    43.00%     357    10.07%     238    12.71%   1,384    19.09%   36,622    47.79%    38,006    45.31%      806    23.22%       833    22.40%
USAF         517    28.17%     400    11.29%      45     2.40%     962    13.27%    9,099    11.87%    10,061    11.99%      570    16.42%       795    21.38%




                                                                 139                                                                               Appendix H
 Fiscal       General           Special          Summary          Total Courts-       Nonjudical        Total Disciplinary    ROT Received       Appellate Cases
 Year/     Courts-Martial    Courts-Martial    Courts-Martial       Martial           Punishment             Actions           by Service         Reviewed by
Service                                                                                                                      Appellate Courts   Service Appellate
                                                                                                                                                     Courts
           No.        %      No.        %      No.        %      No.         %       No.         %       No.         %       No.        %        No.        %
FY 95      1,938   100.00%   3,299   100.00%   1,772   100.00%   7,009    100.00%    74,565   100.00%    81,574   100.00%    3,399   100.00%     3,619 100.00%
USN          263    13.57%   1,083    32.83%    1120    63.21%   2,466     35.18%    21,928    29.41%    24,394    29.90%
USMC         240    12.38%   1,418    42.98%     313    17.66%   1,971     28.12%     5,705     7.65%     7,676     9.41%
Subtotal     503    25.95%   2,501    75.81%   1,433    80.87%   4,437     63.30%    27,633    37.06%    32,070    39.31%    2,085    61.34%     2,276    62.89%
USA          825    42.57%     353    10.70%     304    17.16%   1,482     21.14%    38,591    51.75%    40,073    49.12%      810    23.83%       768    21.22%
USAF         610    31.48%     445    13.49%      35     1.98%   1,090     15.55%     8,341    11.19%     9,431    11.56%      504    14.83%       575    15.89%
FY 94      1,917   100.00%   3,316   100.00%   1,822   100.00%   7,055    100.00%    76,949   100.00%    84,004   100.00%    3,244   100.00%     3,824   100.00%
USN          371    19.35%   1,411    42.55%    1277    70.09%   3,059     43.36%    22,275    28.95%    25,334    30.16%
USMC         211    11.01%   1,160    34.98%     195    10.70%   1,566     22.20%     5,359     6.96%     6,925     8.24%
Subtotal     582    30.36%   2,571    77.53%   1,472    80.79%   4,625     65.56%    27,634    35.91%    32,259    38.40%    1,904    58.69%     2,301    60.17%
USA          843    43.97%     377    11.37%     349    19.15%   1,569     22.24%    41,753    54.26%    43,322    51.57%      810    24.97%       924    24.16%
USAF         492    25.67%     368    11.10%       1     0.05%     861     12.20%     7,562     9.83%     8,423    10.03%      530    16.34%       599    15.66%
FY 93      2,224   100.00%   3,766   100.00%   3,268   100.00%   9,258    100.00%    82,284   100.00%    91,542   100.00%    4,061   100.00%     4,542   100.00%
USN          485    21.81%   1,819    48.30%    2620    80.17%   4,924     53.19%    22,727    27.62%    27,651    30.21%
USMC         249    11.20%   1,232    32.71%     278     8.51%   1,759     19.00%     7,459     9.06%     9,218    10.07%
Subtotal     734    33.00%   3,051    81.01%   2,898    88.68%   6,683     72.19%    30,186    36.69%    36,869    40.28%    2,405    59.22%     2,654    58.43%
USA          915    41.14%     372     9.88%     364    11.14%   1,651     17.83%    44,207    53.72%    45,858    50.10%    1,030    25.36%     1,250    27.52%
USAF         575    25.85%     343     9.11%       6     0.18%     924      9.98%     7,891     9.59%     8,815     9.63%      626    15.41%       638    14.05%
FY 92      2,691   100.00%   4,874   100.00%   2,987   100.00%   10,552   100.00%   100,611   100.00%   111,163   100.00%    4,666   100.00%     4,240   100.00%
USN          579    21.52%   2,399    49.22%    1794    60.06%    4,772    45.22%    28,923    28.75%    33,695    30.31%
USMC         311    11.56%   1,450    29.75%     500    16.74%    2,261    21.43%    12,299    12.22%    14,560    13.10%
Subtotal     890    33.07%   3,849    78.97%   2,294    76.80%    7,033    66.65%    41,222    40.97%    48,255    43.41%    2,681    57.46%     2,242    52.88%
USA        1,165    43.29%     613    12.58%     684    22.90%    2,462    23.33%    50,066    49.76%    52,528    47.25%    1,291    27.67%     1,381    32.57%
USAF         636    23.63%     412     8.45%       9     0.30%    1,057    10.02%     9,323     9.27%    10,380     9.34%      694    14.87%       617    14.55%
FY 91      2,601   100.00%   5,504   100.00%   3,366   100.00%   11,471   100.00%   112,612   100.00%   124,083   100.00%    4,731   100.00%     5,155   100.00%
USN          426    16.38%   2,724    49.49%    1441    42.81%    4,591    40.02%    26,169    23.24%    30,760    24.79%
USMC         371    14.26%   1,633    29.67%     979    29.08%    2,983    26.00%    15,491    13.76%    18,474    14.89%
Subtotal     797    30.64%   4,357    79.16%   2,420    71.90%    7,574    66.03%    41,660    36.99%    49,234    39.68%    2,906    61.42%     3,008    58.35%
USA        1,173    45.10%     679    12.34%     931    27.66%    2,783    24.26%    60,269    53.52%    63,052    50.81%    1,280    27.06%     1,526    29.60%
USAF         631    24.26%     468     8.50%      15     0.45%    1,114     9.71%    10,683     9.49%    11,797     9.51%      545    11.52%       621    12.05%




                                                                  140                                                                                Appendix H
 Fiscal        General             Special            Summary             Total Courts-          Nonjudical          Total Disciplinary     ROT Received        Appellate Cases
 Year/      Courts-Martial      Courts-Martial      Courts-Martial          Martial              Punishment               Actions            by Service          Reviewed by
Service                                                                                                                                    Appellate Courts    Service Appellate
                                                                                                                                                                    Courts
            No.        %        No.        %         No.        %         No.        %          No.         %          No.         %        No.        %        No.        %
FY 90       3,188   100.00%     6,663   100.00%      4,057   100.00%     13,908   100.00%      145,113   100.00%      159,021   100.00%     6,384   100.00%     5,704 100.00%
USN           517    16.22%     3,420    51.33%       1540    37.96%      5,477    39.38%       36,388    25.08%       41,865    26.33%
USMC          376    11.79%     1,686    25.30%       1380    34.02%      3,442    24.75%       18,944    13.05%       22,386    14.08%
Subtotal      893    28.01%     5,106    76.63%      2,920    71.97%      8,919    64.13%       55,332    38.13%       64,251    40.40%     3,525    55.22%     2,996    52.52%
USA         1,451    45.51%       921    13.82%       1121    27.63%      3,493    25.12%       76,152    52.48%       79,645    50.08%     1,759    27.55%     1,903    33.36%
USAF          844    26.47%       636     9.55%         16     0.39%      1,496    10.76%       13,629     9.39%       15,125     9.51%     1,100    17.23%       805    14.11%

Notes:	 ROT = Record of Trial; USA = United States Army; USN = United States Navy; USAF = United States Air Force; USMC = United States Marine Corps;
        Subtotal = Navy and Marine Corps combined, which is the Department of the Navy.

           The Department of the Navy provided all the above data, which we generally were able to trace to data reported in the Annual Reports of the Code Committee on
           Military Justice, the most complete, reliable information available. The Departments of the Army, Navy, and Air Force all report their data for inclusion in the
           annual code committee reports.

           Due to the time involved in completing records of trial and forwarding cases for appellate review, the appellate courts could not be expected to receive all courts-
           martial appellate cases completed in a fiscal year during the same fiscal year. Similarly, an appellate court could not be expected to complete reviewing all cases
           received in a fiscal year during the same fiscal year, e.g., each appellate court would have a case inventory at the beginning and end of each fiscal year. In
           addition, when case backlogs occur and efforts are undertaken to resolve case backlogs as occurred in the Department of the Navy, the number of cases that an
           appellate court reviews in a fiscal year can significantly exceed the number of cases received in the fiscal year. As can be seen in the table above, over the
           20 fiscal years involved, the total number of appellate cases reviewed (71,774) did significantly exceed the total records of trial received (68,218) in those fiscal
           years. We did not attempt to assess the Army and Air Force data, and the Navy data were inadequate for us to assess case inventories.




                                                                           141	                                                                                     Appendix H
Appendix I.              Case Law – Unreasonable Post-Trial Delay
Example military appeals court cases addressing post-trial delay problems are summarized
below. These cases illustrate delay problems plaguing the Navy and Marine Corps since at least
1990.

1.	 U.S. v. Shely, 16 M.J. 431 (C.M.A. 1983) (Navy): Sentenced October 1980; 38-page-guilty
    plea; 439-day delay between sentence and final supervisory authority action in case, "marked
    by administrative bungling and indifference . . . another of a disturbing number of cases
    involving intolerable delay in the post-trial processing of courts-martial which have arisen
    since this court, in United States v. Banks, 7 M.J. 92 (C.M.A.1979), withdrew from the
    'inflexible application' of the presumption of prejudice from such delay."

2.	 U.S. v. Bruton, 18 M.J. 156 (C.M.A. 1984) (Navy): Sentenced September 1980; 40-page­
    guilty plea; 299 days to supervisory authority action; lengthy, unexplained delay in staff
    judge advocate recommendation (SJAR) preparation, which noted no irregularities or errors;
    in Court comments, Judge Everett stated:

           We recognize that the Navy-- the service in which this case arises-- faces special
           problems in accomplishing appellate review of court-martial convictions.
           Apparently, there are some 2,200 separate convening authorities in the Navy; and
           where, as here, the convening authority is the commanding officer of a vessel, the
           problems are aggravated by mobility. . . . Indeed, the convening authority may
           be under different supervisory authorities as he sails the seven seas. However,
           while we are cognizant of special problems in the seagoing services, there is
           nothing in this record to explain why it took so long for the supervisory authority
           in this case to act. . . . Footnote 2: To its credit, the Navy is attempting to
           develop an automated information system that will enable it to keep better track
           of its cases and their status. Hopefully, as this system is put in place, problems
           like that of the present case will vanish.

3.	 U.S. v. Henry, 40 M.J. 722 (N.M.C.C.A. 1994) (Navy): Sentenced: Sept 1985; Nearly 8 years
    (2,849 days) elapsed between sentencing and convening authority action due to lost record;
    convening authority was commanding officer of a deployed Seabee unit; original record of
    trial was lost, with no explanation as to how it was lost, when it was lost, or why it took so
    long to realize it was lost. The Court commented:

           ...we are troubled and frustrated by the frequency that this occurs in spite of
           repeated condemnations from this Court and the U.S. Court of Military Appeals.
           There ought to be an effective system in place to monitor the review of courts-
           martial in the naval service, a type of post-trial "chain of custody" of the case that
           is centrally controlled. The automated case tracking system mentioned by Chief
           Judge Everett in Bruton . . . was apparently never fully operational, and a new
           system is still in the process of being established. We recommend that the Judge
           Advocate General do everything in his power to make this tracking system an
           effective tool as soon as possible. We also strongly encourage all those
           responsible for the post-trial processing of Navy and Marine Corps cases not to
           adopt or adhere to a lackadaisical attitude in completing convening authorities'
           actions and forwarding records for review because of the lack of a judicially


                                               142	                                             Appendix I
           imposed time deadline. The net result of such an attitude can only be "a loss of
           respect for military law among Americans, in and out of uniform."

4.	 U.S. v. Santoro, 46 M.J. 344 (C.A.A.F. 1997) (Navy); Sentenced 1988 (date unknown);
    convening authority action on October 24, 1988; record disappeared for 7 years before Navy
    realized the Court never received or reviewed the record of trial. Navy initiated a search, but
    the official record was not located. Audio tapes of the trial proceedings were found, as were
    the convening authority's action and promulgating order, and an authenticated transcript
    made from the audio tapes. These records were forwarded to the Court of Criminal Appeals
    (formerly the Court of Military Review) as the "record" for review.

   Eight years after the fact, the judge who tried the case authenticated the transcript of the
   proceedings presented to the court; however, there was no convening order, charge sheet, or
   staff judge advocate recommendation (SJAR). All 14 Government exhibits and all 18
   defense exhibits were missing.

   The Court was outspoken in its criticism, stating:

           This is another record of trial reaching us many years after sentence was
           adjudged in a condition that can only be described as horrible. The fault for the
           abysmal condition of the record lies at the Government's doorstep, not the
           appellant's.

           For its part, the Government, too, spent considerable effort during oral argument
           assuring us that the Navy has come to grips with its case-tracking difficulties.
           Counsel stated: "I can assure the Court as an officer of the Court that there is a
           case-tracking system in place that is effectively working." In this light, the
           Government contended that there is no need to "send a message."

           No one can take comfort in the delays and defects reflected in this case. These
           problems arguably operated to deny society a full measure of justice because they
           left the Court of Criminal Appeals with little choice but to perform radical
           surgery on the findings and sentence. That result should be incentive enough to
           correct the problems for the future.

5.	 U.S. v. Oakley (N.M.C.C.A. January 9, 2002) (Marine Corps) (unpublished): 8 months from
    trial (in 2000) to convening authority action in a 36-page-guilty-plea case. In its decision, the
    Navy-Marine Corps Court of Criminal Appeals stated ". . . lengthy and unjustified delays by
    convening authorities and their staff judge advocates in the post- trial processing of court-
    martial cases continue to be a source of concern on appellate review."

6.	 U.S. v. Pursley (N.M.C.C.A. November 14, 2002) (Navy) (unpublished): Sentenced July
    1997; 52-page-guilty plea-case; nearly 4 years (1,415 days) from sentencing to docketing at
    the Court.

7.	 U.S. v. Mahr (N.M.C.C.A. October 22, 2002) (Marine Corps) (unpublished): over 20 months
    from sentencing (July 2000) to convening authority action; 2 months from convening
    authority action to record of trial receipt at the Court.


                                             143	                                               Appendix I
8.	 U.S. v. Jones (N.M.C.C.A. October 31, 2002) (Marine Corps) (unpublished): 190-page­
    guilty-plea case; 21 months from sentence to convening authority action; 725 days (about
    24 months) from trial (July 2000) to appeal docketing at the Court.

9.	 U.S. v. Geter (N.M.C.C.A. May 30, 2003) (Marine Corps)(unpublished): Sentenced July 10,
    1998; guilty plea; 5 months for trial counsel to review 384-page record of trial; record of trial
    authenticated 7 months later; staff judge advocate recommendation (SJAR) signed 1 year
    later. Convening authority action 15 months after sentencing; 3 months from convening
    authority action to docketing at the Court.

10. U.S. v. Williams (N.M.C.C.A. May 6, 2003) (Marine Corps) (unpublished): Sentenced
    July 2000; 3 months for trial defense counsel to receive record; 6 months to staff judge
    advocate recommendation; 13 months to convening authority action; 14 months from
    sentencing to docketing at the Court. Problems with original trial defense counsel leaving
    active duty, and convening authority deployment; record of trial was missing several post­
    trial documents, but included several post-trial documents from an unrelated case.

11. U.S. v. Khamsouk, 58 M.J. 560 (N.M.C.C.A. 2003) (Navy) (unpublished): Sentenced
    Aug 1997; 13 months for authentication; approximately 20 months from sentencing to CA
    action.

12. U.S. v. Urra (N.M.C.C.A. March 6, 2003) (Marine Corps) (unpublished) Sentenced:
    August 2000; 72-page-guilty plea; about 1½ years (552 days) from sentencing to docketing;
    477 days unexplained delay from trial to convening authority action.

13. U.S. v. Izquierdo (N.M.C.C.A. September 9, 2003) (Marine Corps) (unpublished): Sentenced
    March 1999; 50-page-guilty-plea case; over 1½ years (545 days) from sentencing to Court
    review.

14. U.S. v. Freeman (N.M.C.C.A. December 16, 2004) (Navy) (unpublished): Sentenced
    July 1997; less than 100 page record of trial; over 5 years from sentencing to convening
    authority action.

15. U.S. v. Villareal	 (N.M.C.C.A. February 28, 2005 (Marine Corps) (unpublished): Sentenced
    April 2003; 360 days from trial to staff judge advocate recommendation.

16. U.S. v. Jones, 	61 M.J. 80 (C.A.A.F. 2005) (Marine Corps): Sentenced January 2000; guilty-
    plea with pretrial agreement; 36-page record of trial; 55-minute special court-martial; 6
    months to transcribe, authenticate, and serve record of trial on trial defense counsel; 66 days
    more to staff judge advocate recommendation; 265 days after sentencing to serve staff judge
    advocate recommendation on defense counsel; 290 days from trial to convening authority
    action; 74 days from convening authority action to record of trial receipt at the Court.

17. U.S. v. Peltier	 (N.M.C.C.A. January 31, 2005) (Marine Corps) (unpublished): Sentenced
    September 2002; guilty plea with pretrial agreement; unexplained 8 months to send record of
    trial to Military Judge (authenticated July 2003); another 10 months to staff judge advocate


                                            144	                                        Appendix I
   recommendation (signed May 2004); 22 months from sentencing to docketing at the Court
   (July 2004).

18. U.S. v. Farmer (N.M.C.C.A. September 27, 2005) (Navy) (unpublished): Sentenced June
    2002; 6 months from sentencing to convening authority action; more than 2 years (816 days)
    from convening authority action to docketing at the Court (2 months from record of trial
    mailing to receipt, and then nearly 3 months from receipt to docketing). The Government
    asserted administrative oversight and ship workups/deployment as reasons for delay. The
    Court indicated the reasons did not excuse "routine, nondiscretionary, ministerial" tasks
    nonperformance, and the excessive delay in mailing the record to the appellate authority was
    "the least defensible of all."

19. U.S. v. Clark (N.M.C.C.A, March 14, 2005) (Marine Corps) (unpublished): Sentenced
    October 2002; over 500 days from sentencing to convening authority action; unexplained
    13-month delay from record of trial authentication to staff judge advocate recommendation
    (signed March 26, 2004).

20. U.S. v. Paternoster (N.M.C.C.A. July 27, 2005) (Marine Corps) (unpublished): Sentenced
    March 2003; guilty plea; 35 page record of trial; about 2 years from sentencing to docketing;
    about 4 months from trial until trial defense counsel received the record of trial (according to
    the staff judge advocate, the review chief was indecisive/confused and did not seek assistance
    in resolving missing document issues prior to record of trial authentication); 2 months for
    trial defense counsel to receive the staff judge advocate recommendation (due to counsel
    transfer); unexplained 490 days from trial defense counsel’s record of trial receipt to staff
    judge advocate recommendation.

21. U.S. v. Rocha (N.M.C.C.A. November 17, 2005) (Marine Corps) (unpublished): Sentenced
    February 2004; 473 days from sentencing to court docketing; 344 days from record of trial
    authentication to staff judge advocate recommendation. Government attributed delays to
    multiple staff judge advocate and support deployments to combat and post-war operations in
    Iraq. The Court concluded the reasons, although compelling, had to be balanced against the
    appellant's constitutional right to due process.

22. U.S. v. Childers (N.M.C.C.A. September 30, 2005) (Marine Corps) (unpublished):
    Sentenced April 2003; 736 days (about 25 months) from sentencing to docketing at the
    Court; 15 months from record of trial authentication to staff judge advocate recommendation.
    The staff judge advocate attributed the delay to multiple Third Marine Aircraft Wing
    deployments during Operations Enduring Freedom and Iraqi Freedom, resulting in a severe
    legal staff shortage in the unit.

23. U.S. v. McElhanon (N.M.C.C.A. December 19, 2005) (Marine Corps) (unpublished):
    Sentenced July 2003; 42-page-guilty-plea case; over 21 months from trial to docketed at the
    Court. The Government attributed the delay to “operational commitments.”

24. U.S. v. Sparks (N.M.C.C.A. October 17, 2006) (Navy) (unpublished): guilty plea; 76-page
    record; about 9 years (3,573 days) from sentencing (May 1996) to re-docketing at the Court
    (March 13, 2006). NAMARA Code 40 first received the case nearly 3 years after convening


                                           145                                         Appendix I
   authority action on December 2, 1996. On February 15, 2001, the Court ordered a new
   convening authority action, which was completed roughly 5 years later on January 19, 2006.
   The case was re-docketed at the Court on March 13, 2006.

25. U.S. v. Sanford (	 N.M.C.C.A. July 10, 2006) (Navy) (unpublished): The Court found the
    almost 3 years from trial (August 2003) to final briefing before the Court were facially
    unreasonable, as were the 20 months from docketing to the initial appellant pleadings. The
    reason for delay was attributed to appellate defense counsel's large caseload. The Court
    expressed "frustration with the continuing practice of appellate counsel, from both sides of
    the aisle [appellate defense and government counsel], in making bald assertions regarding
    workload commitments without providing detailed information regarding case numbers and
    complexity, work hours, and what efforts have been made to obtain assistance."

26. U.S. v. Canchola, 63 M.J. 649 (N.M.C.C.A. 2006) (Marine Corps): Sentenced January 2003;
    guilty plea; 59-page record of trial; 1,263 days (about 42 months) from sentencing to Court
    decision; 503 days from record of trial authentication to staff judge advocate
    recommendation (four pages long, containing nothing unusual). Counsel argued the multiple
    deployments (convening authorities, staff judge advocates, and support) supporting
    Operation Enduring Freedom, Operation Iraqi Freedom, and their many follow-on missions
    caused severe staffing issues affecting the review process. The Court commented a general
    reliance on budgetary and manpower constraints did not constitute reasonable grounds for
    delay, or cause this factor to weigh in the Government’s favor.

27. U.S. v. Cooper (N.M.C.C.A. March 15, 2006) (Navy) (unpublished): Sentenced April 2004;
    guilty plea; 104-page record of trial; 9 months from trial to staff judge advocate
    recommendation; 17 months from trial to docketing at the Court. The Court found the more
    than 1 year delay from court-martial adjournment to docketing at the Court was facially
    unreasonable. The Government asserted clerical errors in explaining the 9 month delay in
    mailing the original record of trial for convening authority action, but did not attempt to
    explain the 7 month delay in mailing the record of trial for court review.

28. U.S. v. Simon, 64 M.J. 205 (C.A.A.F. 2006) (Marine Corps): Sentenced October 2002; guilty
    plea to single charge, 36-page record of trial; 847 days (about 28 months) from sentencing to
    docketing at the Court; the Court noted the 572 days (about 19 months) from convening
    authority action to docketing at the Court was the "most glaring deficiency... [t]ransmission
    of the record of trial from the field to the court is a ministerial act, routinely accomplished in
    a brief period of time in the absence of special circumstances. There are no special
    circumstances in this case; indeed, no explanation for the delay has been offered. "

29. U.S. v. Moreno, 	63 M.J. 129 (C.A.A.F. 2006) (Marine Corps): Sentenced September 1999;
    208 days for military judge to authenticate 746-page record of trial; 490 days from
    sentencing to convening authority action; 76 days from convening authority action to
    docketing at the Court; the Court granted 18 time extensions to defense counsel—defense
    brief was filed 702 days after docketing; the Government's answer brief was 223 days after
    the defense brief; the Court issued its unpublished decision 197 days later; 1,688 days
    (4 years, 7 months, 14 days) from trial to complete Moreno's appeal right under Article 66,
    UCMJ, 10 U.S.C. 866.


                                             146	                                         Appendix I
   The U.S. Court of Appeals for the Armed Forces commented:

           490 days between the end of trial and the convening authority's action is
           excessive; 76 days between action and docketing is also unexplained; longest
           delay in this case -- 925 days -- involves the period from which the case was
           docketed at the Court of Criminal Appeals until briefing was complete; CCA
           granted eighteen enlargements of time; enlargement numbers four through
           eighteen each contained the same reason for the request: "other case load
           commitments." "Other case load commitments" logically reflects that Moreno's
           case was not getting counsel's professional attention, a fact that is the very
           antithesis of any benefit to Moreno. . . . As we said in Diaz, 59 M.J. at 38:
           Appellate counsel caseloads are a result of management and administrative
           priorities and as such...while appellate defense counsel's caseload is the
           underlying cause of much of this period of delay, responsibility for this portion of
           the delay and the burden placed upon appellate defense counsel initially rests
           with the Government. The Government must provide adequate staffing within
           the Appellate Defense Division to fulfill its responsibility under the UCMJ to
           provide competent and timely representation. See Article 70, UCMJ, 10 U.S.C.
           870 (2000). Ultimately the timely management and disposition of cases docketed
           at the Courts of Criminal Appeals is a responsibility of the Courts of Criminal
           Appeals. Therefore, we decline to hold Moreno responsible for the lack of
           "institutional vigilance" which should have been exercised in this case.

Comments regarding post-trial processing standards in the military justice system:

           Our concern for post-trial timeliness has been heightened by the number of
           appellate delay cases that have come before this court and cases that are pending
           elsewhere in the military justice system. In recognition of the due process issues
           involved in timely post-trial review and appeal and in response to the cases
           giving rise to our concerns, we will establish post-trial processing standards to be
           applied to cases yet to enter the post-trial and appellate processes. Unfortunately,
           our confidence that procedural protections would suffice to ensure the speedy
           post-trial and appellate rights of service members has been eroded. It is of some
           concern that the Government brief asserts that the 1,688 day delay in this case
           was reasonable. We reject that contention and note that Moreno's case is not an
           isolated case that involves excessive post-trial delay issues.

           This increase in processing time stands in contrast to the lower number of cases
           tried in the military justice system in recent years. Our separate system of
           military justice often provides different or diminished constitutional rights in
           light of the need for prompt disposition of disciplinary matters. It follows then,
           as this court has noted, that the unique nature of review under Article 66(c),
           UCMJ, "calls for, if anything, even greater diligence and timeliness than is found
           in the civilian system." Diaz, 59 M.J. at 39.

Processing standards adopted:

           . . . we will apply a presumption of unreasonable delay . . . where the action of
           the convening authority is not taken within 120 days of the completion of trial.



                                              147                                              Appendix I
              We will apply a similar presumption of unreasonable delay for courts-martial
              completed thirty days after the date of this opinion where the record of trial is not
              docketed by the service Court of Criminal Appeals within thirty days of the
              convening authority's action.

              For those cases arriving at the service Courts of Criminal Appeals thirty days
              after the date of this decision, we will apply a presumption of unreasonable delay
              where appellate review is not completed and a decision is not rendered within
              eighteen months of docketing the case before the Court of Criminal Appeals

30. U.S. v. Simmons (N.M.C.C.A. November 8, 2006) (Marine Corps) (unpublished): Sentenced
    April 2001; guilty-plea case; 112-page record of trial; more than 2 years from sentencing to
    docketing at the Court; 140 days from record of trial authentication to sentencing; 538 days
    (about 18 months) from sentencing to final staff judge advocate recommendation; 605 days
    (about 20 months) from trial to convening authority action.

31. U.S. v. Sands (N.M.C.C.A. October 25, 2006) (Marine Corps) (unpublished): Sentenced
    June 2004; guilty-plea case; 46-page record of trial; 667 days (about 22 months) from trial to
    docketing at the Court; 164 days (about 6 months) from trial to record of trial authentication;
    369 days (about 12 months) from record of trial authentication to staff judge advocate
    recommendation; 134 days (about 5 months) from convening authority action to docketing at
    the Court.23 The Marine Corps review officer attributed the delay to war-time operational
    requirements impacting the 1st Marine Division, and particularly the personnel normally
    assigned to perform post-trial review. The Court concluded the explanation failed to show
    reasons for the delay, was "more an exercise in obfuscation than explanation," and showed
    the Government decided to expend resources on courts-martial, but radically reduced the
    resources required for timely post-trial review in the same cases (manpower reduced
    70 percent). The Court's discussion is noteworthy:

              None of the agreements relating to actions on courts-martial are appended to the
              declaration or the record of trial. None of the general officers referred to in the
              declaration was the commanding officer who convened this special court-martial
              and took action in this case. The declaration provides no explanation for the
              delay of five months from trial to authentication by the military judge. It does
              not state whether this case was one of the 31 cases received by his office from
              Twenty-Nine Palms on 15 June 2005. It does not state this case was affected by
              any confusion between the legal offices on the two bases. The declaration does
              not say why it took one year after authentication of the record to draft a SJAR. It
              does not attempt to explain the delay of five months in executing the simple
              ministerial task of sending the record to this court after the convening authority's
              action was completed.

              While this declaration is notable for what it does not say, what it does say is
              important. It states that the Marine Corps reduced by 70% the staffing available
              for post-trial review mandated by law, yet continued unabated the number of
              courts-martial tried. The war may explain why certain individuals were actually
              overwhelmed at certain periods (although there is insufficient evidence in this

23
     The Court identified the total delay as 687 days.


                                                    148                                           Appendix I
           record to prove such a claim, and none are identified). However, it does not
           explain why the Government did not provide the appropriate resources to ensure
           the timely and efficient operation of this phase of the military justice system
           during periods of military operations. This Marine Corps command appears able
           to prosecute criminal cases through courts-martial during the current war, yet
           seeks to avoid the negative consequences when it is less diligent in implementing
           those post-trial procedures which are designed to protect the rights of convicted
           service members, and which are required by law. In none of the post-trial delay
           cases this court has seen has the Government even attempted to explain the
           disparity between assets made available for trial of courts-martial and the assets
           made available for their post-trial review. It has not done so here.

           We are not here questioning the discretion of military commanders on which
           cases to refer to court-martial, either generally or under the specific facts of this
           case. However, we emphasize that if commanders exercise their discretion to
           refer a case to court-martial, they assume, by requirement of law, the duty to
           provide appropriate and timely post-trial processing

32. U.S. v. Bush 68 M.J. 96 (C.A.A.F. 2009) (Marine Corps): Sentenced January 2000; guilty-
    plea case; 143-page record of trial; more than 7 years from sentencing to docketing at the
    Court.




                                               149                                                 Appendix I
Appendix J.                O’Toole Report-Consolidated

                           Recommendations
Par t I

1. 	       Coordinate and implement the Naval Justice School curriculum changes described in
           Appendix.

2. 	       Continue to implement, evaluate, and adjust the Military Justice Litigation Career Track
           as part of JAG Corps 2020, with particular emphasis on filling coded billets within NLSC
           and the judiciary.

Par t II

1. 	       To reduce the potential for conflict of interest within Code 20 when providing technical
           assistance to both trial and defense counsel, and to make “reach back” expertise as
           accessible to the defense as to the prosecution, explore development of a Defense
           Counsel Assistance Program (DCAP), or its equivalent.

2. 	       Expand the pool of candidates for judicial selection through more aggressive recruiting
           among MJLCT officers, and develop a pool of screened officers from which detailers
           may make assignments.

3. 	       Commission a follow-on to the 2006 survey of military judges and supervisory counsel to
           assess the relative level of litigation competence.

4. 	       Code 20, and the Chief Judge, NMTJ, should determine the best process for providing
           additional guidance, respectively, to counsel and military judges in conducting Dubay
           hearings.

Part III

1. 	       Update the NLSC Manual and the JAGMAN to require:

           a.	 That all records of trial be forwarded to NAMARA by a servicing RLSO or LSSS;
           b.	 That all mandates must be forwarded by NAMARA to a convening authority through
               a servicing RLSO or LSSS; and that, upon completion of mandated action, a response
               to the mandate must be returned to NAMARA through the same servicing RLSO or
               LSSS.

2. 	       Institutionalize current NAMARA procedures for tracking and oversight of cases and
           mandates in an organizational instruction, identifying responsible officials and
           parameters within which matters must be brought to the attention of the AJAGs or the
           JAG.




                                              150	                                      Appendix J
3. 	   Explore feasibility of a uniform method for RLSO tracking of the post-trial process, and
       if feasible, include it in the NLSC manual; and

4. 	   Consider repromulgation of joint JAG instructions with the CNO, and the Commandant
       of the Marine Corps, re-establishing post-trial processing guidelines, and providing new
       post-trial checklists and templates for required documentation.

5. 	   Incorporate the format of the new NAMARA post-trial case and mandate tracking
       spreadsheets into a standard CMTIS report.

6. 	   Explore having the Marine Corps use CMTIS or join the Navy in implementing an
       alternative case management information system, such as the federal court PACER
       system.

Part IV

1. 	   Unless the case load remains stable for a prolonged period at below 1,000 cases, the
       NMCCA should be maintained at 10 active duty judges, including three panels of three
       judges each, plus the Chief Judge, who should not be on a regularly designated panel.

2. 	   NMCCA must maintain a mix of SJAs and former trial judges to competently address
       some of the complex issues that arise during trial and post-trial. At least one-third of the
       panel appellate judges should be former trial judges and/or MJLCT officers.

3. 	   Applicants must apply to the Judicial Screening Board and be selected for service on the
       bench. Detailing should then be done from the pool of eligible candidates.

4. 	   All appellate judges must attend the Army-sponsored Military Judges Course in
       Charlottesville, and then maintain a continuing judicial education regime.

5. 	   Active case management must be a clearly designated responsibility of the Chief Judge
       and the senior judges of the court.




                                           151	                                        Appendix J
Appendix K.	 History of Problems and Attempted
             Corrections
Our evaluation revealed process failures in virtually every segment of the post-trial process. We
found systemic problems or structures contributing to the problems, as follows.

                a. Navy Field Organization
Decentralized operations, which are hallmarks in both the Navy and Marine Corps, have
impacted delivering military justice services. Historically, Navy lieutenants (0-3s) and lieutenant
commanders (0-4s) were assigned as staff judge advocates to individual units and installations, both
ashore and afloat. More senior officers were assigned as staff judge advocates to operational and flag
staffs.

The staff judge advocates were all totally "independent" in that no supervisory legal organization
reviewed or monitored their work, or the quality of their legal advice. Most junior staff judge
advocates could coordinate with prosecutors and more senior staff judge advocates; however, many
were geographically remote and did not have easy access to assistance. Depending on their
respective geographic locations, there was an informal oversight capability under which more senior
staff judge advocates could assist junior staff judge advocate colleagues, but that capability depended
on individual initiative.

In addition, the fidelity of the legal advice rendered depended on the staff judge advocate’s training
and often limited experience with potentially serious, complex fact patterns. Commands without
staff judge advocates received legal advice, including military justice advice, from a Naval Legal
Service Command office on an as-needed basis.

In this decentralized structure and under practices existing at the time, courts-martial documents
typically flowed directly to and from commanding officers without necessarily passing through a
staff judge advocate or legal organization. Depending on the legal expertise available to the
commanding officer (and the commander or staff's awareness), the legal officer or staff judge
advocate's assistance might or might not have been sought to ensure proper processing.

It was not uncommon for court-martial documents requiring action to be filed and forgotten.
One individual we interviewed recalled that, on occasion, records were not found until a ship
was decommissioned and its contents removed. This decentralized structure and informal
command processing significantly increased lost record incidents and post-trial processing
delays. The Navy JAG addressed this problem directly in 2005, directing that all records of trial
and court-martial related documents must be transmitted through supporting legal offices.

Reorganizations in 1997 and 2006 addressed some structural problems impacting legal services
delivery, but did not resolve all the problems. Prior to 1997, the Naval Legal Service Command
(through Naval Legal Service Offices) was responsible for providing command advisory,
prosecution and defense services to commands without staff judge advocates. Both the Congress
and American Bar Association raised ethical concerns about prosecution and defense counsel
being assigned to the same command, under the same commanding officer, and in the same
physical location.



                                             152	                                         Appendix K
To remedy the ethical concerns, in 1997, the Naval Legal Service Command was reorganized,
moving the prosecution and command advisory functions to a new organization, the Trial
Service Offices. In 2006, the Trial Service Offices were reorganized and realigned within the
Commander, Navy Installation Command Navy Region construct. Trial Service Offices were
renamed Region Legal Service Offices.

Consistent with consolidating assets within functional areas, which is a principal driver in the
regionalization concept, the Region Legal Service Offices acquired all the installation staff judge
advocates and their responsibilities. Under the new organization, installation staff judge
advocates were no longer independent or isolated; they were incorporated into and supported by
the responsible Region Legal Service Offices and its chain of command.

Prior to the 2006 reorganization, there was no supervisory or "parent" organization to which any
staff judge advocate, either ashore or afloat, could turn for advice or assistance.
Correspondingly, there was no supervisory organization tracking or overseeing post-trial
processing at the field staff judge advocate and convening authority levels. The Navy was
essentially blind when it came to the state of military justice administration Navy-wide.

Following the 2006 reorganization, although convening authorities resident in the shore
infrastructure were now aligned with Region Legal Service Offices for post-trial processing,
many operational units, commanders, Fleet, and other nonshore-based convening authorities
were not. Independent staff judge advocates continued to serve these organizational elements
and commanders.

To improve support and bring more oversight to the post-trial process, in 2005, the Navy JAG
directed the new Region Legal Service Offices to track and retain control over records of trial
until convening authority actions were completed and the records were received at NAMARA.
This direction included records from afloat commands with independent staff judge advocates.

We visited the Mid-Atlantic Region Legal Service Office, Norfolk, Naval Air Station, Virginia,
and the Southwest Region Legal Service Office, San Diego Metro, San Diego, California, to
examine in more detail how field organizations process courts-martial, both currently and in the
past.
Historically, there has been no Navy-wide standard for post-trial processing. The offices we
visited used internally-developed operating procedures to manage their cases. Since 2006, they
generally used the Moreno guidelines to gauge case timeliness, and Appendix 14, Manual for
Courts-Martial, to guide them in assembling records of trial for delivery to NAMARA. After the
CMTIS was fielded in October 2006, they began entering basic case data in CMTIS, but
typically maintained separate, in-house systems/mechanisms to track their cases and actions on
cases. The CMTIS still does not capture all the data they need/want for case monitoring.
After the Region Legal Service Offices were established, they began asserting control over
records of trial and actively engaging in the post-trial process. Most post-trial processing now
takes place in the Region Legal Service Offices, or with their oversight, which has improved
post-trial processing and case management. However, there still is no uniform set of procedures



                                           153                                        Appendix K
or checklists that govern post-trial review (except for overall guidance in the Uniform Code of
Military Justice and the Manual for Courts-Martial).

Procedures, systems and processes remain inconsistent and ad-hoc across the Region Legal
Service Offices. Additionally, the Naval Legal Service Command did not have meaningful
visibility over field processes or processing time until CMTIS began maturing after it was fielded
in October 2006. The CMTIS, however, still does not provide complete visibility for either field
or headquarters units.

               b. Marine Corps Field Organization
Like the Navy, military justice in the Marine Corps is largely decentralized at the local judge
advocate level. Staff judge advocates, Legal Service Support Section officers-in-charge, and
Law Center directors (in their capacity as installation staff judge advocates) supervise and
oversee the delivery of military justice support in the field.

Each Legal Service Support Section and installation law center serves multiple commanders and
staff judge advocates in their respective installations or regions. This organization has remained
relatively unchanged since the late 1960s.

Unlike the Army and Air Force where superior headquarters' staff judge advocates oversee and
monitor military justice administration in the field, there has never been a formal or informal
professional supervisory chain in the Marine Corps. Furthermore, unlike the senior legal officers
in the Army, Navy, Air Force and Coast Guard, the Marine Corps SJA does not have authority
under Article 6, Uniform Code of Military Justice, to oversee military justice administration in
Marine Corps field units.

Further, the Marine Corps SJA does not have professional supervisory authority over Marine
judge advocates. The Navy JAG is responsible for professional supervision and military justice
administration in both the Navy and Marine Corps. However, history suggests that the Navy
JAG is somewhat removed from matters in the Marine Corps judge advocate community. We
did not find any evidence that the Navy JAG acted or intervened directly to address the Marine
Corps' significant post-trial delay problems between 1990 and 2009.

In the last two decades, military justice supervision in the field has been a function exercised
solely by field-level supervisors. There was no tracking system affording Service-wide
visibility, and there was no higher-level supervisory authority in either the Navy or Marine Corps
routinely monitoring or attending to justice administration in the field.

Field military justice practitioners could receive support, resources and advice informally from
the Military Law Branch within the Judge Advocate Division at Marine Corps headquarters, and
from the Marine Corps SJA. In addition, the Military Law Branch reviewed high visibility and
officer misconduct cases on behalf of the Commandant of the Marine Corps, and prepared
monthly reports based on the reviews. However, these capabilities and activities did not
compensate for the inadequate oversight capability that permitted post-trial delay problems.




                                           154                                        Appendix K
A senior Marine Corps official told us post-trial process efficiency has been almost entirely
“personality” dependent. Efficiency depended on individual field staff judge advocates and their
abilities and willingness to manage cases after trial, through the post-trial review process, and
ultimately ensure case delivery to NAMARA.

Prior to Moreno, staff judge advocates focused largely on getting cases to sentencing, without
much consideration to timely, accurate, or efficient post-trial processing, or case tracking. A
senior official told us he personally witnessed this “failure” when stationed as the staff judge
advocate at 29 Palms, California.

Almost 3 months after arriving there, he had not received a single record of trial for review.
Upon investigating the cause, he discovered records of trial in the Review Office that were in
various stages of review, with no one actively tracking case progress. He appointed an officer to
take charge of the review process, eliminate the backlog, and ensure all future records of trial
were finished, mailed, and received at NAMARA within 120 days.

He also created an internal tracking system to ensure records were not lost during mail delivery
to various commands for action. This initiative, however, was an individual effort and
continuation was not assured when a replacement staff judge advocate arrived for duty. At the
time, nothing compelled individual staff judge advocates to ensure efficient processing, and there
was no system allowing leadership at any level in the Navy or Marine Corps to monitor the
overall court-martial progress and ensure field processes worked.

In addition, the senior official noted that “review officer” billets at the field level (those
responsible for post-trial functions) were often staffed with inexperienced enlisted Marines, some
with little or no formal post-trial review training, or Marine judge advocates not motivated to
perform the rather laborious post-trial review job. He opined that post-trial review is neither
glamorous nor motivating to judge advocates. They would rather try cases than read records of
trial and prepare documents in the post-trial review process.

Another Marine official remarked that upon arriving at the Quantico, VA, Law Center in the
2003-2006 timeframe, there was a huge post-trial backlog. Records of trial languished because
no one was tracking them and there was no uniform system to do so.. To resolve the backlog,
the Law Center eventually hired a civilian employee to oversee post-trial processing. The
current Marine Corps SJA told us he, when Law Center Director at the Miramar Naval Air
Station in California, had to use eight separate reports to gain needed visibility over military
justice processing in the Law Center.

In summary, the Marine Corps organizational structure for delivering legal services continues
not to have functional supervision, oversight, or visibility.

               c. Command Billets
Historically, Navy judge advocates serving as commanding officers and executive officers were
selected based on their experience and leadership capabilities, because the organizations they
would command had broad missions and a significant junior officer training and development
responsibility. Although military justice is a statutory mission and core capability, many


                                           155                                        Appendix K
commanding officers and executive officers at Navy Legal Service Offices and Region Legal
Service Offices did not have significant military justice experience. Consequently, they were not
ideally suited to helping train or develop either trial or defense counsel as military justice
litigators.

Officers selected for command were generally those who had achieved high success in a range of
positions with increasing responsibility, but generally not litigation positions. Military justice
and litigation were generally not perceived as career enhancing. As a result, a disproportionate
number of senior officers considered and selected for command had not spent significant time in
military justice litigation or administration. Rather, they had successful operational or
international law careers. Many were selected for command as a step to competing for flag rank.

Adding to the problem was a growing misalignment between the assumptions underlying the
Commanding Officer/ Executive Officer detailing policy and the evolving Naval Legal Service
Command needs. With the Region Legal Service Offices formation, the former Trial Service
Office mission was broadened somewhat to include installation legal advice, but the offices
remained predominantly command services and prosecution oriented.

As commands under the Naval Legal Service Command evolved into smaller, more specialized
organizations with military justice as a larger mission component, the previous personnel
detailing policy did not evolve to address the changing skill sets required for the leaders.
Commanding officers were still selected based predominantly on the perception they would lead
large organizations with multiple components, and because a command tour was necessary to
attain flag rank.

               d. Navy Case Tracking
Prior to October 2006, the Naval Legal Service Command, NAMARA, and the Court all used
different information systems to meet their individual needs. Naval Legal Service Command
systems primarily tracked the time devoted to courts-martial and other activities, but not
individual cases, or case status. Case tracking was left to individual, local field office systems
and mechanisms maintained at the individual Region Legal Service Offices, Navy Legal Service
Offices, or their predecessor organizations.

In 2005, the Commander, Naval Legal Service Command, first directed local field office
commanders to begin tracking their cases until NAMARA received the records of trial. Even
with this change, case tracking responsibility remained with the local field offices and their
localized systems and mechanisms.

At various times between 1985 and 2006, the Naval Legal Service Command used the Judge
Advocate General Management Information System (1985 – 1998), the Military Justice
Management Information System (1999 – 2000), Time Matters (2000 – 2003), and the Homeport
Electronic Legal Management System (2003 – 2006), principally at the field office level. The
Naval Legal Service Command headquarters received reports, generally not directly from automated
systems, which permitted tracking the numbers of cases and certain date parameters, but not
individual cases, actions on cases, or case status.




                                          156                                        Appendix K
Prior to 2005, there was no requirement for field offices to track a case after delivering the record of
trial to the responsible convening authority for final action. Independent staff judge advocates and
legal officers were principally responsible for post-trial processing, including staff judge advocate
recommendations and convening authority actions (two key problem areas in post-trial processing).
Their actions remained outside the purview of the Naval Legal Service Command, and were not in
information systems available to the headquarters staff.

In 2003, the Naval Legal Service Command began using the Homeport Electronic Legal
Management (HELM) system, which had a command-level case tracking function, but still did
not allow headquarters-level monitoring. To compensate, from 1999 through 2005, local field
offices were required to complete quarterly court-martial Situation Reports (SITREPS) using
Microsoft Excel software.

Even using the Homeport Electronic Legal Management System and Situation Reports, however,
only the number of cases was tracked and reported, not individual cases. In addition,
independent staff judge advocates did not use these systems, or submit Situation Reports to the
Naval Legal Service Command. At the headquarters level, the Naval Legal Service Command did
not have visibility over the post-trial process.

Between 1980 and 2006, the Trial Judiciary (trial judges who preside over courts-martial) used the
TRIJUDAC Management Information System, and both NAMARA and the Court could monitor
cases in the system. However, the trial judge’s jurisdiction over a case ended with authenticating the
record of trial. The system did not capture or track post-trial processing beyond the trial judge’s
jurisdiction.

NAMARA and the Court used an Oracle-based information system, NAUTILUS (official name),
which began tracking a case when the convening authority delivered the completed record of trial to
NAMARA, usually by mail. NAUTILUS tracking continued through appellate court action(s) until
the appellate process ended. These systems, however, did not enable either NAMARA or the Court
to ensure they received a record of trial for every case in which appellate review was required. Like
the Naval Legal Service Command headquarters, they did not have any visibility over courts-martial
completed in the field, and did not know when to anticipate receiving records of trial.

On October 10, 2006, the Knowledge and Information Services Division (Code 65) fielded the
CMTIS to allow the Naval Legal Service Command and NAMARA to track courts-martial from
". . . knowledge of the offense to the completion of appellate review . . ." The CMTIS resulted
from merging NAUTILUS (appellate case tracking system) and the TRIJUDAC Management
Information System (Judiciary case management system). In connection with rolling out the new
CMTIS, on October 3, 2006, the Navy JAG and Deputy Navy JAG sent a memorandum to JAG
personnel worldwide, advising:

            . . . Complete and accurate data collection is vital for achieving our JAG Corps
            2020 Goals. Every member of the JAG Corps team must make CMTIS a part of
            his or her daily routine. . . . CMTIS will permit all of us to track and manage
            cases and workloads across the enterprise, utilizing one simple application with
            specific modules pertaining to individual areas of practice. Developed with
            detailed input from users, CMTIS promises to be user-friendly and flexible. It
            will also help ensure the timely disposition of all military justice cases. . . .”


                                              157                                           Appendix K
The CMTIS represented a positive step, but did not give the Naval Legal Service Command,
NAMARA, or the Court capability to monitor the post-trial process and prevent problems. The
system was hampered with missing or inaccurate data, with cases recorded in the system where the
underlying courts-martial could not be accounted for, and lost courts-martial cases that continued to
surface without ever having been recorded in the data system.

One reason for the inadequate case visibility was overly restrictive limitations on system access and
use. For example, even after receiving a record of trial possessing the overall data and information,
NAMARA personnel were not allowed to complete missing data fields, or correct erroneous data.
Only the responsible field unit could make such corrections. After we discussed our findings with
the Navy JAG, the NAMARA was given more access and authority to enter data directly in the
system.

               e. Marine Corps Case Tracking
The Marine Corps introduced the CMS in 1996, and substantially upgraded it in 2009. The original
CMS was available, but used only sporadically over the past decade. Most Marine legal offices used
locally-created, ad-hoc systems/mechanisms to track and report on their cases. The CMS was not
adequate for their needs.

In 2005, when the Navy began developing CMTIS, the Marine Corps elected not to participate.
Although recognizing the value of having a single system, the Marine Corps was concerned about the
Navy system’s utility and effectiveness. The Marine Corps decided to await development of the
Department of the Navy Criminal Justice Information System (DONCJIS), which was advertised as a
cradle-to-grave system for the entire criminal justice community.

In late 2009, after problems in the DONCJIS development became known, the Marine Corps
contracted with IBM to upgrade its CMS and achieve needed capability quickly. The upgrades were
completed in the fall of 2009, and the new system was fielded in February 2010. The new CMS is a
Lotus Notes-based, web-enabled database designed to track courts-martial from receipt of request for
legal services through post-trial review.

Marine Corps field units have read-only access to the Navy's CMTIS, which they use to find out
when records were received at NAMARA, or when a case was docketed at the Court. Periodically,
they may also check the Navy system to ascertain a case's appellate progression. We were told the
NAMARA Administrative Support Division was given “read” access and trained on using the
Marine Corps CMS, so NAMARA could now have visibility over Marine Corps cases pending in the
field.

       f. Assistant Judge Advocate General for Military Justice
When the current Assistant Judge Advocate General for Military Justice (Code 02) arrived in
August 2008, NAMARA did not have a case tracking mechanism to monitor cases an appellate
court returned to the field for action (court mandates). At his direction, an in-house spreadsheet
program was created to track court mandates.

Another significant tracking gap was NAMARA’s lack of visibility over cases (Navy and Marine
Corps) due at NAMARA, e.g., cases with adjudicated sentences requiring appellate review, but
not yet received. Consequently, a second home-grown, spreadsheet-based tracking product


                                            158                                          Appendix K
(Appellate Tracker) was developed to identify and monitor these cases, and follow them through
the last Service action (DD 214 discharge certificate issuance).

This Appellate Tracker is hosted on the Marine Corps’ SharePoint web site, and every legal
office in the Marine Corps can review or update a record and post new information. To keep the
field informed, NAMARA sends monthly trackers via e-mail to the Navy Region Legal Service
Offices, and Marine Corps Legal Service Support Sections and Law Centers. The new
procedures enable NAMARA to oversee case progress throughout the Navy and Marine Corps,
and spot cases with unexplained or inappropriate delays.

The CMTIS stores data such as attorney time and workload, and was designed primarily to
measure workload volumes (for manpower purposes), not case processing time and efficiency.
According to one user, the system interface is “mediocre” at best and, overall, the system is not a
useful tool for NAMARA. System users cannot generate ad hoc queries or reports directly.
They must formally request a new or modified query or report and then wait for responses that
may not come, or not meet the need even if developed.

Following system modifications in May 2010, NAMARA and other users can now import data
from a new CMTIS “Post-Trial Tracker” report into Microsoft Access (database) or Microsoft
Excel (spreadsheet) and use the data as they want. However, upon importing the data into a
spreadsheet, we were unable to relate data in individual spreadsheet columns to data in the
underlying CMTIS report columns. Multiple data fields are reported in single CMTIS report
columns and much data imported into the spreadsheet arrived in columns without headings—
date fields are generally indistinguishable without the column identifiers. In our meeting with
the Navy JAG and senior staff on July 8, 2010, we were told the problems would be resolved in
2-3 months.

       g. Administrative Support Division, NAMARA
A counsel from the Appellate Government Division (Code 46) recalled the 1989-1991 timeframe
when the Administrative Support Division (Code 40) was awash in records, with cases stacked
everywhere. About 1,200 cases were "lost" and a Marine Corps member from the Appellate
Government Division was assigned to find them.

In 2002, a new military Director was sent in to fix the Division's many problems. When the new
Director arrived, about 400 records of trial were backlogged on the shelves awaiting log in and
docketing. His assessment was the section lacked a sense of urgency, had a generally passive,
reactive approach to the duties, and a culture of inattention and indifference had taken hold.

According to this former Director, he developed and improved office processes, established
production expectations, instituted an audit system (to identify pending cases and locate missing
records of trial), drawing data from the NATUILUS and other systems available in 2002-2003. He
recalled a judge advocate from the Appellate Government Division was tasked to find all records of
trial that could not be accounted for, and the judge advocate spent 6-12 months tracking them down,
although not all were found.

In 2003, the Administrative Support Division (Code 40) facility was flooded and sustained
considerable damage. The staff was relocated for 6 months and, during that time, another case


                                           159                                         Appendix K
backlog developed because so many personnel (mostly junior Marine enlisted members) were tasked
to perform renovation duties and other labor tasks. The division adopted a Standard Operating
Procedure (SOP) in that era to standardize processing and speed case in-processing, which eventually
helped overcome the backlog.

This former Director believes the Navy started on the path to reforming its broken processes during
the 2002-2005 timeframe. Prior to then, it was not unusual for cases several months to more than a
year old to arrive from the field. They arrived in batches (8-10 in a box) because units would wait
until they had a full box before mailing a record of trial to NAMARA.

Prior to 2003-2004, it was not uncommon for Trial Service Offices to send authenticated records of
trial directly to the convening authorities (commanders) for post-trial processing and forwarding to
NAMARA. Many special court-martial convening authorities were staffed with collateral-duty legal
officers who may have lacked sufficient knowledge to handle the processes. After convening
authority action, the records of trial were mailed directly to NAMARA without passing through the
supporting Trial Service Office. Consequently, records of trial were often incomplete, improperly
assembled, and had not been subjected to quality review.

Court mandates were also a significant problem, as they were mailed directly to the convening
authorities who often had no idea what to do with them. Cases often languished because collateral
duty officers also did not know what to do with them. In approximately 2005, the previous Navy
JAG, Vice Admiral Bruce MacDonald, changed the procedure, requiring all records of trial and court
mandates to pass through the supporting Trial Service Office/Region Legal Service Office.

After the Moreno case in 2006, a Naval Reserve judge advocate was activated specifically to track
down Navy and Marine Corps cases requiring appellate review and not received at NAMARA. To
identify the missing cases, the Reserve judge advocate searched the Navy and Marine Corps
Appellate Leave Activity database to identify individuals on appellate leave who had received
sentences requiring Article 66 reviews. He then compared the names in NAUTILUS database
records with names in records of trial received at NAMARA to identify missing records of trial, and
then contacted field units to locate missing records. He identified about 400 missing records of trial
and ultimately found “nearly 95 percent” of the missing records. (Note: even at a 95 percent find
rate, about 20 records of trial were still missing, indicating individuals were placed on appellate
leave, but their appeals were not initiated.)

Subsequently, NAMARA conducted this type “audit” approximately quarterly and continued to
resolve actual or potential lost case issues. As of July 8, 2010, the Navy JAG had identified every
sailor or marine currently in confinement and completed physical file reviews on their appellate
cases. Although the Navy JAG assured us there will not be another Foster case, he could not give us
a similar assurance regarding appellate cases for convicted sailors and marines no longer in
confinement. He did assure us the 1,096 cases entered in CMTIS since October 1, 2006 were all
accounted for, and every one of the 35,218 cases in CMTIS predating October 1, 2006 (partial
records rolled-up into CMTIS from prior systems when CMTIS was activated) are either closed
cases, or NAMARA received the records of trial. Again, he could not assure us that every historic
case subject to appellate review was entered into CMTIS.

Another problem impacting the Administrative Support Division was “trouble cases,” e.g., they were
missing documents, improperly assembled, or had other problems when received at NAMARA.
About 4-5 years ago, 15-20 percent of the records of trial received at NAMARA were trouble cases.


                                            160                                          Appendix K
Further, after the problems were brought to the responsible field unit’s attention, it was not
uncommon for individual records of trial to “sit” 8-9 months before field units completed corrections
so the appeals could go forward.

         h. Appellate Defense Division
Caseload: The number of general and special courts-martial in DON generally declined relatively
steadily between FY 1990 and FY 2009, but there were increases in FYs 1996-1997, FYs 2000-2002,
and FY 2004. On a year-to-year basis, the number of courts- martial increased 312 in FY 1996,
increased 358 in FY 2000, and increased 16 in FY 2004.24 The increases had a significant impact on
case processing at the appellate level, especially when considered in conjunction with the personnel
reductions occurring in the decade following the first Gulf War.

The Navy Judge Advocate General's Annual Report (1997-1998) to the U.S. Court of Appeals for the
Armed Forces confirmed problems in the Appellate Defense Division (Code 45). The report noted,
by the end of FY1998, the Appellate Defense Division had been able to resolve a case backlog
generated over previous years. The Division accomplished the reduction with 17 active duty and
25 Reserve judge advocates. A 75 percent personnel turnover occurred the previous summer, and the
Reserves were credited with keeping the Division afloat.

A 2003 U.S. Court of Appeals for the Armed Forces’ case, United States v. Brunson, 59 M.J.
41 (C.A.A.F. 2003), specifically commented on the "serious pattern of delay" in cases from the
Appellate Defense Division. In reviewing the U.S. Court of Appeals for the Armed Forces’
petition docket, the Clerk of Court's office discovered 26 cases in which timely petitions had
been filed, but supplements to the petitions had not been filed within specified timelines.25
Following an inquiry from the Clerk of Court's office, the Appellate Defense Division filed
motions to file supplements “out of time” in all 26 cases. As of August 1, 2003, the U.S. Court
of Appeals for the Armed Forces' petition docket included 43 cases in which petitions were filed
without any timely supplement filings. Counsel filed motions to file supplements "out of time"
in 35 of these cases, "out of time” requests for time extension in 3 cases, and did not file a
motion or request in the remaining 5 cases. In the 38 cases in which a motion or request was
filed, the motion or request was filed 6 to 26 days after the due date.

Another 2003 U.S. Court of Appeals for the Armed Forces case, Diaz v. JAG of the Navy,
59 M.J. 34 (C.A.A.F. 2003), addressed lengthy delays in processing the case, which was on its
11th time extension from the Court. Diaz had been confined 2 1/2 years and had his second
appellate defense counsel. The first counsel cited caseload commitments as the reason for
needing the 10th time extension. The U.S. Court of Appeals for the Armed Forces directed the
Court to expedite the review and, more extraordinarily, to submit a report within 60 days
detailing the steps being taken to assure appellants their rights to timely review under Article 66,
Uniform Code of Military Justice.

Staffing: We first noted the mention of an Appellate Defense Division staffing issue in an appendix
to the Foster inquiry. In the appendix, Captain Charles Dorman (then Director, Appellate Defense
Division and later Chief Judge, Navy-Marine Corps Court of Criminal Appeals) commented that in

24
     Records are inadequate for us to determine the cases requiring appellate review included in the overall courts-
     martial increases.
25
     A petition asks a court to take a specified action. A supplement adds to an original petition.


                                                   161                                                Appendix K
about 1996, he began to advocate hiring additional staff, including two civilian attorneys to provide
continuity and assist the Division with more complex cases. He had observed that longer, more-
complex cases were being passed from one counsel to the next, and multiple time extensions were
being requested. He also had noticed how long it was taking for the Court to receive records from
the field.

In 2001, according to one source, 17 defense counsel handled an average 50 cases each at any
particular time. Another source recalled only 12-13 counsel during the September 2001 to May 2002
timeframe, with 2 Reservists mobilized in February 2002. These counsel included an experienced
Navy Captain as the division director, an 0-5 (commander) deputy director, and four 0-4 (lieutenant
commander) branch heads. With the increase in courts-martial beginning in 2000, the number of
cases in the Appellate Defense Division pending briefings to the Court rose from 603 in 1999 to
1,233 in 2001, a 105 percent increase.

Staffing reviews in 2001and 2002 both concluded the Appellate Defense Division did not need
additional staffing. However, in 2001, the then Assistant Judge Advocate General for Military
Justice, Captain Dorman, learned about staffing issues in the Appellate Defense Division. He
frequently reassigned counsel inbound for the Appellate Government Division to the Appellate
Defense Division to alleviate the staffing problem. Between June 2002 and October 2003, the O­
5 (commander) Director requested additional assistance numerous times, but to no avail.

A former appellate judge confirmed that proper staffing was an issue when he served in the late
1990s. The Appellate Defense Division always seemed to be understaffed, and the Appellate
Government Division always seemed to be overstaffed. The Appellate Government Division
always had an O-6 (Navy captain/Marine Corps coronel) director, and the Appellate Defense
Division sometimes had only an O-5 (Navy commander/Marine Corps lieutenant colonel)
director. He commented that Appellate Defense generally needs more people than Appellate
Government because they have more work to do and bear the burden of identifying issues and
preparing initial briefs. Appellate Government has only a reply obligation. Even in merits
submissions,26 defense counsel has to read the entire record and determine whether issues need
to be raised. Merits submissions create virtually no work for the Appellate Government
Division.

In 2003, a court-directed report in the Diaz case prompted a third staffing review. This review
resulted in a May 2003 decision to (1) increase the Appellate Defense Division staffing from
14 to 20 appellate defense counsel, (2) activate three Reserve counsel, (3) require at least second-
tour judge advocates with field experience, additional training, and better case prioritization, and
(4) restore the Director position as an O-6 (Navy captain/Marine Corps colonel) with strong
military justice background.

The staffing increase ultimately put the Appellate Defense Division on the path to recovery, but
the curative measures had not been anticipated soon enough to prevent a growing backlog. By
September 2003, the backlog was 1,099 cases and moving from the Appellate Defense Division
into the Court.


26	
      The term “merits submissions” refers to cases presented to the Court on the merits, without defense counsel
      asserting any specific error, or submitting any supplemental pleading or legal brief.


                                                   162	                                               Appendix K
By 2003, the number of counsel in the Appellate Defense Division had declined from 17 to 13.
Additionally, the Director was no longer an 0-6 (captain), but an 0-5 commander (the Director,
Appellate Government Division remained an O-6). The Deputy Director was also an 0-5. The
average workload per counsel had increased to 70 cases, including three capital cases. During
tenure in the Appellate Defense Division from May 2001 to June 2004, one counsel recalled her
caseload generally varied from 40-60 cases, but peaked to over 90 cases at one point, reflecting a
substantial backlog.

During the peak, cases were literally stacked everywhere in the counsels' offices--on shelves, in
file cabinets, and on the floor. To assist with complex capital cases, two senior Reserve counsel
were recalled to active duty. Despite their assistance, the need for time extensions to file defense
briefs culminated in the Appellate Government Division agreeing:

       • not to oppose the first 8 defense requests for time extension;
       • to determine, on a case basis, whether to oppose time extension requests between
8 and 14; and
       • beginning with the 15th request for time extension, to impose a standing objection.

In an August 31, 2004, memorandum to the Assistant Judge Advocate General for Military
Justice, Subject ". . . [Time Extension] Polices," the Director, Appellate Government Division,
stated concerns about the aforementioned "agreement" between the two Divisions. He
commented that his Deputy had opposed 46 Defense requests for time extension in the prior
3 months, all in cases with more than 13 time extensions, meaning at least 18 months had
elapsed since the cases were docketed with the Court. All the time extension requests were
granted over his objections.

Director position: The Director, Appellate Defense Division (an O-6 authorization), suffered
from considerable turmoil and under-grading from about 2000 through 2003, and was
experiencing similar problems again at the time of our interviews. In 2001, the O-5 Director was
in the office only 2-3 days a week because he was commuting from Rhode Island. The next
director, an O-6, was in the office only 9 months. The O-5 Deputy succeeded that Director. In
October 2003, following the Diaz case, an O-6 was again assigned. There were four different
Directors in the 2001-2004 timeframe.

At the time of our interviews, the current Director (assigned in December 2009) was detailed
full-time to assist with the Section 506 panel review. This Director was supposed to have left the
Appellate Defense Division in April 2010, for duty on the Court. The replacement was to arrive
in summer 2010, but was also diverted to other duties (as of the date on which this report was
drafted). The Director, Appellate Government Division, an O-6 (Navy captain/Marine Corps
colonel) position, appears to have been consistently filled at that level.

A former appellate judge noted the turbulence and occasional Director under-grading in
approximately 2000 through 2003. This individual opined that the defense backlog at the time
had several causes, among them inadequate supervision and oversight in the Appellate Defense
Division. The Director and Deputy Director at the time were “hands off” and did nothing about
inadequate productivity. During this time, there was generally no good cause for delays;



                                           163                                        Appendix K
leadership simply was not addressing the problems and judges generally obliged defense requests
for more time.

Performance problems: A former appellate judge noted competence problems in the Appellate
Defense Division as well. Historically, the common practice was to assign first-tour judge advocates
to the Appellate Defense Division. This practice was terminated in about 2003.

A November 2005, briefing slide depicted significant progress in reducing the backlog after the
May 2003 decision to increase staffing in the Appellate Defense Division. The following table is
derived from this briefing slide.

                                       Appellate Defense Division

                                Case Age (in Months) at Various Dates

                  Date            7-12         13-18        Over 18        Total
                               Months         Months        Months
                              No.     %    No.     %     No.      %    No.      %
                   8/1/2003    141     56.9%      69     27.8%      38      15.3%      248     100.0%
                 10/1/2003     131     56.0%      61     26.1%      42      17.9%      234     100.0%
                 10/1/2004      52     63.4%      16     19.5%      14      17.1%       82     100.0%
                 10/1/2005      11     68.8%       2     12.5%        3     18.8%       16     100.0%


As can be seen in the table, between August 1, 2003, and October 1, 2005, the proportion of total
cases 7-12 months old (most current cases) increased from 56.9 percent to 68.8 percent,
demonstrating the process had become more timely. Conversely, the number of cases in the
13-18 months and over 18 months categories (oldest cases) declined significantly, further
demonstrating the improvement in timeliness.27 The total cases involved also declined
dramatically, from 248 on August 1, 2003, to 16 on October 1, 2005, demonstrating the previous
backlogs had been resolved.

We attempted to update this information, but it was no longer tracked in this format. We note,
however, statistics in the O’Toole Report indicate the improvements generally continued through
October 1, 2006--only two cases pending for more than a year and only six cases pending longer
than 6 months on that date. The number of requests for time extension (shown and discussed
later in this report) also indicate continuing improvement in this area.

The backlogged cases were moving, and many were appealed to the U.S. Court of Appeals for
the Armed Forces, resulting in two landmark decisions addressing continuing, unreasonably-
long- post-trial delay: United States v. Moreno, 63, M.J. 129 (C.A.A.F. 2006), and United
States v. Toohey, 63 M.J. 353 (C.A.A.F. 2006) (Toohey II), both involving Marine Corps cases.
Moreno imposed post-trial processing standards that, if violated, would trigger an unreasonable
delay presumption and analysis for prejudice. These standards are applicable to all the Services.


27
     The proportion of cases in the over 18 month old category increased from 15.3 percent to 18. 8 percent, but this
     factor is not important in view of the significant declines in both total cases and in cases in each individual
     category.


                                                   164                                                Appendix K
In response to the court denouncements, both the Navy and Marine Corps used Reserve judge
advocates to surge support and clear the remaining backlog in the Appellate Defense Division.

Reserve Assignments: Due to a recent change in Reserve judge advocate assignment policy, the
experience level for Reserve judge advocates assigned to the Appellate Defense Division is
declining. This policy requires new Reserve members to serve their initial tours in traditional
drill units (generally, a Region Legal Service Office, or Naval Legal Service Office) where they
can receive mentoring and administrative support to prepare them for careers in the Navy
Reserve. Previously, new Reserve members with appellate experience could be assigned to
“flex” drill units supporting the appellate divisions. Consequently, the Appellate Defense
Division is now assigned a more senior pool of Reservists (often O-6s), but without appellate
experience.

Chief Defense Counsel: There has never been a Chief Defense Counsel position in the Navy,
and no single entity serves as the advocate, sponsor, or office of primary responsibility for
defense services. The Appellate Defense Division offers limited support and advice to field calls
for assistance, refraining from more active involvement due to ethical considerations. One
current official told us that, based on the limited objections raised and how quickly counsel backs
down when objections are raised (based on reading the record of trial), it appears field defense
counsel could benefit from having more experienced supervisors and more advanced training.

Tracking: CMTIS generally has been ineffective for the Appellate Defense Division, and the
Knowledge and Information Services Division (Code 65) has not been fully responsive to change
requests. Some past problems included:

         • Reserve judge advocates show up in reports requested for active duty personnel – the
Appellate Defense Division has been trying to have this problem corrected since
November 2009;
         • the Appellate Defense Division cannot run needed reports, such as a “pending cases”
list for a departing counsel, or a list showing all cases ever assigned to a particular counsel (both
reports were available in the previous NAUTILUS);
         • CMTIS does not have categories to identify filings with higher courts – U.S. Court of
Appeals for the Armed Forces or the Supreme Court;
         • CMTIS does not have separate data fields to track time extensions for the different
courts – once a case goes to a higher court, any time extension the lower court granted in the case
appears in CMTIS as if the higher court granted the time extension—if the lower court and
higher court both grant time extensions in the case, the lower court record is lost in CMTIS; and
         • the CMTIS cannot manage/track cases assigned to Reservists (27 Reservists who
prepare briefs are in the Appellate Defense Division)--the office manager developed an ad-hoc
database to manage these cases.

               i. Appellate Government Division
In the 2001-2003 timeframe, the then Director, Appellate Government Division (Code 46),
arrived for duty to find a "stunning" case backlog in NAMARA, a situation relatively unchanged
from a previous tour in the division a decade earlier. An anthrax incident exacerbated the
backlog, significantly slowing record of trial deliveries to the Navy Yard.


                                           165                                         Appendix K
Time extensions were a "runaway" problem. The Director required counsel to challenge
requests, asking that Appellate Defense Division counsel justify requests for time extension, but
the Court declined to do so. According to this former Director, the Foster case was inevitable;
military justice lacked effective processes and standardization.

According to the current Director, the Appellate Government Division has not used CMTIS in
day-to-day operations, e.g., to track cases, generate pleadings, or track filing deadlines. Rather,
the Division uses the Marine Corps' Microsoft “Share Point” application as a collaborative way
to draft, review and finalize pleadings, as well as track cases and filing deadlines.

The CMTIS was too cumbersome, did not have a collaborative function, and could not be relied
upon, as it often contained erroneous or incomplete information. Several people, usually legal
clerks and support staff, enter data in CMTIS during the post-trial process. The inaccuracies
result from events the support staff does not know about, or transcription mistakes in data entry.

For the Appellate Government Division, CMTIS is used strictly as a backup to check for filing
date discrepancies. Because the responsible counsel enter and use SharePoint data directly, they
have a vested interest in ensuring completeness and accuracy, including accurate filing dates.
Thus, for any discrepancy between CMTIS and SharePoint, SharePoint is almost always relied
on as the accurate data.

To amplify CMTIS shortcomings, the Director provided a March 4, 2010, system-generated
report entitled “Cases with a Trial Date but Not Received at Namara with Forum of GCM
[General Court- Martial] or SPCM [Special Court-Martial] with Confinement > 1 Year and/or
Discharge." The report purported to show cases not received at NAMARA, although subject to
appellate review under Article 66(b), Uniform Code of Military Justice. The report contained
27 pages of cases dating to 1999, and raised questions about CMTIS interoperability, usefulness,
and accuracy as a case-management tool.28

Much data in this March 4 report preceded CMTIS, and may have resulted from the system’s
inability to incorporate and integrate case information from previous systems. However, about
3½ years after the CMTIS fielding, this system report had several pages of cases for which up-to­
date information was missing, again calling into question the system’s ability to track cases
accurately. Furthermore, the inaccurate and/or incomplete information existed despite the
numerous reviews/audits conducted over the last 3½ years to locate and deal with lost cases. As
far as we could tell, not one prior review/audit included updating or correcting the official Navy
case record. We tallied the following statistics from this CMTIS report:




28	
      We previously discussed in detail the March 4 report, as well as several lost cases (e.g., U.S. v. Bartolo)
      subsequently discovered. The March 4 report did not include appellant names, so we could not determine if the
      report included these lost cases.



                                                   166	                                             Appendix K
                       March 4, 2010, Appellate Government Division

                       Report From CMTIS Purporting to Show Cases

                      Subject to Review, but not Received at NAMARA

                   Year           No. Cases                      Percent
                    *       In Year    Cumulative      In Year       Cumulative
                    1999           10             10     0.80%            0.80%
                    2000           81             91     6.80%            7.70%
                    2001          154            245    13.00%           20.60%
                    2002          177            422    14.90%           35.60%
                    2003          125            547    10.50%           46.10%
                    2004          124            671    10.40%           56.50%
                    2005           82            753     6.90%           63.40%
                    2006           76            829     6.40%           69.80%
                    2007           70            899     5.90%           75.70%
                    2008           61            960     5.10%           80.90%
                    2009          166          1,126    14.00%           94.90%
                    2010           61          1,187     5.10%          100.00%
                                1,187                  100.00%
                       * Based on CMTIS number.

As can be seen above, 829 cases (69.8 percent of the total) predated 2007, more than 39 months
old at the report date.

The Appellate Government Division was unable to identify and locate cases in the “Cases not
received” reports. As an example, we were shown a random report that included a case tried in
July 2007. The CMTIS showed a convening authority action in October 2007, but no further
information. No one was able to ascertain the current case status.

The Director previously provided this report to several others in the Navy JAG organization for
follow-up. The distribution included those individuals responsible for CMTIS. At the time, he
was told the apparent problem was merely a system failure to transfer old data into CMTIS, and
the inability to transfer new data to the specific report. Although this case may represent an
extreme example, it is not uncommon for the system to have incorrect or missing data.

The Director told us the Knowledge and Information Services Division (Code 65), the
organization responsible for CMTIS, is working hard to correct deficiencies and inaccuracies,
but the data depend on those inputting the information and the system’s flaws are systemic. The
CMTIS is fundamentally separate and distinct from the actual work products of those responsible
for information accuracy. We are not convinced the system modifications in May 2010 resolved
the CMTIS problems.

Another longstanding problem involves court mandates. The CMTIS inability to track court
mandates efficiently and effectively makes it impossible for the Appellate Government Division
to monitor status. This remained an issue until recently when the Assistant Judge Advocate
General for Military Justice (Code 02) directed NAMARA to go through the system item-by­
item and record, on a spreadsheet, all outstanding mandates. He also directed a new procedure to


                                         167                                       Appendix K
track the cases and ensure timely compliance with whatever action a court had ordered in the
mandate.

The NAMARA recently asked the Knowledge and Information Services Division (Code 65) to
create a mandate tracker report in CMTIS, which they did; however, the report was not “user­
friendly.” As a result, NAMARA began manually entering the CMTIS report information in
another ad-hoc spreadsheet to capture needed data in a usable form.

The Appellate Government Division tracks and oversees case production using the Marine Corps
SharePoint website. The Assistant Judge Advocate General for Military Justice introduced this
resource to resolve the many problems and frustrations permeating NAMARA, which resulted
from inadequate information available from existing automated tools. Anyone with access and
permission to the SharePoint site can see and monitor all cases currently at the Appellate
Government Division. The visibility allows anyone to track a case’s status, including time
extension requests and approvals. From this site, one can access all relevant pleadings associated
with an appellant. The intent, when high-speed scanners become available, is to have the entire
record of trial also available on SharePoint.

               j. Navy-Marine Corps Court of Criminal Appeals
Historically, the Court has been troubled with difficulties in administration, staffing, and case
tracking and management. In this regard, the Court handles a larger caseload each year than any
other Service court of criminal appeals, and prior to 2006, resolved more cases than all the others
Service appellate courts combined. And, the Court did so with fewer judges, fewer appellate
counsel, and smaller support staffs than the Army and Air Force appellate courts. Navy and
Marine Corps judges generated more case decisions per judge than judges in the other Service
appellant courts.

Caseload: The most recent case backlog in the Court began in 2000, when the Court decided
1,219 of the total 1,738 cases received that year. The shortfall was due, in large part, to lower
staffing, but other problems contributed to the backlog. A primary cause was inadequate case
management and prioritization. Aware that a high number of cases were coming to the Court,
the judges focused on numbers, trying to resolve an equally high number of cases and not fall
farther behind. Some concentrated on resolving "easy" cases quickly, foregoing work on the
more complex, or longer cases requiring substantial review time. Nonetheless, in 2001 - 2002,
the Court decided several hundred fewer cases than were docketed, and the backlog increasingly
became larger, more-complex felony cases.

Available statistics on general courts-martial support this information. According to Navy
documents we reviewed and the O’Toole report, general court-martial reviews in 2000 - 2002
were substantially fewer (by half or more) than in all other years from 1999 through 2008. As an
apparent result, between 2001 and 2002, cases over 6 months in panel increased to nearly
100 (none over 6 months in FY 2000). By 2004, nearly 50 cases had been in panel for more than
12 months.




                                           168                                        Appendix K
On September 30, 2004, there were 104,529 pages of records on the shelf and the number increased
to 112,726 pages on March 31, 2005. The appellate divisions and Court did not eliminate this
backlog until 2008-2009.

The graph below compares the total general and special courts-martial received and reviewed in
fiscal years 1990 through 2009.



                           Navy-Marine Corps Court of Criminal Appeals
                                 Cases Received and Reviewed
                                       FY 1990 - FY 2009
                   4,000
    No. of Cases




                   3,000
                   2,000
                   1,000
                      0
                            90 91 92 93 94 95 96 97 98 99 00 01 02 03 04 05 06 07 08 09
                                                         Fiscal Year

                                          ROT Received    Cases Reviewed


As can be seen above, in 15 of the past 20 fiscal years, the Court reviewed more cases than it
received in the year. This has been true in every fiscal year after 2002, indicating the Court has
continued working to resolve a case backlog.

A July 7, 2005, memorandum from the Court’s Chief Judge to the Senior Executive Board
announced a series of initiatives to address the backlog, including:

       • automate brief sheets for merits submissions (about 60 percent of caseload);
       • standards for when and how to write opinions, focusing on using succinct language
and creating an electronic bank of common language/clauses;
       • using contract paralegals;
       • assigning a Reserve judge to each active duty judge for training, mentoring and
productivity;
       • improving new judge training;
       • monitoring productivity, including record of trial page tracking; and
       • recruiting more Reserve personnel for commissioner duty preparing briefs.

He recommended: maintain at least 9, optimally 10 judges on the Court (at one point in
FY 2002, the Court had only 5 sitting judges and was scheduled to have 7 or fewer judges by
summer 2006); add 3 civilian judges for continuity and experience; eliminate “gapped billets” on
the Court; fund contractor support to develop a new training manual; create a cradle-to-grave


                                                 169                                  Appendix K
tracking database; and require staff judge advocates to explain delays. Generally, these
recommendations were offered as helpful options.

During FY 2005, the following actions were taken to address the backlog:

        • increased from 2 to 5 commissioners;
        • contracted for 2 civilian paralegals and 2 civilian attorneys;
        • increased from 9 to 12 judges (in 2006, increased to 17 judges -- 13 active and
4 Reserve);
        • increased the number of Reserve judges;
        • streamlined the Court’s processes;
        • focused efforts on longer, older cases; and
        • improved case prioritization—the first-in-first-out standard was modified based on
case type, age, and confinement status.

In June 2006, an appellate Judge wrote a paper outlining more initiatives and recommendations,
including:
        • create new Rules of Practice for the Court (in June 2006), to reduce submission times
for legal briefs, limit brief pages, prohibit automatic time extensions, and require a second time
extension request to trigger a chambers conference and a third request to trigger a report to the
Assistant Judge Advocate General for Military Justice and the Navy JAG;
        • improve case tracking from docketing through opinion;
        • require judicial status reports for all cases older than 6 months with internal reviews
every 3 months until completion;
        • adopt internal Court processing goals to facilitate compliance with the 18 month
standard in Moreno;
        • improve Reserve utilization;
        • create a three-experienced-judge "cold case" squad to work the oldest, most difficult
cases (33 in panel more than 6 months at the time);
        • maintain a 12 judge panel until all backlogs are eliminated;
        • maintain a full cadre of commissioners;
        • detail senior enlisted personnel to handle administration;
        • revisit the civilian judge proposal;
        • establish a rigorous judicial screening board;
        • establish a clerk program--one year at Court and then into the Appellate Defense
Division, or Appellate Government Division;
        • begin using electronic records of trial;
        • eliminate judge authentication--enable court reporter or trial counsel to authenticate
records of trial;
        • permit an accused to waive appellate review as part of pretrial agreement (equates to
civilian practice);
        • reduce number of Navy and Marine Corps convening authorities; and
        • staff NAMARA with more judge advocates.




                                          170                                        Appendix K
By March 31, 2006, the page count in judicial panel had declined to 77,620 pages and the
number of cases in panel over 6 months had declined to 39. Total cases in judicial panel was
down to 253, the lowest since FY 2002.

The table below shows the number of cases docketed with the Court and pending in judicial
panels on various dates between December 31, 2000, and December 31, 2009. The table also
shows the numbers of cases pending in panel longer than 6 months and 12 months on the dates
specified.

                              Navy and Marine Corps Appellate Cases

                                Docketed with Appellate Court, and

                                Pending Decision in Judicial Panels

                                                 Cases          Cases       Cases
                                 Cases
                                               Pending        In Panel     In Panel
                               Docketed
                   Date                        In Panel       > 6 Mos     > 12 Mos
                                  No.         No.    %       No.   %      No.   %
                                                     *             **           **
                   12/31/00         1,319      87    6.6%      7   8.0%     0   0.0%
                   04/30/06             794   325    40.9%    24   7.4%    14   4.3%
                   07/01/09             320   173    54.1%     7   4.0%     0   0.0%
                   12/31/09             189    75    39.7%     4   5.3%     0   0.0%

                 * Percentage of total cases docketed

                 ** Percentage of total cases in panel


As can be seen above, at December 31, 2009, the numbers were at their lowest levels since
April 30, 2006, indicating substantial improvements in this area.

In a September 2007 update, the Court’s Senior Judge urged a minimum cadre of 9 appellate
judges for the foreseeable future, and more former trial judge assignments to the Court, to
increase experience levels and reduce the learning curve. Low experience levels impacted
productivity, despite an improved caliber of judges overall, and the lack of career milestones
impacted the Navy’s ability to develop a future cadre of qualified judicial candidates.
Additionally, four experienced judges were serving additional duty tours on the Court of Military
Commission Review, which was their primary duty under DoD regulation.

Tracking: Although NAMARA initiated the NAUTILUS tracking system in 1996, it could not
automatically flag cases in which the accused remained confined. The Court could "sort" cases
by trial date, docket date, or date assigned to panel, but the system could not identify cases
involving a confined appellant. Given the very substantial number of cases and those pending in
panel for long time periods, over the next 10 years, management emphasis appears to have
focused primarily on a "macro-level" approach to tracking cases based on the date assigned to a
panel. The apparent intent was to reduce the number of older cases and eliminate the backlog,
but the emphasis did not include any prioritization for factors such as an accused’s confinement
status.



                                               171                                     Appendix K
Staffing: Insufficient staffing made it difficult to reduce the backlog. The Court was assigned
6 judges in 1999, 7 judges in 2000 through 2002 (but was down to 5 judges at one point during
these years), 8 judges in 2003, 9 judges in 2004, 10 judges in 2005, and then surged to 16 judges
in 2006. When Captain Dorman became the Chief Judge in 2003, the Court was at seven active
duty judges, and three recently-departed judges had "dumped" many cases on the remaining
judges. Judge Dorman lobbied continually for more judges.29

In 2004, Navy JAG leadership changed. The new Navy JAG had considerable military justice
experience. In 2005, Chief Judge Dorman authored memoranda to the Navy JAG and Senior
Executive Board appealing for a staffing increase, asserting the Court was inadequately staffed,
describing the backlog, and highlighting the backlog's development due to an insufficient
appellate defense staff in prior years. Shortly thereafter, in reaction to this advocacy and the
Diaz decision ordering the Court to prepare a report explaining how it was going to address the
backlog, the situation began improving. New judges began arriving in December 2005.

The Navy JAG activated three Reserve judges, increasing total judges from 9 to 12, increased the
number of clerks from 2 to 5, and added 2 civilian staff attorneys. Additional Reserve judges were
also added to the Reserve unit supporting the Court. A pilot law clerk program was initiated in
2006. Nine judge advocates (four active duty and five active-duty Reservists) came to the Court as
law clerks. Two former clerks are now assigned as appellate government and appellate defense
counsel, and a third was selected for the Judge Advocate General Corps' new litigation career track as
a "Specialist."

By 2008, the Court and appellate divisions had generally resolved the case backlog. From a high of
18 appellate judges, the Court declined to 12 judges through the summer 2008 (10 active-duty and
2 Active Duty for Special Work Reservists). By fall 2008, the number had declined further to
10 judges, including one remaining Reservist. This Reservist was demobilized in September 2009,
and replaced with an active duty judge, which kept the court at 10 judges. The number of clerks
declined more rapidly, reaching a low of four, but in early 2009, the Navy JAG authorized an
increase to two per panel. The Court now has 10 judges (3 each for 3 panels, plus the chief judge)
and 7 law clerks (2 per panel, plus the senior clerk).

U.S. v. Foster /Judicial conduct and supervision: U.S. v. Foster revealed a serious problem
with post-trial processing delays-- the initial appellate review took almost 10 years to complete
(sentenced December 1999, convening authority action February 2001, court docketing
November 2001, and decision February 2009). Delays included 5 years to brief the case (26 time
extensions) and order a DuBay hearing, and another year to complete the DuBay hearing.30 In a
concurring opinion in Foster, Chief Judge O'Toole commented that, although there was fault for
delayed justice at every point in the post-trial process, "the principal responsibility for delay rests
with this court."



29
     In 2004, he was permitted to contract for some paralegals to support existing judges.
30
     A 1967 case (United States v. DuBay, 17 U.S.C.M.A. 147, 37 CMR 411) established procedures for holding
     hearings to determine issues raised collaterally that required findings of fact and conclusions of law. The
     hearings are commonly referred to as DuBay hearings.


                                                  172                                               Appendix K
A Navy JAG-directed inquiry following Foster revealed other problems with the Court. The
Army appellate judge appointed to conduct the Foster inquiry addressed both management
practices and judicial conduct, including the Court’s multiple time extension approvals with
virtually no justification required. Ultimately, 26 time extensions were granted, with no
indication the Court ever conducted a rigorous inquiry into any basis for the requests.

The first judge assigned had the case for 18 months before retiring, with no evidence he worked
on the case. He also left several other cases untouched, without formal case transfers or
reassignments before his departure. The cases were simply "found" in his office.

The case was assigned to six different appellate judges during its pendency at the Court, with
only two giving it immediate attention and review. The final reviewing judge noted the legal
issues were readily identifiable with cursory review. According to the O’Toole report, the judges
involved in the Foster case were:

           the product of an environment in which military justice was not viewed as a
           career enhancing experience. Accordingly, military justice litigation experience
           and judicial expertise were not primary factors in the selection of judges to the
           court. Indeed few had sufficient judicial experience to recognize that 25 delays
           by counsel in a single case should be a matter for concern . . . the lead appellate
           judge originally entrusted with the Foster case . . . did not have an adequate
           military justice litigation background, he never attended the Military Judges
           Course [not mandatory until recently], [and] he was not well-suited to the
           appellate bench . . .

Another issue highlighted in the Foster inquiry was the apparent lack of judicial supervision. At
least one judge spent relatively little time working in the office, further aggravating caseload
issues. This lack of diligence was known to the then Chief Judge, but nothing was done.
Another judge frequently commuted from long distances, or tele-worked, due to personal family
problems.

Among other difficulties a former chief judge asserted as reasons for not supervising a judge’s
performance was the proscription in Article 66 (g), Uniform Code of Military Justice, which
provides ". . . no member of a Court of Criminal Appeals shall be required . . . or permitted, to
prepare, approve, disapprove, review or submit, with respect to any other member of the same or
another Court of Criminal Appeals, an effectiveness, fitness or efficiency report, or any other
report documents used in whole or in part for the purpose of determining whether a member . . .
is qualified to be advanced in grade, or in determining the assignment or transfer of a
member. . . ." This prohibition was offered as the reason for the Chief Judge not dealing more
forcefully with performance issues. In addition, there were inadequate performance standards or
objectives to measure and assess a judge’s performance.

The inquiry officer's conclusions noted a "cavalier attitude to timely military justice at virtually
every stage," and no sense of urgency in the post-trial or appellate process. Cases at the Court
were handled on a first-in-first-out basis without consideration to prioritizing cases requiring
expedited attention.




                                             173                                             Appendix K
The O'Toole report notes the Foster case appeared to have been "largely ignored by the lead
judge and unnoticed by the supervisory judges," despite the claimed capability to track
individual cases in panel, both in NAUTILUS and in CMTIS. There were inadequate inquiries
into case status and a general failure to use available tools and metrics to monitor case
progression and caseload generally.

Our interviews disclosed that, in the past, judge selections were often based on the individual
officer’s geographical and retirement assignment preferences. Most appellate judges were in
their final active-duty assignment. Compounding the experience and competence issues, officers
selected for duty as appellate judges were not always required to attend and pass the Military
Judge's Course at the Army Judge Advocate General School before being permitted to serve as a
judge.

       k. Other Appellate Processes
Including docketing time at the Court, in 2007, receiving, processing, delivering, and docketing
records of trial at NAMARA required as much as a month. To streamline and standardize this
intake process, both NAMARA and the Court conducted Lean Six Sigma evaluations, which a
"Black Belt" Lean Six Sigma facilitator coordinated. As a result, case processing time in
NAMARA was reduced from an average 17 days to 1 day. The docketing process, which
formerly averaged 8 days, was reduced to 1 day. Other positive results included a pilot program
for uploading appellate briefs into CMTIS; electronic filings with the Court; scanning smaller
records of trial for electronic transmission to reserve counsel, which saves 4 days on average
mailing time and approximately $56.00 per record; and establishing a working group to explore
implementing electronic records of trial.

                  l. Inspections

                      (1) Navy
The Navy JAG has had an Inspector General (JAG IG) position for at least 25 years. The
position was converted to a civilian position in 2001. The current JAG IG has been in the
position as a civilian since January 1, 2002. The same individual was the JAG IG for a year
previously while in the Navy as a captain and judge advocate. The JAG IG conducts inspections
under authority from the Commander, Naval Legal Service Command. The Deputy Judge
Advocate General is the Commander, Naval Legal Service Command. The JAG IG reports to
the Deputy Judge Advocate General, who is responsible for rating the JAG IG’s performance.
The JAG IG's charter is, among other things, to inspect all Naval Legal Service Command
organizations and staff judge advocate offices, as the Navy JAG selects, partially fulfilling the
Navy JAG's Article 6 inspection mandate. The JAG IG does not inspect Marine Corps units.

In 2006, the then Commander, Naval Legal Service Command, (now the Navy JAG) restructured
the JAG IG inspection program. In the previous 10 or more years, an inspection team (6 to
8 subject matter experts under JAG IG direction) would go to a field unit and complete an
inspection using, in large part, the requirements in Commander Naval Legal Service Command
Instruction (COMNAVLEGSVCCOMINST) 5040.1C, “Command Inspections,” January 30,
2001, including Enclosure (3), “Command Inspection Checklist.” Each subject matter expert



                                          174                                       Appendix K
reviewed records and files using the checklists to gather information about case processing and
tracking.

The restructured inspection program eliminated the “on-site, in-the-field” examination of such
information and the six-to-eight-member inspection teams. Now, the JAG IG conducts the
inspections alone.

The present on-site inspection involves 18 topic areas, but is limited to matters that cannot be
assessed from other sources, reports, and information provided to the Naval Legal Service
Command headquarters and Navy JAG. And, for the most part, information from field units to
Navy headquarters is not shared with the JAG IG either before or during the inspections.

An on-site inspection is now designed to be supplementary, not comprehensive -- just one part in
an overall field command evaluation. The Management and Plans Division (Code 63) and the
Assistant Judge Advocate General, Director of Operations (Code 06), are responsible for case
metrics and tracking Moreno statistics, and the information is not shared with the JAG IG.

According to the JAG IG:

        • JAGINST 5810.1, “Management Goals for Processing Navy Courts-Martial,”
September 5, 1984, has not been used in inspections for years;
        • JAG/CNLSCINST 5814.1, “Post-Trial Checklists,” December 2, 1992 (containing
extensive post-trial checklists) also has not been used in inspections for a long time and is being
replaced with draft JAGINST 5040.1D, “Uniform Code of Military Justice Article 6 Legal
Office Assessment,” which is now used in the field;
        • COMNAVLEGSVCCOMINST 5040.1C, “Command Inspections,” January 30, 2001,
Enclosure (3), “Command Inspection Checklist,” is the most current inspection checklist
published, but predates the reorganization creating the Region Legal Service Offices and is not
currently used in inspections.

For the past 3 years, the JAG IG has been using the checklist in draft JAGINST 5040.1D, which
accounts for the Region Legal Service Office structure, but is not a final policy. 31

The Vice Commander, Naval Legal Service Command, told us the JAG IG sends out the draft
checklist in advance so the unit can complete a self-assessment and return the information before
the inspection. The JAG IG then travels to the unit and completes the inspection, which focuses
on leadership and other areas, such as retention, recruiting, training, fitness, and facilities.
Surveys are also completed. The military justice portion primarily entails interviewing various
officials involved in military justice administration, investigation and execution (e.g., command
leaders, trial counsel, command services personnel) to examine working relationships, which
consumes about 40-50 percent of the inspection time (4-7 days). Navy JAG or Deputy JAG
Article 6 visits often follow these "nuts and bolts" inspection.

Generally, the JAG IG is not given any court-martial case numbers or metrics before or during
the inspections, and does not examine Region Legal Service Office records, case files,
31
     The instruction was published in final form on June 14, 2010, as we were completing this report.


                                                  175                                                   Appendix K
documentation, or processing standards/timelines during the inspections. Prior to the changed
philosophy for inspections, the JAG IG team examined files and records, and the military justice
examination was more detailed.

The Navy JAG has not addressed post-trial processing problems specifically with the JAG IG,
and the matter has not been a Navy JAG “special interest item” in the inspection program.
Accordingly, since the headquarters’ decision in 2006, inspections have not addressed military
justice administration in detail, because the current Navy JAG believed the limited field
inspections, together with Article 6 inspections and on-going reporting to the Commander, Naval
Legal Service Command, would be sufficient for headquarters monitoring. In a recent meeting,
however, the Navy JAG advised us he was re-initiating detailed field inspections because the
CMTIS oversight envisioned in his 2006 decision did not materialize.

Navy field offices (Region Legal Service Offices, Naval Legal Service Offices, staff judge
advocate offices) continue not having standard systems or processes. The JAG IG opined that
staff turnovers caused good systems and processes to get lost and not carry over to incoming
people and administrations.

The JAG IG has reported complaints about CMTIS being slow, having bad connectivity,
requiring frequent screen “switching,” lacking “user friendliness,” and being unable to generate
readily the type reports needed in the field. Field Commands have raised specific system
complaints and recommendations to headquarters, and several working groups including both
field and headquarters personnel have worked on CMTIS.

We requested JAG IG inspection findings/reports from prior years (1990, 1995, 2000), but they
were no longer available. Two inspection reports, one from 2001 and another from 2004 were
located. The inspection summary in the 2004 report included one comment relevant to post-trial
processing delays. This comment noted a significant case backlog discovered in the prior
inspection had been eliminated.

                      (2) Marine Corps
Prior to the current year, there was no formal inspection program for Marine Corps field legal
activities. Field unit supervisors were solely responsible for ensuring proper and timely military
justice administration. Article 6 inspections, which the Marine Corps SJA conducts on behalf of
the Navy JAG, were the only higher headquarters opportunities to review and evaluate field
operations. These visits were not inspections, per se, but offered insight into staffing, facility
and operations matters that local personnel briefed to their staff judge advocates.

In late 2009 and early 2010, the Deputy Staff Judge Advocate to the Commandant of the Marine
Corps (then pending confirmation as the Marine Corps SJA, and now the Marine Corps SJA)
developed a comprehensive inspection checklist for field units, which he furnished to the Marine
Corps Inspector General for use in field inspections. In addition, with the new CMS fielded in
February 2010, the Marine Corps SJA now has visibility over case processing in the field, and
headquarters can now monitor field performance and timeliness in post-trial processing.




                                          176                                        Appendix K
                   m. Authorized Staffing

                       (1) Navy Judge Advocate General Corps
From 1990 to present, the number of judge advocates authorized in the Judge Advocate General
Corps remained at approximately 1 percent of overall Navy end-strength. The actual numbers,
however, declined from 922 in 1990, to between 789 and 810 in 2009, including about
441 Reserve judge advocates. General reductions in the post 1990-1991 period accounted for
most of the decline in judge advocates between 1990 and 2009.

The reductions occurred despite a dramatic increase in operational law practice and increased
demand for deployments and individual augmentee missions. The operational demands and
significant deployment obligations impacted military justice significantly. One-third of Judge
Advocate General Corps personnel (officer, enlisted, and civilian) are in the Region Legal
Service Offices and Navy Legal Service Offices. Navy draws heavily from these offices to fill
deployment and individual augmentee requirements.

The resulting impact on military justice is the reduced time legalmen and judge advocates remain
on station performing military justice duties. In the past, a lieutenant generally spent 24­
36 months on station. In recent years, when absences due to individual augmentee duties are
taken into account, the time on station has declined to 18-24 months on average. And, the
average may be closer to 6-12 months at home bases in the continental United States.

Currently, a new first-tour lieutenant generally spends the first 6-12 months at a Region Legal
Service Office/Navy Legal Service Office before being assigned for individual augmentee duty.
There is a 2-month training requirement prior to deployment, and the assignment lasts 6­
12 months, often in Iraq, but increasingly in Afghanistan. (The Navy was given responsibility
for supporting a National Afghan legal school). As of March 2010, 138 judge advocates were
performing individual augmentee duties, primarily supporting Task Force 134 (Detainee
Operations in Guantanamo Bay, Cuba), but requirements for detainee operations in Afghanistan
and the Office of Military Commissions were increasing.

A 2008 Center for Naval Analyses study affirmed the increased workload. According to the
report:

           . . . the status quo situation is marked by personnel working excessive hours
           (especially officers), work not being done at all times to the level of quality
           desired . . . and a backlog of work developing. Furthermore, the decline in
           military-justice-related work could reverse itself and trend upward again. This
           would leave many RLSO and NLSO commands severely undermanned,
           especially if military justice workload returns to pre-2003 levels. In addition,
           there are currently about 70 JAG IAs in Iraq, Guantanamo Bay, at sea and in
           Afghanistan. Should another conflict arise, JAG would be hard pressed to come
           up with more IAs to field.

In assessing the costs and risks of the “status quo,” the report noted "modest to significant stress"
evident in the Region Legal Service Office commands, and a developing work backlog, which
also impacted work quality. The risk was assessed as "especially acute" in operational or joint


                                            177                                           Appendix K
field commands. Their very long work weeks indicated a need for sizable staffing increases to
manage the expected workload. The report summarized the “status quo” manpower standard as
representing a "great deal of risk to the Navy," and if selected as the manpower standard, the
Navy Judge Advocate General Corps would be “undermanned.” The Marine Corps was not
included in this study.

                           (2)      Marine Corps Judge Advocates
Current Marine Corps strength is approximately 204,000 Marines, including 390 to 440 judge
advocates at any given time. Judge advocate authorized strength has remained fairly static for
the last 20 years, while actual judge advocate numbers fluctuated from a 450 high in 1990 to a
360 low in 1999. In 2010, the number is 469,32 up from 407 and 409 in 2008 and 2009,
respectively. Judge advocate authorizations were 393 for FY 2008, increased to 411 and 432 for
FYs 2009 and 2010, respectively, and are projected at 448 and 460 for FYs 2011 and 2012,
respectively.

Deployment and individual augmentee duties also have been a significant resource strain, and the
demand for non-traditional positions has been growing. Individual augmentee duties were not
factors when Marine Corps judge advocates were originally resourced, and involve duties not
even existing at the time. Losses to deployment have reduced home station capability to handle
the court-martial caseload from each unit, which is in addition to the court-martial caseload
remaining when the unit deploys. Some case law decisions listed in Appendix I refer to
problems resulting from high deployments leaving military justice units understaffed.

                      n. Standards and Processes
As described previously, Navy and Marine Corps decentralized operations led to considerable
field unit autonomy in managing unit responsibilities. There are relatively few Service-directed
standards or processes beyond the guidance in the Uniform Code of Military Justice and the
Manual for Courts-Martial.

The extensive processing goals and checklists in JAGINST 5810.1, “Management Goals for
Processing Navy Courts-Martial,” September 15, 1984, and JAG/CNLSCINST 5814.1, “Post-
Trial Checklists,” December 2, 1992, have not been used in years, and management time goals
have been rescinded without replacement, leaving the Moreno timelines as the only processing
times currently under scrutiny. Field units monitor pre-trial speedy trial requirements, when pre­
trial restraint is an issue.

In both current and prior organizational structures, processes have not been uniform or standard
across the field elements. Process effectiveness depends on the administrative skill and
experience of individual supervisors charged with the various justice processes. Most
importantly, a particular unit's effectiveness in military justice administration depends heavily on
the initiative and supervision exercised by the individual unit commander, staff judge advocate,
and director/officer-in-charge. CMTIS does not afford needed visibility over internal unit
processes, necessitating various individualized unit tracking mechanisms developed locally,
which depend on the computer skills of assigned personnel.

32
     Includes 38 judge advocates that graduated from the Naval Justice School on October 8, 2010.


                                                  178                                               Appendix K
                      o. Senior Official Perspectives
In our initial meeting with the Navy JAG, Vice Admiral Houck, he shared his belief that the
Navy Judge Advocate General Corps drifted away from its military justice roots in the late
1980s/early 1990s, particularly after the first Gulf war. Operational and international law
assignments became the more sought after duty and focus.

He affirmed that leadership must be much more engaged in detailing the right people with the
right training, in sufficient numbers, and armed with good processes and data tracking capability.
He also acknowledged his organization’s significant problems in developing a truly useful and
adequate automated case management system. He indicated the Marine Corp's new CMS might
ultimately be the better system for case tracking, but observed it was too early to assess the
system's full utility.33

The Navy CMTIS was originally developed as a workload management and measurement tool,
not a case tracking tool; therefore, it has several shortcomings. Among the difficulties
encountered was funding necessary system upgrades. Vice Admiral Houck cancelled this year's
Navy-wide Judge Advocate General’s conference to fund new system modifications.

In another interview, a Navy officer characterized the leadership culture in the Navy as one of
"control by negation." This phrase refers to the traditional way in which senior commanders
manage the historically autonomous, globally-dispersed Navy operations in which a ship's
captain is authorized to act with virtually unchecked independence. This independence
permeates the Service’s operating culture and explains, in some measure, how the post-trial
delay problems evolved.

According to the Navy JAG, three other factors impacted post-trial processing: inadequate
staffing; a command focus on getting to court/sentence, not on post-trial events; and inadequate
visibility over field case management. Absent an ability to "see" how field units were doing,
field commanding officers were relied upon to run their organizations in an effective manner
without higher headquarters oversight.

A retired Navy judge advocate and former appellate judge on the Court commented that, when
working as a staff judge advocate beginning in 1975, he did not have delay problems because he
made military justice his first priority; however, the Navy’s many special court-martial
convening authorities (around 2000 at the time, most on ships moving around the world) made
tracking cases and issues difficult. He commented it could be “quite” difficult to “track down” a
convening authority when most commanded ships, did not have staff judge advocates assigned,
and might have only a legalman, or additional duty yeoman with collateral justice duties to assist
in exercising military justice responsibilities.

As an appellate defense counsel, he recalled seeing charge sheets riddled with error because non-
lawyers and enlisted members without legal training often drafted the documents. He also
recalled serving as Legal Counsel to the Chief of Naval Personnel in the late 1990s, when the
33
     In our final meeting with him before preparing this report, Admiral Houck indicated he is awaiting
     benchmarking results and recommendations from the ongoing Center for Naval Analyses study, but does not
     now believe the Marine Corps CMS would be a good replacement for CMTIS.


                                                179                                             Appendix K
convictions in a series of courts-martial were set aside because the records had been “lost.”
Among the consequences, every affected Service member was due back pay, for years in some
cases. The Navy personnel command had to find millions of dollars to cover the payments.

One early recollection from his time as both an appellate defense counsel and appellate judge
involved the policy allowing lieutenant assignments to appellate government and defense
counsel positions as their first duty assignments upon completing basic Naval Justice School
training. The assignments were not good for these junior judge advocates who had neither tried
cases nor matured as officers.

Major General Ary, the Marine Corps SJA, remarked that Marine Corps judge advocates had
also drifted from the core military justice function because the "fast track" to good jobs and
promotions had, over the years, shifted to duty in operational billets. This shift led to an
environment of inattention and decline in processing performance, which led to long delays.
Additionally, the sheer military justice case volume and decentralized organizational structure
contributed to post-trial problems.

Major General Ary pointed out demands on the Marine Corps to assume more traditional Army-
land roles in the Iraq conflict dramatically increased the demand for judge advocate services in
operational billets. Frequent deployments and numerous individual augmentee requirements
reduced staffing at ashore legal centers. Captains, who comprise the bulk of military justice
judge advocates in the Marine Corps, experienced reduced litigation opportunities, leading to a
growing experience gap. Traditionally, first assignment captains spent 2-3 years learning their
basic trade, but this time has been cut nearly in half for some judge advocates due to deployment
demands.

Additionally, Marine judge advocates have experienced a grade compression impact from the
promotion process. In 1991, the average time for a Marine to become a major was 12 years and
4 months. In FY 2000 and FY2001, this time was 9 years and 7 months. In FY 2011, the time
will be 10 years and 9 months. The reduced time in rank narrows the junior officers’ experience
base needed to move into a mid-level leadership position.

Given the demands for battlefield deployments, the best judge advocates are generally deployed
to the battlefield. Additionally, the judge advocate community has been tasked with providing
judge advocates for command support in lower echelon organizations without judge advocate
positions in their historical organizational structures, e.g., the Marine Corps is now embedding
judge advocates in battalions and regiments.

The post-trial process lacked the interest shown in the pre-trial process, and the primary “push”
in the pre-trial process was to “get to sentence” on an accused. The Marine Corps SJA
commented that, organizationally, the Marine Corps had always operated with a trust attitude,
trusting people were doing their jobs. Since assuming the present position, the Marine Corps
SJA has undertaken several initiatives to improve and monitor performance, thereby shifting to a
“trust but verify” approach.




                                          180                                        Appendix K
We discussed Marine Corps organizational structures in the field, primarily at the Legal Service
Support Sections and Law Centers visited. The Marine Corps has three Legal Service Support
Sections, one for each Marine Expeditionary Force. They provide military justice and
administrative law services to the command, and their justice operations are organized into
separate trial shops, court reporter shops, and review shops.

This separation increases the opportunity for pre- and post-trial delays because no single system
tracks case movement through the field process. Without a common operating system for staff
judge advocates, review officers, and officers-in-charge to monitor, oversight was as much or
little as local supervisors and officers-in-charge chose to exercise. Existing tracking
system/mechanisms were completely internal to the individual shops. Prior to the Marine Corps
CMS fielding in February 2010, no central tracking system/mechanism existed to capture case
activity in the Marine Corps, or across individual field organizations.

Another senior Marine official told us military justice was a chief focus for Marine Corps
attorneys before September 11, 2001, and many joined the Marine Corps to litigate criminal
cases. Due to the high caseload and litigation opportunities, Marine Corps judge advocates
excelled as litigators. The same was true with Navy judge advocates. In trial and defense
counsel roles, Marine Corps judge advocates interacted with Marine Corps commanders on
military justice issues. Expertise in operational law was, prior to September 11, not considered a
core competency. That situation changed.

Operational law and international law assumed greater roles in the Marine Corps judge advocate
community as the Marine Corps became involved in two wars and judge advocates were
assigned down to the battalion level in war zones. In contrast, the military justice caseload
declined and with that decline, trial advocacy and military justice competency suffered.




                                          181                                        Appendix K
Appendix L.                 Other Initiatives
                           34
Other Navy Initiatives:

         • May 23, 2007: The Navy JAG sent a memorandum to all staff judge advocates in the
Navy addressing post-trial errors and advising that this area would be included as an Article 6
inspection item; he requested that the Chief Judge of the Navy-Marine Corps Court of Criminal
Appeals include staff judge advocate names in court opinion “headnotes,” which is now being
done.
         • 2007-2008: The Navy JAG selected an O-6 (Captain) military justice "Expert" as
Director of the Criminal Law Division (Code 20), hired two experienced civilian litigators to
assist with complex and capital cases, and re-established "Newsmailers" (current topic
informational bulletins).
         • 2008: The Navy JAG imposed a limitation on detailing appellate government and
defense counsel to individual augmentee duty.
         • 2009: A “Case Evaluation Project” was completed that assessed deficiencies in
litigation training and performance, with emphasis on sexual assault cases and specific
curriculum recommendations to the Naval Justice School.
         • 2009: the “detailing cycle” focused on filling military justice litigation career track
billets, increasing the fill rate from 40 percent to 57 percent.
         • 2009: Navy Judge Advocate General Reserve program was reorganized into three
“pillars of support expertise” in the Reserve Component Judge Advocate Total Force Structure
(JAGINST 1001)—the objective was to assign Reserve officers with significant military justice
or civilian criminal justice experience to positions supporting military justice.
         • 2009: the Defense Counsel Assistance Program (DCAP) was adopted as a priority
action item for 2010.
         • 2009: JAGINST 1150.2A requires filling specific billets with military justice
specialists or experts—the requirement applies to four judges on the Court, including the Chief
Judge.
         • 2009: the Military Justice Oversight Council (MJOC) was established. The Judge
Advocate General of the Navy chairs the council, which is a general/flag officer forum for
reviewing military justice in the Navy and Marine Corps. The council has been meeting monthly
to review structural, resourcing and other matters that affect delivering timely and effective
military justice services and evaluate case progress. A SECNAV instruction formalizing the
council is in development.
         • 2009: The Judge Advocate General of the Navy approved reporting "triggers" for
briefing military justice cases to the Military Justice Oversight Council. The triggers include:
cases at 75 days without convening authority action; cases not docketed with the Court after
150 days (the Marine Corps monitors CMS to identify its cases falling in the 75 day and 150 day
parameters); cases docketed with the Court longer than a year; cases in panel longer than
6 months (if the appellant is confined); and any case in its 5th time extension. These triggers are
documented in Council meeting minutes.


34
     In commenting on the draft report, the Navy JAG submitted a list categorizing and expanding upon his overall
     initiatives to improve the military justice system. The list is included in Section VII, pages 102 - 106.
                                                       182

                                                                                                    Appendix L
        • 2009: NAMARA Code 40 procedures were modified to include comprehensive court
“mandate” case tracking in an Excel spreadsheet; field staff judge advocates are given this
tracker, plus a list showing the records of trial Code 40 received in the previous month, to help
assure record control.
        • 2009: trial and appellate judges were given formal guidance on DuBay hearings.
        • 2010: The Navy JAG commissioned a new military judge “survey of counsel”
scheduled for completion in July 2010.
        • 2010: Developing a Navy and Marine Corps case tracking system was adopted as a
JAG 2010 priority action item.
        • 2010: Drafted a SECNAV instruction (still in review) requiring an annual report on
the state of military justice to the Secretary of the Navy, the Chief of Naval Operations, and the
Commandant of the Marine Corps.
        • March-June 2010: After the Bartolo case surfaced, the Navy JAG directed an
exhaustive audit of all relevant Navy and Marine Corps records to identify and locate any case
due for appellate review that might be unaccounted for or missing. That review has been
completed and there is high confidence every appellant case was accounted for.
        • June 2010: Effective July 1, 2010, the Navy JAG intends to establish the Defense
Counsel Assistance Office under the leadership of a captain, a Military Justice Career Track-
designated officer, in the Judge Advocate General Corps who will report to the Commander,
Naval Legal Service Command. At the same time, he intends to formally establish a Trial
Counsel Assistance Office under the tactical control of the Assistant Judge Advocate General
(Operations and Management). In addition, he will continue evaluating the feasibility of
establishing a separate defense command.
        • June 2010: The Judge Advocate General of the Navy directed all JAG IG inspections
of Region Legal Service Offices and fleet units would include an officer or civilian with military
justice expertise. Scheduling to ensure subject matter expertise in both military justice and legal
assistance missions for inspections at Naval Legal Service Offices are also in development. The
Judge Advocate General directed the JAG IG to hire a full-time staff assistant to support the
office's administrative duties and certain investigative functions, enabling the JAG IG to focus
on the critical substantive aspects of his job. Vice Admiral Houck is also working with Major
General Ary to establish a common set of Article 6 military justice inspections items across the
Navy and Marine Corps. This initiative will include soliciting stakeholder input and examining
best practices.
        • June 2010: A new instruction will be developed outlining detailing policy for
military justice assignments, such as judicial tour lengths, requirements for attending and passing
the Military Judge's course, a requirement for staffing NAMARA with at least second-tour
officers, and assigning Reserve Component officers to military justice, including direct
assignments to Appellate Defense Division (Code 45) and Appellate Government Division
(Code 46).
        • June - September 2010: The Navy JAG will oversee a zero-based review of military
justice policy and execution directives in the Department of the Navy to ensure current practices
are institutionalized and practitioners have ready references for guiding their practice and
ensuring compliance with relevant requirements. Instructions will be reviewed and re-issued to
coincide with the next annual update cycle for the Manual of the Judge Advocate General
(JAGMAN), which begins October 1, 2010. Additionally, prospective commanding officers and

                                               183


                                                                                      Appendix L
executive officers will be familiarized with the range of military justice instructions and
requirements at an annual course.

Other Marine Corps Initiatives:

        • 2009: Work began to identify inefficiencies in court-martial administration.
        • January 9, 2010: The Deputy Staff Judge Advocate sent a memorandum to all
Marine Corps judge advocates discussing standards for court-martial post-trial processing,
outlining problem areas, reiterating the Moreno standards, and advising them to focus on three
specific areas: the Case Management System, standardization, and inspections.
        • February 2010: Fielded the upgraded Case Management System (CMS).
        • 2010: Increasing the Information Technology section to four people--civilian chief
with two enlisted members and one civilian employee.
        • 2010: Training Marine field legal offices on CMS use and operations. (The training
had been completed at the two Legal Service Support Sections that we visited.)
        • 2010: Expanding CMS to include administrative separation actions.
        • 2010: Created the Marine Corps-specific Trial Counsel Assistance Program under
which a litigation expert at Marine Corps headquarters (currently, a field-grade officer) can
answer questions from and advise trial counsel in the field. The program will include a GS-15
Sexual Assault and Complex Litigation Expert position, and the Staff Judge Advocate to the
Commandant is considering a program expansion to have three field-grade trial counsel with
proven military justice expertise at the regional level for consultation with local trial counsel.
The program currently has military justice information for trial counsel throughout the Marine
Corps, via web site, share point, blogs, and practice advisories.
        • 2010: Plan to standardize and develop more common processes and methodologies-­
recent decision that all court reporters will work for and report to the Review shops to stop
previous inconsistency under which reporters worked for either the Trial Section, Review
Section, or military justice officer.
        • 2010: Considering a proposal to standardize and develop a common curriculum for
Marine members at the Naval Justice School that includes initial CMS training, rather than have
Marine members learn CMS on the job after arriving at an installation.
        • 2010: Strengthened focus and inquiry areas for Article 6 visits-- pursuant to authority
in Article 6(a), UCMJ, and SECNAVINST 5430.27C, the Staff Judge Advocate to the
Commandant visits all Marine Corps installations to assess the legal services provided. Since
there was no standard inspection process, the current Staff Judge Advocate to the Commandant
developed uniform information requirements for use in these visits.
        • 2010: A new Legal Services Training and Readiness Manual was developed (signed
May 13, 2010) establishing Core Capability Mission Essential Tasks for readiness reporting, and
requiring standardized training for Marines assigned to Marine Corps legal services
organizations. The manual includes formal taskings for schools that prepare personnel for
service in the Marine Corps Legal Services Occupational field. After entry level training, the
manual will be used periodically to evaluate a Marine’s proficiency in the tasks required for the
44XX military occupational specialty.
        • 2010: Standardized Forms/Hot Docs 2009. In conjunction with implementing the
CMS, the Staff Judge Advocate to the Commandant began a process to capture and consolidate

                                                184


                                                                                       Appendix L
forms, document templates, checklists and standard operating procedures, with a view toward
standardization where appropriate. In April 2010, fleet testing began on “Hot Docs 2009”
software, including all the forms and templates created, at legal offices throughout the Marine
Corps. The testing is expected to last 4 to 6 months.
        • May 25, 2010: Reserve Legal Services Support Section -- Based on a 2010 Marine
Corps SJA initiative, in FY 2011, the Marine Reserve’s Legal Services Support Section, which is
currently part of the Marine Corps Mobilization Command, will formally transfer to the Staff
Judge Advocate to the Commandant. The change will give the Marine Corps SJA operational
sponsorship and management over Marine Reserve judge advocates that reside in the Reserve
Legal Services Support Section, and further enhance integrating Reserve judge advocates into
the total force, which is critical in light of operational demands.
        • 2010: Electronic Record of Trial. The Marine Corps judge advocate community and
the Appellate Government Division (Code 46) began a pilot project at Camp Pendleton to test
transmitting and using electronic records of trial. The project is ongoing. The first electronic
record of trial transmission to NAMARA has occurred, and business rules to govern the process
are in development.
        • Regionalize Post-Trial Processing. The Marine Corps judge advocate community is
examining possibilities for streamlining review office structures throughout the Marine Corps.
The intent would be to merge existing offices at a regional level to reduce moving parts,
consolidate resources and expertise and, thereby, gain efficiencies and accuracy.




                                              185


                                                                                   Appendix L
Appendix M. Field Office Process Flow Charts
             Navy RLSO Mid-Atlantic, Norfolk, VA




                         186                       Appendix M
187   Appendix M
Navy RLSO Southwest, San Diego, CA





            188                       Appendix M
189   Appendix M
Marine Corps LSSS Camp Lejeune, NC





            190                       Appendix M
191   Appendix M
192   Appendix M
193   Appendix M
Marine Corps LSSS Camp Pendleton, CA





             194                        Appendix M
195   Appendix M
Appendix N.	 Case Management/Electronic Case Filing
             (CM/ECF) System
The CM/ECF measures time and “date stamps” all documents received in the system. Attorneys
enter data while working in the system. All case documents are loaded in the system, affording
immediate access to any party needing access. The system can calculate the time elapsed
between events, for a single case, or for multiple cases. Everything generating a data entry is
time measurable.

All documents associated with the case are part of the official record of trial, which is located in
CM/ECF and available real-time as filings are completed and judges enter rulings. The system’s
automatic service and notice function records when (date and time) a pleading is filed and
electronically notifies all parties to the litigation. This function allows the responsible judge to
issue an order directly in the system, and the responsible counsel to receive immediate
notification the order was issued.

Everything associated with a trial (cradle-to-grave) is uploaded, recorded, transmitted, and stored
electronically in the system. The case “view” is a “docket sheet” showing each step in the trial
to date, making case status determinations easy without searches or having to view multiple
screens.

The CM/ECF can be programmed to include standard forms for pre-trial, trial, and post-trial
events. This capability includes standard forms for staff judge advocate recommendations
(SJAR) and convening authority actions, which the responsibly party can complete in the system.

The system can also be programmed to aggregate case data and generate desired reports, such as
a report on all sexual assault cases tried in a given period, or a report on cases exceeding post­
trial processing goals. In addition, the system can be programmed to generate automatic
reminders/warnings when actions on pending cases exceed processing time goals. For example,
the Administrative Office, Federal Courts, uses a warning feature to alert the judge when a
motion becomes 90 days old and has not been acted upon.

Other system features include:

       •     user name and password acts as digital signature on documents;
       •     24-hour access to case file documents over the internet;
       •     ability to file pleadings electronically with the court;
       •     documents are automatically time stamped and marked as filed, from pretrial through
appeal(s);
       •     automatic email notification when case activity occurs;
       •     ability to download and print documents directly from the court system;
       •     concurrent, multiple party access to case files;
       •     savings in time and expenditures for attorneys;
       •     expanded search and reporting capabilities; and



                                                  196 	                                Appendix N
       •   easy to use -- based on standard internet browser.

System benefits include:

       • attorneys nationwide have used successfully;
       • no delays or added expenses associated with mail or courier services;
       • speeds delivery and allows easier case activity tracking;
       • reduces physical storage space needs and document processing times;
       • uses standard internet software and established "PDF" format;
       • is secure and reliable;
       • court dockets are immediately updated and available;
       • compiles documents electronically for appellate review;
       • centralizes storage for all military justice pleadings;
       • reduces needless document duplication;
       • efficiently tracks aging cases;
       • ensures that records of trial are not lost;
       • provides appellate court with detailed summary, docket entries and case history;
       • allows all case parties (including original trial and defense counsels) to track case
from beginning to end;
       • data can be used in custom reports;
       • email notification when all case filings occur;
       • electronic filing serves as certificate of service;
       • attorney and case file mobility;
       • can keep up with cases in and out of the office;
       • improved ability to supervise green attorneys;
       • ability to search/view pleadings (Service-wide), trial through appeals; and
       • filings and docket entries serve as metrics.

Potential difficulties in adapting the system for military use:

        • spearheading development (time investment is somewhat unknown);
        • working out kinks – Service-specific interoperability requirements;
        • little support from the Administrative Office, U.S. Courts – the Veterans Claims
Court needed legislation to obtain the system, but the Administrative Office responded favorably
to another Service's interest;
        • system management (personnel);
        • Navy Marine Corps Internet/Service-specific admin requirements; and

        could add additional layer to implementation.





                                                   197                              Appendix N
Appendix O.	 Judge Advocate Promotions - Precept
             Language
Since FY 2007, the Navy used the following precept language in judge advocate promotion
boards for O-4 (lieutenant commander), O-5 (commander) and O-6 (captain) officers. The
language proved successful in enhancing promotion rates for military justice practitioners.

           Military justice plays a critical role in the maintenance of good order and
           discipline and accountability in the Navy. Efficient and effective military justice
           litigation requires experienced, well-trained judge advocate litigators ... In
           determining which officers are best and fully qualified, you shall favorably
           consider the Navy's need for senior officers who have been designated as
           Military Justice Litigation Experts and Specialists, giving equal weight to their
           contributions in military justice litigation that ordinarily would be given to other
           members of the JAG Corps community who have followed more traditional
           career paths.

Unlike the Navy, Marine Corps judge advocates compete for promotion with officers in all
career fields and have performed well historically. Marine Corps promotion boards have
generally recognized the experience gained in military justice positions.

The Marine Corps uses special precept language to advise promotion boards when a career field
experiences a "critical shortage" (below 85 percent). The following special precept language
may be used in a promotion board to highlight a shortage in the judge advocate specialty.

           Skill guidance: Within this board’s charter to select those officers who are ‘best
           and fully qualified,’ the board shall give due consideration to the needs of the
           Marine Corps for officers with particular skills. At this time the needs of the
           Marine Corps reflect a critical shortage (below 85%) of officers in the grade of
           . . . in the following skill areas:

The table below shows the overall promotion rates for Marine Corps majors, lieutenant colonels,
and colonels during recent fiscal years as compared to the rates (both percentage and actual
number) for positions in the judge advocate Military Occupational Specialty. As can be seen in
the table, major and lieutenant colonel judge advocate promotions generally were better than the
overall rates, but colonel judge advocate rates generally were not:
        • the promotion rate for major judge advocates was higher than the rate for majors
overall in five (80 percent) of the six fiscal years reported;
        • the rate for lieutenant colonel judge advocates was higher than the rate for lieutenant
colonels overall in every (100 percent) fiscal year reported; and
        • the rate for colonel judge advocates was higher than the overall colonel rate in two
(33.3 percent) of the six years reported, and were lower in the remaining four years
(66.7 percent).

We cannot attribute the differences reported to precept language usage. The rates for majors and
lieutenant colonels were higher even though precept language was not used, and generally were
lower for colonels even when precept language was used.



                                              198	                                           Appendix O
                                        P r om ot ion R esu lt s 

                M a r in e J u d ge Ad voca t es C om p a r ed t o O ver a ll for R a n k


                    Major                       Lieutenant                         Colonel
                                                 Colonel                                                Precept
FY                                                                                                     Language
          JA          All    Dif.*        JA          All    Dif.*       JA          All     Dif.*      Used **
         MOS         MOS                 MOS         MOS                MOS         MOS

          (a)         (b)    (a)-(b)      (c)         (d)    (c)-(d)      (e)         (f)    (e)-(f)
2011      87.1%      82.8%    4.3%         81.8%    65.6%    16.2%        50.0%     53.6%     -3.6%      No
       (27 of 31)                      (18 of 22)                       (2 of 4)
2010      90.6%      87.6%    3.0%         88.9%    71.8%    17.1%        64.3%     53.4%    10.9%       Yes
       (29 of 32)                      (16 of 18)                      (9 of 14)
2009      78.4%      87.0%   -8.6%         90.9%    70.6%    20.3%        33.3%     50.5%    -17.2%      Yes
       (29 of 37)                      (10 of 11)                      (4 of 12)
2008      90.0%      87.2%    2.8%         82.4%    65.0%    17.4%        12.5%     51.0%    -38.5%      No
       (18 of 20)                      (14 of 17)                       (1 of 8)
2007      90.0%      86.5%    3.5%         75.0%    62.5%    12.5%        23.5%     48.4%    -24.9%      No
       (27 of 30)                       (9 of 12)                      (4 of 17)
2006      92.9%      81.7%   11.2%         78.9%    67.2%    11.7%        80.0%     50.8%    29.2%       Yes
       (26 of 28)                      (15 of 19)                       (4 of 5)
 * Percentage point difference
** Used in colonel promotion boards only in the fiscal years covered




                                                    199                                                Appendix O
Appendix P.             Report Distribution
Office of the Secr etar y of Defense

General Counsel, Department of Defense

Assistant Secretary of Defense (Legislative Affairs)

Depar tment of the Navy

Secretary of the Navy*

Department of the Navy, Office of the General Counsel

Judge Advocate General of the Navy*

Naval Inspector General

Staff Judge Advocate to the Commandant, United States Marine Corps*

Depar tment of the Ar my

Judge Advocate General of the Army

Depar tment of the Air For ce

Judge Advocate General of the Air Force

Congr essional Committees and Subcommittees, Chair man and Ranking Minor ity Member

Senate Subcommittee on Defense, Committee on Appropriations

Senate Committee on Armed Services

Senate Committee on Governmental Affairs

House Subcommittee on Defense, Committee on Appropriations

House Committee on Armed Services

House Committee on Government Reform


*Recipient of draft report





                                           200                           Appendix P
· , ..
